<html>
<title> - MISCELLANEOUS PARKS BILLS</title>
<body><pre>[Senate Hearing 113-93]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 113-93

 
                       MISCELLANEOUS PARKS BILLS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                           S. 398                                S. 1138

                           S. 524                                S. 1151

                           S. 618                                S. 1157

                           S. 702                                S. 1186

                           S. 781                                S. 1252

                           S. 782                                S. 1253

                           S. 869                                S. 1328

                           S. 916                                S. 1339

                           S. 925                                H.R. 674

                           S. 974                                H.R. 885

                           S. 995                                H.R. 1033

                           S. 1044                               H.R. 1158

                           S. 1071


                                     

                               __________

                             JULY 31, 2013


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
85-179                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4c3d4cbe4c7d1d7d0ccc1c8d48ac7cbc98a">[email&#160;protected]</a>  

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado, Chairman

MARY L. LANDRIEU, Louisiana          ROB PORTMAN, Ohio
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
DEBBIE STABENOW, Michigan            MIKE LEE, Utah
BRIAN SCHATZ, Hawaii                 LAMAR ALEXANDER, Tennessee
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

Ron Wyden and Lisa Murkowski are Ex Officio Members of the Subcommittee



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bennet, Hon. Michael, U.S. Senator From Colorado.................     7
Gillibrand, Hon. Kirsten E., U.S. Senator From New York..........     3
Heller, Hon. Dean., U.S. Senator From Nevada.....................     5
Kaine, Hon. Tim, U.S. Senator From Virginia......................     2
Portman, Hon. Rob, U.S. Senator From Ohio........................    10
Reid, Hon. Harry, U.S. Senator From Nevada.......................     4
Sanders, Hon. Bernard, U.S. Senator From Vermont.................     6
Schatz, Hon. Brian, U.S. Senator From Hawaii.....................     9
Toothman, Stephanie, Associate Director, Cultural Resources, 
  Partnerships and Science, National Park Service, Department of 
  the Interior...................................................    11
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1
Warren, Hon. Elizabeth, U.S. Senator From Massachusetts..........     6

                                APPENDIX

Additional material submitted for the record.....................    49


                       MISCELLANEOUS PARKS BILLS

                              ----------                              


                        WEDNESDAY, JULY 31, 2013

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:01 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. The Subcommittee on National Parks will come 
to order.
    Let me thank all of you for your patience and forbearance. 
We had a cloture vote on the Floor of the Senate that continued 
for a while. We thought there was going to be a second vote. At 
this point it appears that second vote has been postponed.
    So we now have the opportunity to have an important hearing 
on our National Park portfolio. We're going to consider 25 
bills covering a wide range of issues relating to the 
Department of the Interior including National Park historic 
preservation and recreation issues. Although the agenda is 
lengthy, I believe many of the bills are non-controversial and 
several have been the subject of previous hearings before this 
subcommittee.
    So I'm hopeful that we can move through the hearing 
quickly.
    The purpose of this afternoon's hearing is to hear the 
Administration's views on these bills and allow committee 
members an opportunity to ask any questions they may have. As 
I've referenced, there is a large number of bills on today's 
agenda. Because of that large number I won't read through the 
list. But at this time I'll include the complete list of bills 
in the hearing record. I have that list here.
    Senator Udall. I know that a few members of the 
subcommittee, Senator Portman, Senator Sanders, Senator Schatz 
and maybe a few others have bills of personal interest to them 
on today's agenda and I look forward to learning more about 
their bills during the hearing.
    If I could I'd like to take a minute to mention 2 bills of 
particular interest to Colorado before I recognize my 
colleague, Senator Bennet.
    The first bill is S. 1071, which I introduced to allow the 
National Park Service to make improvements to a visitor's 
center located outside the boundaries of the Sand Creek 
Massacre National Historic Site in Colorado. The Park Service, 
I know, has been working with Kiowa County officials and has 
identified a building that would be appropriate for shared use 
benefiting both the county and the Park Service. But 
legislation is needed so that the Park Service can provide 
funding since the site is located outside of the park boundary.
    I hope to see this bill move quickly. I know Senator Bennet 
does as well because it would provide a real economic boost to 
a great community that's been hit hard by the challenging 
economic times we've been facing.
    The second bill is one that Senator Bennet will share his 
thoughts on. It would authorize the Pike National Historic 
Trail Study.
    I wanted just to say while many people are familiar with 
Pike's Peak, relatively few people know that it was named after 
Lieutenant Zebulon Pike. I found it interesting, and I know 
Senator Bennet does as well, that he never actually climbed the 
mountain that bears his name, although it's believed he did 
climb nearby Mount Rosa. I will leave the rest of my remarks 
for the record because I want to hear from my colleague, 
Senator Bennet, and his support and his authorship of this 
important bill.
    Senator Udall. Senator Bennet, you're recognized.

    [The prepared statements of Senators Kaine, Gillibrand, 
Reid, Heller, Warren, and Sanders follow:]

Prepared Statement of Hon. Tim Kaine, U.S. Senator From Virginia, on S. 
                                  916

    Mr. Chairman, thank you for holding this hearing today and for 
considering S. 916, a bill I've introduced with Senator Thad Cochran, 
to reauthorize the American Battlefield Protection Program. Our states 
hosted key battles of the Civil War and have led the nation in 
preserving the land on which these defining battles were fought.
    I was proud to have supported this program when I was Governor of 
Virginia, and I am proud that 11 bipartisan cosponsors have joined my 
friend Senator Cochran and me on this bill--six Democrats, four 
Republicans, and one independent. The House of Representatives passed 
identical legislation (H.R. 1033) on April 9 with a strong two-thirds 
majority, which I believe is a testament to the depth of support for 
this program across the country. The program also expires on October 
1st of this year, making its reauthorization a timely priority.
    America's battlefields are historic landmarks that help us 
commemorate what made our nation what it is today. Too many of these 
sites are open to haphazard development that could leave no trace of 
the sacrifices made there. That is why this bill continues federal 
competitive matching grants to protect these historic lands. It extends 
the authorization for the American Battlefield Protection Program for 
five years at the current funding level and adds sites of the 
Revolutionary War and the War of 1812 to the program's eligibility. 
These grants have a 1 to1 federal/non-federal match, which is often 
exceeded on the non-federal side by private contributions.
    The program is strictly voluntary. This bill specifies that land 
will be acquired only from willing sellers and only at fair market 
value. It also authorizes funding solely for land acquisition, 
incurring no development or maintenance costs for the National Park 
Service.
    It would be worth protecting these battlefields for the historic 
value alone, but these activities also have economic value. Battlefield 
tourists do not simply pass through a region. They pay for guided 
tours. They stay in hotels and bed and breakfasts. They dine at local 
restaurants. They browse the shops on town streets. According to a 
study by the Virginia Tourism Corporation, Civil War tourists in 
Virginia stay twice as long and spend double the money of the average 
tourist. Of out-of-town visitors interviewed at 20 battlefields, two-
thirds were visiting the area specifically to see the battlefield, and 
three-quarters said they would visit other Civil War sites while in the 
area.
    On these battlefields, American soldiers demonstrated to posterity 
the meaning--and the price--of freedom. To understand this history is 
to understand ourselves as Americans. This effort brings together 
federal, state, and private sector supporters to ensure future 
generations will be able to visit these sites and appreciate the 
historic deeds that transpired on this hallowed ground.
                                 ______
                                 
  Prepared Statement of Hon. Kirsten E. Gillibrand, U.S. Senator From 
                          New York, on S. 925

    Mr. Chairman and members of the subcommittee, I am pleased to be 
the sponsor of S. 925, a bill to improve the Lower East Side Tenement 
National Historic Site, and for other purposes.
    The Lower East Side Tenement Museum was founded in 1988; for the 
past twenty five years has worked to preserve and interpret the history 
of immigration through the personal experiences of the generations of 
newcomers who settled in and built lives on Manhattan's Lower East 
Side, America's iconic immigrant neighborhood. The Museum forges 
emotional connections between visitors and immigrants past and present 
through tours of its historic building at 97 Orchard Street, which was 
declared a National Historic Landmark in 1994. The historic site became 
an affiliated site of the National Park System (NPS) in 1998 in PL l05-
378 and is key part of the National Parks of New York Harbor, which 
includes Statue of Liberty, Ellis Island, and Castle Clinton.
    The Museum now serves nearly 200,000 visitors per year, including 
40,000 school children. Visitors explore recreated apartments and hear 
the stories of real families from over twenty nations who lived in the 
building from 1863 to 1935 when the City ofNew York condemned the 
building as unfit for human occupancy.
    The Museum purchased 103 Orchard Street, an 1888 tenement building, 
in 2007 and renovated its lower floors as a visitor and education 
center. Unlike the Museum's first historic structure, 103 Orchard 
Street never closed to residents, and so has provided homes to more 
recent waves of immigration. The Museum is now developing an exhibit to 
present stories of Jewish Holocaust survivors, post-1965 Chinese 
families, and 1950s Puerto Rican migrants. Together, these will extend 
the Museum's immersive historic interpretations beyond 1935, where they 
now end, into the present.
    This project is a direct response to NPS Director Jon Jarvis's 
``Call to Action'' to tell America's untold stories. The exhibit would 
be the first at a National Park Service site to interpret the history 
of Holocaust survivors rebuilding lives in America. It would also be 
one of the few telling the stories of Puerto Rican migrants to the 
mainland and post-1965 Chinese immigrants. The interpretation differs 
from ethnic museums in that it presents the larger narrative of how 
Americans came to be the people they are today. The new exhibit will 
provide the setting for a powerful narrative about how Civil Rights Era 
Americans came to embrace non-race-based immigration; the exhibit will 
reflect the experiences of contemporary Americans in the diverse 
communities that now constitute much of the nation.
    S. 925 aims to expand the boundaries of the National Park Service 
affiliated site at 97 Orchard Street to include this newer tenement 
building. Including 103 Orchard Street is a direct response to the 
Department of the Interior's 2006 General Management Plan for the site, 
which recognized the need for visitor orientation, administrative 
facilities, and additional exhibit space. It determined that any 
boundary adjustment include significant features related to the primary 
purpose of the site, address operational issues including access, or 
protect resources critical to the site's mission. It also required 
legislation to adjust the site's boundaries.
    These new exhibits are directly related to the Museum's mission and 
allow visitors to see how immigration has continued to evolve into the 
present. The Museum estimates the expansion would allow it to 
accommodate 50,000 additional visitors annually, including 12,000 New 
York City students. Furthermore, these exhibits will be fully ADA 
accessible which the majority ofthe original exhibits are not.
    This legislation would secure a partnership between the new space 
and the National Parks ofNew York Harbor. NPS would be able to assist 
this site with education workshops, tours for New York City school 
children, and exhibition construction and preservation, just as it has 
done at the original site. This designation would help preserve 
America's iconic immigrant neighborhood. It is critical to provide the 
Tenement Museum with the resources it needs to continue to educate our 
children and tell the important stories of our past immigrant 
experience. The immigration story is America's story; New York's Lower 
East Side has been 'stop one' for countless generations of new 
Americans.
    The Lower East Side Tenement Museum has worked for twenty five 
years to enhance appreciation for the profound role immigration has 
played and continues to play in shaping America's evolving national 
identity. Today I ask that you support S. 925 and expand the affiliated 
site boundaries to include this second historic building and help 
ensure the Tenement Museum's success for years to come.
                                 ______
                                 
   Prepared Statement of Hon. Harry Reid, U.S. Senator From Nevada, 
                               on S. 974

    Thank you Chairman Udall and Senator Portman for the opportunity to 
submit testimony on this bipartisan proposal to conserve an amazing 
piece of Nevada's natural heritage and create new opportunities for 
economic development in Southern Nevada.
    This May, I sponsored the reintroduction of the Las Vegas Valley 
Public Lands and Tule Springs Fossil Beds National Monument Act with my 
colleague Senator Heller and the entirety of the Nevada congressional 
delegation. I would like to take this opportunity to thank my 
colleagues for their willingness to work together on this legislation 
through a hands-on, ground level approach.
    The heart of this bill, the creation of the 23,000-acre Tule 
Springs Fossil Beds National Monument, would conserve, protect and 
enhance the unique and nationally important paleontological resources 
in southern Nevada.
    Efforts to protect the paleontological treasures within the Upper 
Las Vegas Wash stretch back nearly 80 years, when during the first 
fossil expedition in the area unearthed what was named ``Tule the Baby 
Mammoth.'' Since that first discovery, over 400 paleontological sites 
have been unearthed in Tule Springs, providing a record of human 
activity dating back 11,000 years ago and a repository of Ice Age 
fossils up to 200 millennia old. Since the 1950s, fossils of Columbian 
mammoths, ground sloths, American lions, Dire wolves, Sabertoothed 
tiger, and Camelops have been found.
    Tule Springs is also home to some of the most sensitive species in 
southern Nevada including the Las Vegas buckwheat, which is currently 
being considered for listing under the Endangered Species Act, the 
Merriam's bearpoppy, the Las Vegas bearpoppy, and the halfring 
milkvetch. Tule Springs is also habitat for the desert tortoise, 
burrowing owls, and kit foxes.
    The fossil beds proposal is the product of over a decade of hard 
work by the community. Recognizing the threats of development to the 
area, a coalition of environmentalists, tribes, academics, and retired 
Park Service employees formed in the mid-2000s with a goal of seeking a 
protected status for Tule Springs. The Protectors of Tule Springs 
collected over 10,000 signatures in support of protection and in 2009 
the National Parks Conservation Association launched a campaign to add 
the site to the National Parks system. A year later, a Park Service 
reconnaissance report found the site suitable for inclusion in the park 
system. The monument proposal was developed in close partnership with 
local governments and the Clark County Commission, the Las Vegas City 
Council, the North Las Vegas City Council and the Nevada State 
Legislature have all passed resolutions supporting the addition of the 
area to the national park system.
    In addition to protecting the paleontological and natural resources 
found within the site, the monument would be an economic driver in the 
Las Vegas community. The monument would be located a mere 30 minutes of 
the Las Vegas strip and is expected to generate $25 to $50 million for 
the regional economy within the first four years of operation. This 
economic boost will be welcomed as Las Vegas emerges from the recession 
and one of the worst housing crashes in the country.
    This bill also expands the Red Rock National Conservation Area by 
roughly 1,700 acres. Red Rock is one of Nevada's most treasured outdoor 
destinations and receives well over 1 million visitors every year. In 
recent years, Red Rock has been celebrated as one of the top climbing 
destinations in the world.
    The legislation also make several land conveyances in the Las Vegas 
Valley that are vital to the health of the economy and community in 
Southern Nevada. Approximately 640 acres would be conveyed to each Las 
Vegas and North Las Vegas to establish ``job creation zones.'' The 
cities, after receiving the land, will master plan it and then sell it. 
The proceeds from the sales will be allocated to the Southern Nevada 
Public Lands Management Act fund, which provides funding for 
conservation and recreation infrastructure in Nevada. The bill would 
also convey 80 acres to the Las Vegas Metropolitan Police Department 
for construction of an access road to their current shooting facility 
near Sunrise Mountain. Nearly 2,500 acres will be conveyed to 
institutions of higher education for the creation of new campuses in 
Las Vegas, North Las Vegas and Pahrump. Three parcels of land will be 
conveyed to Clark County for flood mitigation infrastructure for the 
Southern Nevada Supplemental Airport. Finally, 410 acres will be 
conveyed to the Air Force for inclusion in Nellis Air Force Base.
    The Spring Mountains National Recreation Area Act will be amended 
to allow the Forest Service to acquire lands from or exchange lands 
with individuals. The Forest Service would also be allowed to sell 
small parcels of land to residents who are currently in trespass on 
National Forest lands in the Spring Mountains area.
    Additionally, the bill would amend the SNPLMA boundary to add 4,000 
acres in Las Vegas and 4,000 acres in North Las Vegas. These expansions 
are meant to compensate Las Vegas and North Las Vegas for the 
developable acres they would lose as a result of the National Monument 
designation.
    The bill would release the Sunrise Mountain Instant Study Area from 
wilderness consideration. The area has been adequately studied and 
found to have no wilderness characteristics. With the release of the 
Sunrise ISA, a vital transmission corridor can expand to meet the needs 
of Southern Nevada and California.
    Section 12 of this bill conveys 1,200 acres of public land in the 
Nellis Dunes area for an off-highway vehicle recreation park managed by 
Clark County, and designates roughly 10,000 acres of public land 
surrounding the park as an off-highway vehicle recreation area. It also 
designates an economic support area near the Las Vegas Motor Speedway 
that will generate revenue to help pay for the management of the park 
and recreation.
    Finally, the bill protects the current operations at Nellis Air 
Force Base, a vital part of Southern Nevada's economy, by allowing 
military overflights over the Tule Springs Fossil Beds National 
Monument, which is a critical flight corridor between Nellis Air Force 
Base and Nellis Test and Training Range, and the additions to Red Rock 
National Conservation Area.
    I look forward to working with the Senate Energy and Natural 
Resources Committee to move this bill forward. I request that my 
statement be included in the record.
                                 ______
                                 
   Prepared Statement of Hon. Dean Heller, U.S. Senator From Nevada, 
                               on S. 974

    I first want to thank Chairman Udall and Ranking Member Portman for 
allowing me to be here today, and for holding this hearing.
    Eighty-seven percent of Nevada's lands are controlled by the 
federal government-so the health of our communities is intertwined with 
our public lands and the actions of land management agencies, and I am 
grateful for the opportunity to work with my colleagues to address the 
challenges that face public lands states, like Nevada.
    I'm pleased to speak in support of S. 974, Las Vegas Valley Public 
Land and Tule Springs Fossil Beds National Monument Act of 2013. This 
bill is the culmination of several years of effort to protect unique 
areas while providing for job creation opportunities.
    It also plans for critical infrastructure that will be necessary to 
meet the needs of the Valley. The centerpiece of the bill is the 
designation of the Tule Springs Fossil Beds National Monument in the 
Upper Las Vegas Wash. This area contains fossil beds that include Ice 
Age mammals such as the Columbian mammoth, American lion, and ancient 
horses. The monument designation will protect the unique natural values 
and important scientific resources there.
    In addition to the creation of the Monument, the bill also 
facilitates economic development in the region, conveys land to the 
Nevada System of Higher Education to expand education opportunities for 
Nevadans, and transfers additional land for other public purposes. 
Another important aspect of this bill is the facilitation of renewable 
energy transmission. Releasing the Sunrise Instant Study Area will 
expand opportunities for deployment of renewable energy, which is an 
important part of Nevada's future. Additionally, the bill will create a 
10,000 acre recreation area to be administered by the BLM for use by 
off-highway vehicles in southern Nevada. The legislation would also 
convey to Clark County approximately 1,000 acres for the development of 
facilities to support the off-road vehicle recreation. I have worked 
for many years on this important proposal to facilitate shared goals of 
improving air quality, public safety, and OHV recreation while 
protecting critical desert tortoise habitat.
    S. 974 is a great example of how conservation, economic 
development, and recreational opportunities can be achieved when 
stakeholders come together to work out their differenc Thank you again 
for the opportunity to be here today to discuss this important 
legislation.
                                 ______
                                 
       Prepared Statement of Hon. Elizabeth Warren, U.S. Senator 
                     From Massachusetts, on S. 1186

    Mr. Chairman, I was pleased to introduce the Essex National 
Heritage Area Reauthorization Act (S. 1186), and I thank you for the 
opportunity to offer a few words about this wonderful area. The Essex 
National Heritage Area is special not only to the communities north of 
Boston that it encompasses, but also to the many visitors it attracts 
who go there to hike its network of nature trails and to learn about 
17th Century settlers, 18th Century seafarers, and 19th Century 
industrial workers.
    The Essex National Heritage Area received its designation by 
Congress in 1996 as place where natural, cultural, and historic 
resources combine to form a cohesive, nationally important landscape. 
This landscape includes historic homes and industrial architecture, as 
well as scenic natural resources, including rocky coasts, harbors, 
marshlands and rivers. It boasts 26 national historic landmarks, 9,968 
sites on the National Register of Historic Places, 73 National Register 
Historic Districts, two national park sites--Salem Maritime National 
Historic Site and Saugus Iron Works National Historic Site--and a 
national wildlife refuge.
    What I find so remarkable about the Essex National Heritage Area 
are the innovative ways that it involves its local communities in its 
ongoing work. Just one example is the Youth Summer Job Corps. Through a 
partnership with the National Park Service, the Essex National Heritage 
Area employs 14-18 year-olds from local communities to work at the two 
national park sites in Salem and Saugus, as well as at a working farm 
in Ipswich. For 8-12 weeks in the summer, these teens work with 
National Park Service staff, acquiring skills in historic preservation 
and natural resource management. At the end of the summer, many of 
these students come away with great job experiences and appreciation of 
the role of their communities in our national story.
    Also notable is how the Essex National Heritage Area is able to 
make the most of its federal funding. As National Park Service Director 
Jon Jarvis has noted, national heritage areas are places where small 
investments pay huge dividends. Essex, like other heritage areas, 
collaborates with local partners to carry out its mission of cultural, 
historical and natural resource preservation, and in the process, makes 
substantial contributions to its local economy.
    Thank you, Mr. Chairman, and I hope the Committee will look 
favorably on this bill to reauthorize the Essex National Heritage Area.
                                 ______
                                 
Prepared Statement of Hon. Bernard Sanders, U.S. Senator From Vermont, 
                               on S. 1252

    Senate Energy and Natural Resources Subcommittee on National Parks 
Hearing on Misc. National Parks Bills Senate Dirksen Building, Room 366 
at 2:30pm July 31, 2013
    Thank you Chairman Udall and Ranking Member Portman.
    I speak today in support of The Upper Missisquoi and Trout Wild and 
Scenic Rivers Act. This bill is endorsed by the entire Vermont 
Congressional Delegation. The Senate bill I introduced is co-sponsored 
by Senator Leahy, and the House companion is sponsored by Congressman 
Welch.
    Forty states have rivers under the Wild and Scenic System, spanning 
the country from Florida to Alaska. The program was established in 1968 
to recognize and preserve rivers for their remarkable scenic and 
recreational value. Knowing the exceptional value of the Missisquoi and 
Trout Rivers--enjoyed by paddlers, anglers and naturalists; communities 
in northern Vermont sought to add these rivers to the national system.
    The study and designation of these rivers under the Wild and Scenic 
Rivers Act has been a community lead effort from start to finish. This 
proposed designation is the result of a congressionally authorized Wild 
and Scenic study requested by local Vermonters. Over the past few 
years, the Study Committee worked with local communities, and the 
National Park Service to evaluate the rivers' potential for a Wild and 
Scenic designation.
    This year, the committee completed their work. They concluded what 
Vermonters across the state already know. These 46 miles of river offer 
outstanding resources, deep agricultural heritage, rich rural 
character, extensive recreational opportunities, and scenic working 
landscapes. The committee unanimously recommended that the Upper 
Missisquoi and Trout rivers become Vermont's first in the Wild and 
Scenic System.
    This proposal enjoys widespread support across Vermont. Residents 
in Berkshire, Enosburg Falls, Enosburgh, Montgomery, North Troy, 
Richford, Troy and Westfield voted on our annual Town Meeting day this 
spring to proceed with this measure. Robust public support is the 
result of the Wild and Scenic Study Committee's careful work throughout 
these past years, involving the people of northern Vermont at every 
step to create a management plan that strikes the right balance between 
recreational uses of our natural resources, and maintaining a healthy, 
and beautiful environment.
    Inclusion in the Wild and Scenic system will help protect the 
natural, cultural and recreational qualities of the Upper Missisquoi 
and Trout rivers; maintain good water quality within the rivers as well 
as in Vermont's beautiful Lake Champlain, where the Missisquoi River 
flows into.
    I want to thank the efforts of the Wild and Scenic Study Committee 
members in Vermont, and my delegation colleagues; Senator Leahy, and 
Congressman Welch, for collaborating on this effort. I look forward to 
working with my colleagues on the Committee to report this bill quickly 
and favorably, to preserve these rivers for the people of Vermont.

        STATEMENT OF HON. MICHAEL BENNET, U.S. SENATOR 
                         FROM COLORADO

    Senator Bennet. Thank you, Chairman Udall. It's a great 
honor to be before you and also before our great colleague from 
Hawaii, Senator Schatz. He's provided such extraordinary 
leadership when it comes to National Parks since he's been 
here.
    But calling you, Mr. Chairman, gives me special 
satisfaction. So thanks for having me today. Thanks for holding 
this hearing, allowing me to testify for a few minutes in 
support of S. 524, the Pike National Historic Trails Study Act 
of 2013.
    Mr. Chairman, I want to extend special thanks for your 
support of this bill as an original co-sponsor. The bill is a 
simple one, less than a page long.
    The legislation would create a feasibility study regarding 
the establishment of the Zebulon Pike National Historic Trail.
    The trail would recognize Pike's journey into the West 
starting in Missouri in 1806.
    Crossing acreage in 7 modern day States and Mexico.
    Until ending in 1807 in Louisiana.
    Should the Park Service deem the route worthy of addition 
to the system a separate act of Congress would be needed to 
formally designate the trail.
    I'm here today just to express support for the study 
legislation and briefly describe why this trail is significant.
    Born 3 years after our country's independence, Lieutenant 
Zebulon Pike joined the Army when he was 20 years old. It was 
in July of 1806 that the Army tasked him with exploring the 
Southwestern border of the land recently acquired as part of 
the Louisiana Purchase. The expedition started in Missouri, 
moved across Kansas and then into the Southeastern part of our 
home State of Colorado.
    They trudged up the Arkansas River Valley. It was in 
November of 1806 that Pike first saw the peak that would 
someday bear his name. While, as the chairman said, he tried, 
the Lieutenant never actually set foot on the summit of Pike's 
Peak, the Easternmost, 14,000 foot mountain in the United 
States and one of over 50 mountains in Colorado above that 
height, the most in the Nation by far. Though the last person I 
need to tell about that is the chairman of this committee, as 
he has climbed every single one of them.
    Following the detour to Pike's Peak, the expedition 
continued on. They ate a Christmas dinner of buffalo meat near 
the modern day city of Salida. Then they continued south over 
the Sangre de Cristo Mountains and around what is now the Great 
Sand Dunes National Park until they hit the Rio Grande River.
    They established a smallish fort, now known as Pikes--just 
south of present day Alamosa. It was there in February 1807 
that Spanish soldiers captured Pike and his expedition and 
marched them south to Santa Fe and then into the Chihuahua 
region of Mexico. While they were treated fairly by the Spanish 
it wasn't until June that Pike and most of his men were 
returned to U.S. soil in Louisiana, nearly 1,000 miles from 
where they were captured.
    Mr. Chairman, Lieutenant Pike's expedition was the first 
American led journey through the Southwest. The historical 
significance of the journey to Colorado, to the West and to 
this nation goes well beyond this brief summary. Beyond 
recognizing the American pioneer in the rich history of the 
western landscape, the establishment of the Pike Trail would 
provide opportunities for economic development, as the Chairman 
mentioned, all along the route.
    The legislation is widely supported by local governments 
across 5 States. I have letters of support for the bill from 22 
county commissions, including 16 in Colorado. With your 
permission I'd like to enter those letters into the hearing 
record.
    Senator Udall. Without objection.
    Senator Bennet. Thank you, Mr. Chairman.
    These are local leaders, both Democrats and Republicans 
seeking to diversify the economies of our rural communities.
    I hope the Committee will recognize these worthy goals, see 
fit to promptly and favorably move this bill forward in the 
process.
    Thank you again for allowing me to testify this afternoon.
    Senator Udall. Thank you, Senator Bennet.
    When we get this project completed we'll continue to learn 
about and appreciate the fascinating stories of Pike's travels. 
As a member of the Intelligence Committee I'm particularly 
intrigued with one of the theories which is that Pike allowed 
himself to be captured so that he could both take advantage of 
Mexico's resources and learn more about what the country south 
of us was doing. There are other historians that think he was 
not fully aware of the danger that he was in.
    But whatever the case may be it's a fascinating part of the 
history of our part of the country. I thank you for your 
authorship.
    Senator Bennet. Thank you. I thank the ranking member for 
allowing this hearing as well.
    Thanks, Mr. Chairman.
    Senator Udall. Thank you. Thank you, Senator Bennet.
    The ranking member has joined us.--As always.
    I don't know if the ranking member has a statement or 
whether as he gathers himself, I could turn to Senator Schatz 
for a statement.
    But Senator Portman, would you like to be recognized?
    Senator Portman. Senator Schatz should go. He was actually 
here before me.
    Senator Udall. Senator Portman as always is gracious.
    Let me recognize Senator Schatz for any comments he might 
have.

         STATEMENT OF HON. BRIAN SCHATZ, U.S. SENATOR 
                          FROM HAWAII

    Senator Schatz. Thank you to the chairman and the ranking 
member. Thanks, ranking member, for your accommodation. I 
appreciate all of the pieces of legislation being considered 
today.
    I'd like to especially thank the committee for considering 
S. 618, the Pacific Islands Park Act, which would direct the 
Department of the Interior to conduct feasibility studies for 
potential parks in Hawaii and Pacific Islands. It will direct 
studies on Midway Atoll, the Northern Marianas Islands, Palau 
and of course, most important to me, 3 studies in the State of 
Hawaii. I want to thank the National Park Service for its 
attention to this bill.
    I appreciate the thoughtful comments provided on this 
legislation. Look forward to working with the National Park 
Service, the Subcommittee Chairman, the ranking member and the 
full committee to incorporate any input that may be necessary 
from the testimony and to consider any other suggestions that 
may arise.
    As you know, some of Hawaii's greatest resources are its 
globally unique mountains, forests, volcanoes, trails and 
wildlife. These studies are a critical step in protecting 
natural resources preserving history and culture in Hawaii and 
across the Pacific and providing access to residents and 
visitors, who want to share in Hawaii's breathtaking natural 
environment. Visitors from all over the world travel to Hawaii 
to experience not only the natural beauty, but also the 
cultural and historical significance of our national parks 
which have resulted in a significant contribution to our 
State's growing economy.
    Parks are a wise investment supporting hunting, fishing, 
camping and other outdoor recreational activities that 
contribute a total of 725 and a half billion dollars annually 
to the United States economy and a little over 6 million jobs 
according to the Outdoor Industry Association. It's 
particularly important to the Hawaii tourism economy which has 
helped to drive our unemployment below 5 percent. More broadly, 
outdoor recreation, and I know chairman, that you know this, 
nature conservation and historic preservation contribute a 
total of about $1,000,000,000 trillion annually to the economy 
supporting more than 8 million jobs.
    So I thank the Department of the Interior and the National 
Park Service for their collaboration on this matter.
    I thank the subcommittee chair and ranking member and all 
of the members, in advance, for their favorable disposition.
    Thank you.
    Senator Udall. Thank you, Senator Schatz, for your 
leadership.
    Thank you for also reminding us that our parks not only add 
to our quality of life, but are key economic drivers. Both 
Senator Portman and I are intrigued with the 5 percent 
unemployment rate. That's close to where historically it has 
been in our country. We all would like to see it maybe at 3 
percent or maybe zero percent.
    But that's some very good news. It speaks, again, to the 
importance of protecting these natural landscapes.
    Thank you. We look forward to working with you.
    Senator Schatz. Thank you.
    Senator Udall. Let me recognize the Ranking Member, Senator 
Portman.

          STATEMENT OF HON. ROB PORTMAN, U.S. SENATOR 
                           FROM OHIO

    Senator Portman. Thank you and I'll be brief.
    Sorry that I was detained on the Floor.
    It was good to have Senator Bennet before us. I understand 
he testified on the National Park's--or the National Trail 
System's Act and wants a study on incorporating Pike Trail 
which I'm sure the chairman has some interest in too, into the 
National Park System. So--or the National Trail System.
    I look forward to hearing about many of the bills today. We 
have 24 before us. So we've got a busy agenda. There are a 
couple that I have particular interest in.
    One, I want thank the Chairman for including in that is the 
Ohio and Erie Canal bill, S. 1339. This is a heritage area. 
Ohio and Erie Canalway, that I supported when I was in the 
House and was established to acknowledge the Ohio/Erie Canals 
historical contribution to the region.
    It's become quite an attraction for outdoor enthusiasts in 
our area. I think there's about an 81 mile tow path now running 
through the heart of the canalway. Having recently bicycled on 
it myself with my family, I can attest to the fact that it's a 
valuable resource. It was full of other bikers. It's become 
quite a popular area in a highly populated part of our country.
    Another bill on the agenda that I've introduced again this 
year, this time with Senator Landrieu, with Senator Lieberman 
last year is the bill S. 1044 which is the World War II 
Memorial Prayer Act. It's a bipartisan bill that would allow a 
plaque to be at the World War II memorial. Some of you, I'm 
sure, have visited the World War II memorial.
    Mr. Chairman, it's a terrific tribute to our World War II 
generation, including my dad. He used to love to go down there. 
But frankly, I think, it could use some more interpretation. 
This is one of the things that I think would add to it.
    On D-Day, June 6, 1944, President Roosevelt gave an 
incredibly powerful message to the Nation in the form of a 
prayer that helped bring the country together. That plaque or 
inscription we'd like to see on the World War II memorial would 
commemorate that prayer.
    I've worked with the Park Service on this over the last 
couple years. We're not trying to disrupt the memorial, or 
bypass the Commemorative Works Act process which governs 
monuments in Washington.
    So this would be assigned to a commemorative works approval 
and review process. It makes it consistent with how the 
legislation has been passed by previous Congresses. I've had 
good conversations with Secretary Jewell regarding this 
legislation, actually on the 69th anniversary of D-Day earlier 
this year.
    So I hope this ever gets the same reception here as it did 
in the House last year where a companion legislation, 
introduced by Congressman Bill Johnson, overwhelming passed by 
a vote of 386 to 26. After 70 years this prayer still has the 
power to bring us together and to remind us that although we 
may have our differences there's also a lot that unites us as a 
country. So, again, I hope my colleagues will join us in 
encouraging that this extraordinary prayer, this example of 
faith in our nation's history, be added to the memorial.
    I want to thank the witnesses who are before us today. 
Again, we have a number of different bills I look forward to 
hearing more about.
    Again, apologize for my tardiness and look forward to 
getting into the specific bills before us.
    Senator Udall. Thank you, Senator Portman.
    Dr. Toothman, if you would come forward. I think you will 
be joined by Mr. Spisak as well. We look forward to hearing 
your testimony.
    Dr. Stephanie Toothman is the Associate Director for 
Cultural Resources, Partnerships and Science at the National 
Park Service.
    Dr. Toothman, we will include for the full written--we will 
include your full written statement for each of the bills in 
the hearing record. So it would be helpful if you could briefly 
summarize the Interior Department's views on each of the bills.
    Then after you finish summarizing we'll begin a round of 
questions.
    Welcome. Thank you for being here.

 STATEMENT OF STEPHANIE TOOTHMAN, ASSOCIATE DIRECTOR, CULTURAL 
  RESOURCES, PARTNERSHIPS AND SCIENCE, NATIONAL PARK SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Ms. Toothman. I'll start again.
    Mr. Chairman, thank you for the opportunity to appear 
before the subcommittee to present the Department of the 
Interior's views on the 25 bills on today's agenda.
    I am accompanied by Tim Spisak, who is the Bureau of Land 
Management's Deputy Assistant Director for Minerals and Realty 
Management. He will be happy to answer any questions regarding 
S. 974, as they relate to lands managed by the Bureau of Land 
Management.
    I would like to submit as requested our full statements on 
each of these bills for the record and summarize the 
Department's views.
    The Department supports the following 10 bills.
    S. 524, which would authorize a study of the Pike National 
Historic Trail.
    S. 618, which would authorize special resource studies at 5 
Pacific island locations, although we have some concerns about 
the Midway Island study as outlined in our testimony.
    S. 702 would rename the Quinebaug and Shetucket Rivers 
Valley National Heritage Area as ``The Last Green Valley 
National Heritage Corridor.''
    S. 781, which would modify the boundary of Yosemite 
National Park.
    S. 782, which would revise the boundaries of Gettysburg 
National Military Park.
    S. 925, which would expand the Lower East Side Tenement 
National Historic Site.
    S. 995, which would authorize the establishment of a 
National Desert Shield and Desert Storm commemorative work in 
the District of Columbia.
    S. 1328, which would authorize a special resource study of 
the New Philadelphia site in Illinois.
    H.R. 674, which would authorize a special resource study of 
sites on the Island of Rota, Commonwealth of the Northern 
Mariana Islands.
    H.R. 885, which would expand the boundary of San Antonio 
Missions National Historical Park.
    H.R. 1033 and S. 916, which would expand the American 
Battlefield Protection Act to include Revolutionary War and War 
of 1812 battlefields.
    The reasons for our support for these bills are explained 
in our full statements. For several of these bills we are 
requesting amendments. Explanation of these amendments are 
contained in our full statements. We would be happy to work 
with the committee on them.
    The Department could only support if amended S. 1071. This 
bill would allow the National Park Service to use existing 
funds to make improvements to support facilities for National 
Historic Sites that meet certain criteria. However, we know of 
only one site, the Sand Creek Massacre National Historic Site, 
that meets these certain criteria. We believe it is better for 
Congress to provide specific authority to individual parks on a 
case by case basis.
    The Department recommends amending S. 1138, S. 1151, S. 
1157, S. 1186 and S. 1339 which would extend the authorization 
for Federal funding for 8 National Heritage Areas: Hudson River 
Valley, American's Agricultural Heritage Partnership, Rivers of 
Steel, Lackawanna Valley, Delaware and Lehigh, Schuylkill River 
Valley, Essex, and Ohio and Erie. We recommend Congress only 
authorize funding until an evaluation and report has been 
completed for each of the Heritage Areas and reviewed by 
Congress, and until National Heritage Areas Program legislation 
has been enacted.
    The Department recommends deferring action until the 
studies are complete on the following 3 bills.
    S. 869, which would establish the Alabama Black Belt 
National Heritage Area.
    S. 1252, which would designate certain sections of the 
Missisquoi and Trout River in Vermont as Wild and Scenic 
Rivers.
    S. 1253, which would designate certain sections of the 
Farmington River and Salmon Brook in Connecticut as Wild and 
Scenic Rivers.
    The Department does not oppose S. 398, which would 
establish a commission to study and report on the potential 
creation of a national woman's history museum. The amendment we 
are requesting is described in our prepared testimony. We ask 
that the bill be amended by deleting the specific location 
within the reserve as a potential site for the museum.
    Regarding S. 1044, which would direct the Secretary to 
install in the area of the World War II Memorial, a plaque or 
an inscription with President Franklin Delano Roosevelt's D-Day 
prayer. The Department supports retaining the Commemorative 
Works Act as the vehicle for siting and designing the plaque or 
inscription.
    The Department does not oppose, if amended, H.R. 1158. The 
bill directs the Secretary of the Interior to continue stocking 
fish in certain lakes in the North Cascades complex. We ask 
that the bill be amended to allow rather than require the 
stocking of fish.
    Regarding S. 974, the Las Vegas Valley Public Land and Tule 
Springs Fossil Beds National Monument Act, the Department 
supports some of the provisions of the bill and has concerns 
about others as explained in our prepared testimony.
    Mr. Chairman, this concludes my statement. Deputy Assistant 
Director Spisak and I would be pleased to answer any questions 
you may have.
    [The prepared statement of Ms. Toothman follows:]

Prepared Statement of Stephanie Toothman, Associate Director, Cultural 
Resources, Partnerships, and Science, National Park Service, Department 
                       of the Interior, on S. 398

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
398, a bill to establish the commission to study the potential creation 
of a National Women's History Museum, and for other purposes.
    The Department does not oppose S. 398, but recommends the amendment 
discussed below.
    S. 398 would establish a Commission to study and report on the 
potential creation of a national women's history museum. S. 398 directs 
the Commission to submit to the President and Congress a report 
containing recommendations on the availability and cost of collections 
to be acquired and housed in the museum, the impact the museum may have 
on regional women's history-related museums, possible locations within 
Washington, D.C. or its environs, whether the museum should be part of 
the Smithsonian Institution, the governance and organizational 
structure from which the museum should operate, how to engage women in 
the development and design of a museum, and the cost of constructing, 
operating, and maintaining the museum.
    The Commission, consisting of 8 members appointed by the 
congressional leadership, would convene a national conference on the 
museum no later than eighteen months after its appointment and submit 
recommendations for a plan of action for the establishment and 
maintenance of a museum no later than eighteen months after their first 
meeting.
    Section 4(a)(2)(C) of S. 398 directs the Commission to recommend 
potential locations, including the location on land bounded by 
Independence Avenue SW., 14th Street SW., 15th Street SW., and 
Jefferson Drive SW., in Washington, D.C. This area has several 
constraints. First, it is located on the Washington Monument grounds, 
an area treasured for its open space and natural setting. Second, the 
museum's development potential will likely be significantly constrained 
by the area's size and configuration. Third, this location is also 
within the Reserve as defined by the Commemorative Works Act (CWA), 40 
U.S. Code, Section 89 (Section 8908(c)). In the 2003 Amendments to the 
CWA, Congress declared the Reserve a ``substantially completed work of 
civic art,'' where no new memorials may be located. The Reserve 
continues to protect the National Mall's historic open space character 
enjoyed by millions of Americans and visitors. Museum development on 
this site is also precluded in the 2001 Memorials and Museums Master 
Plan (Chapter 3, page 32), which continues to guide the location of new 
memorials, museums, and related structures in the Nation's Capital. 
This plan was the result of a multi-year effort by the National Capital 
Planning Commission, the US Commission of Fine Arts, the National 
Capital Memorial Advisory Commission and the National Park Service. We 
recommend amending the bill by deleting this specific location as a 
potential site for the museum. There are a number of sites within the 
monumental core that are worthy of consideration for a museum of this 
importance, as identified in the Monumental Core Framework Plan which 
identifies preferred sites for new museums.
    We support, in concept, the proposal to further the education and 
interpretation of significant segments of American history and culture. 
However, we feel strongly that this Commission move forward in a way 
that does not contravene the CWA.
    We appreciate the opportunity to testify on S. 398. We would like 
the opportunity to work with the subcommittee to address our proposed 
amendment, and we urge the subcommittee to consult with other relevant 
agencies as the bill moves forward.

                               on s. 524

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today and present the Department's 
views on S. 524, a bill to amend the National Trails System Act to 
provide for a study of the Pike National Historic Trail.
    The Department supports S. 524. However, we feel that priority 
should be given to the 30 previously authorized studies for potential 
units of the National Park System, potential new National Heritage 
Areas, and potential additions to the National Trails System and 
National Wild and Scenic Rivers System that have not yet been 
transmitted to Congress.
    S. 524 would amend Section 5(c) of the National Trails System Act 
by directing the Secretary to conduct a study of the Pike National 
Historic Trail for consideration for inclusion in the National Trails 
System. We estimate the cost of this study to be approximately 
$800,000.
    The Pike National Historic Trail is a series of routes extending 
approximately 3,664 miles, which follows the route taken by Lt. Zebulon 
Montgomery Pike during the 1806-1807 Pike expedition that began in Fort 
Bellefontaine, Missouri, extended through portions of the States of 
Kansas, Nebraska, Colorado, New Mexico, and Texas, and ended in 
Natchitoches, Louisiana.
    U.S. Army General James Wilkinson launched the 1806-1807 Pike 
expedition to provide an escort for Osage Indians traveling from St. 
Louis back to their villages, make contact with Native American groups 
on the plains, explore the headwaters of the Arkansas and Red Rivers, 
and collect information about the Spanish along the southwestern border 
of the Louisiana Purchase. Lt. Pike and his men explored the headwaters 
of the Arkansas and Platte Rivers in Colorado before crossing the 
Sangre de Cristo Mountains, near both the present-day Great Sand Dunes 
National Park and Preserve, and the headwaters of the Rio Grande River. 
Pike's group built a small stockade near modern-day Alamosa, Colorado, 
where they were captured by the Spanish and taken back to Mexico. Pike 
and the majority of his men were returned to U.S. territory at 
Natchitoches, Louisiana, on June 30, 1807. While not as famous as the 
Lewis and Clark expedition, the Pike expedition was the first American-
led effort to explore the Rocky Mountains and is an important part of 
the history of Colorado and the American Southwest.
    A study produced by the National Park Service would not only look 
at the national significance and eligibility of the trail, but also its 
feasibility and suitability as a unit of the National Trails System. We 
envision the Pike National Historic Trail study to focus on exploring 
recreational opportunities, defining historical aspects of the trail, 
and establishing methods for a working relationship with partners in 
order to identify facilities on adjacent lands that would contribute to 
the purposes of the trail.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions you or other members of the subcommittee may have.

                               on s. 618

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's testimony regarding S. 618, a bill to 
require the Secretary of the Interior to conduct certain special 
resource studies.
    S. 618 requires that the Secretary conduct special resource studies 
at five Pacific island locations: the Ka'u Coast on the island of 
Hawaii, Hawaii; the northern coast of Maui, Hawaii; the southeastern 
coast of Kauai, Hawaii; historic sites on Midway Atoll; and the island 
of Rota in the Commonwealth of the Northern Marianna Islands (CNMI). 
The legislation also requires an update to a prior special resource 
study on World War II sites in the Republic of Palau.
    The Department supports conducting the new studies with the 
exception of the study of historic sites on Midway Atoll. We also 
support updating the existing special resource study on World War II 
sites in the Republic of Palau. We recommend one technical amendment to 
the Rota study authorized in this legislation.
    Section (3)(a)(A) of S. 618 requires the Secretary to conduct a 
special resource study of the Ka'u Coast on the big island of Hawaii. 
The National Park Service (NPS) conducted a reconnaissance survey of 
the Ka'u Coast in 2006. The survey indicated that significant cultural 
features, geological forms and coastal-marine natural resources of the 
study area are each represented to some extent within other national 
parks in the state of Hawaii. However, in no other location do these 
features coexist in such a long and uninterrupted coastal landscape 
with continuous scenic, interpretive, and recreational integrity. 
Compared to existing coastal managed areas within the state, it is 
uniquely wild, yet accessible.
    Based upon the significance of the resources in the Ka'u study 
area, and the current integrity and intact condition of these 
resources, the reconnaissance survey resulted in a preliminary finding 
of national significance and suitability. The Department supports a 
special resource study of the Ka'u coast.
    Section (3)(a)(B) of S. 618 requires the Secretary to conduct a 
special resource study of the north coast of the island of Maui. The 
NPS has not conducted a reconnaissance study of that area, and 
therefore, has a limited understanding of the resources. Clarification 
of the extent of the area to be examined would be helpful prior to 
undertaking this study. In order to better understand the resources of 
the area and their significance to our nation, the Department supports 
a special resource study of Maui's north coast.
    Section (3)(a)(C) of S. 618 requires the Secretary to conduct a 
special resource study of the southeastern coast of the island of 
Kauai. In 2006, the NPS conducted a reconnaissance survey of Mahaulepu 
and nearby areas of Kauai. Mahaulepu is a historic Hawaiian land 
division and watershed stretching from Kauai's Haupu mountain range to 
the island's southeast shore. This preliminary survey indicates that 
there are nationally significant resources within the study area that 
are suitable for inclusion within the framework of the National Park 
System (System), and that are not otherwise adequately preserved 
elsewhere in the nation. Furthermore, the study area's significant 
natural and cultural resources are of a collective size and 
configuration that they could be feasibly managed for resource 
protection and public enjoyment, and could be potentially administered 
at a reasonable cost if managed under a partnership arrangement.
    The Department supports conducting a special resource study of the 
Mahaulepu area, including Kauai's southeast coast, to determine 
feasibility for its inclusion in the System, and that focuses on non-
traditional management alternatives that include options for continued 
farm and ranch operations on private agricultural lands.
    Section (3)(a)(D) of S. 618 requires the Secretary to conduct a 
special resource study of the historic sites on Midway Atoll. The 
cultural resources on Midway Atoll were previously evaluated for 
National Historic Landmark (NHL) designation. A portion of the islands 
associated with the battle of Midway was designated as the World War 
II--Military Facilities Midway Island NHL Other protections are also in 
place for Midway Atoll. The U.S. Fish and Wildlife Service manages 
Midway Atoll National Wildlife Refuge, and like all Federal agencies is 
subject to the provisions of the National Historic Preservation Act. 
FWS has prepared an historic preservation plan that addresses the 
preservation of the islands' cultural resources. In addition, as a 
result of Presidential action in July 2007, the Refuge was included as 
part of the Papahanaumokuakea Marine National Monument.
    Considering these designations already covering Midway Atoll, the 
Department does not support conducting a special resource study of the 
area for inclusion in the System.
    Finally, Section (3)(a)(E) of S. 618 requires the Secretary to 
conduct a special resource study of the island of Rota in the Northern 
Mariana Islands. The NPS completed a reconnaissance survey of certain 
natural and cultural resources on Rota in September 2005. The 
reconnaissance survey found that certain natural and cultural resources 
of the island of Rota are significant to island residents, the 
Commonwealth of the Northern Mariana Islands (CNMI), and the entire 
nation, and merit protection. The survey also made a preliminary 
finding that these resources are likely to be suitable and feasible for 
inclusion in the System.
    Rota was the only major island in the Mariana Archipelago to be 
spared the destruction and large-scale land use changes brought about 
by World War II and its aftermath. The best remaining examples of this 
island chain's native limestone forest are found on Rota. Rota is also 
regarded as the cultural home of the indigenous Chamorro people and 
contains the most striking and well-preserved examples of their three 
thousand-year old culture. The Department supports a special resource 
study to provide a public process to determine the suitability and 
feasibility of designating prehistoric, historic, and limestone forest 
sites on Rota, CNMI, as a unit of the System.
    We recommend a technical amendment to Section 3(a)(E) to clarify 
the study would cover prehistoric, historic, and limestone forest sites 
instead of the entire island of Rota. Similar language is found in H.R. 
674, which is also the subject of this hearing.
    Section 3(b) of S. 618 also requires an update of the special 
resource study conducted on World War II sites in the Republic of 
Palau. In 2003, the NPS conducted a special resource study of sites 
related to the Battle of Peleliu, the major battle fought in the Palau 
Islands during World War II. The study found that the Peleliu 
battlefield met significance and suitability criteria for inclusion 
within the System, but there were other obstacles that made such 
inclusion infeasible at the time. Additionally, this study did not 
include public scoping or other essential components of the National 
Environmental Policy Act.
    It is our understanding, based in part on communication from the 
Republic of Palau to the Department in 2012, that the obstacles to 
feasibility may no longer be present. Additionally, there has been a 
substantial shift in support by the local people for the site becoming 
a unit of the System and an updated study would allow for a 
reexamination of the findings of the previous study. In light of these 
changes, the Department supports conducting a revised and more thorough 
special resource study of World War II sites in the Republic of Palau 
to include public scoping and an environmental assessment.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer questions that you or other members of the committee might have.

                               on s. 702

    Mr. Chairman, and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 702, a bill designate the Quinebaug and Shetucket Rivers Valley 
National Heritage Corridor as ``The Last Green Valley National Heritage 
Corridor.''
    The Department supports enactment of S. 702. This legislation would 
change the name of the Quinebaug and Shetucket Rivers Valley National 
Heritage Corridor to ``The Last Green Valley National Heritage 
Corridor.'' It has been proven over the years that the current name of 
the heritage corridor is both difficult for people to remember and to 
spell. This change would help improve the identification of the 
corridor for the many partners involved with the heritage area and 
would be consistent with how the area is promoted in and beyond the 
region.
    The Quinebaug and Shetucket Rivers Valley National Heritage 
Corridor was designated a National Heritage Area by Congress in 
November 1994 through P.L. 103-449. At that time, Congress recognized 
that the valley represents one of the last traditional upland farming 
and mill village communities in the Northeastern United States. In 
1999, Congress passed P.L. 106-449 to enlarge the corridor to include 
river valley towns in both Massachusetts and Connecticut. Now forest 
and farmland make up 78 percent of its 695,000-acres, yet it lies only 
an hour from three of New England's four largest urban areas. This 
relatively undeveloped rural island, in the midst of the most urbanized 
region in the nation, makes it a resource of local, regional, and 
national importance.
    The Department first became involved in the area in 1992 when the 
National Park Service (NPS) undertook a feasibility study. The name 
``The Last Green Valley'' was coined by a NPS historian and was later 
used in a NPS brochure. People in the area have been associating the 
river corridor with the term ``The Last Green Valley'' ever since.
    The NPS has provided technical assistance and managed an agreement 
with the management entity of the heritage area from the time it was 
designated, and continues to do so today. That management entity 
started using the name, The Last Green Valley, informally in 2001, and 
the board decided to officially change the name of its nonprofit 
through the Secretaries of State in both Massachusetts and Connecticut 
in November 2008.
    Changing the name of the corridor through this bill will be 
consistent with how people in the region refer to the area and with the 
name of the management entity with which the NPS has an official 
agreement--The Last Green Valley, Inc.
    Mr. Chairman that concludes my testimony. I would be pleased to 
answer any questions you or other members of the subcommittee may have.

                               on s. 781

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the National Park Service on S. 781, 
a bill to modify the boundary of Yosemite National Park, and for other 
purposes.
    The Department supports S. 781, with an amendment to update the map 
reference. S. 781 would adjust the boundary of Yosemite National Park 
(park) by 1,575 acres. The modification would help the National Park 
Service (NPS) protect the western boundary from potential development 
and also help to preserve the scenic and biological resources of these 
properties.
    The proposed modification includes 793 acres of land owned by the 
Pacific Forest Trust (PFT) adjacent to the western boundary of the park 
and near the Yosemite West Subdivision. The 793 acres includes two 
tracts: the 713-acre Ransome Ranch and the 80-acre Sparling tract. In 
2004, the PFT purchased the parcels with the intent to add them back 
into the park.
    It also includes 782 acres of land, adjacent to the PFT properties, 
owned by Yosemite West Associates, the original developers of the 
Yosemite West Subdivision. The Yosemite West Associates have indicated 
to the PFT that they would also like to participate in the boundary 
adjustment, and eventually sell their property to the federal 
government for inclusion in the park.
    The PFT and the Yosemite West Associates parcels were originally 
part of the park from 1890 until 1905, when the park's western boundary 
was adjusted eastward. The parcels remained in federal ownership as 
part of the Sierra National Forest until they were patented out to the 
Yosemite Lumber Company in 1916.
    The acquisition of these parcels would allow for continuous 
protection of forests, meadows, and rocky ridges with the Sierra and 
Stanislaus National Forests. The area is prime habitat for many rare 
species that include the Pacific Fisher, Sierra Nevada Red Fox, 
Goshawk, and Great Grey and Long-eared Owls as well as rare plant 
species such as Congdon's Woolly Sunflower, Congdon's Lewisia, and 
Yosemite Popcorn Flower. Acquisition of these properties would help to 
preserve the headwaters of Indian and Zip creeks, which flow into the 
main stem and the south fork of the Merced River, a National Wild and 
Scenic River. It would also help conserve key winter and spring 
migratory corridors used by large predatory species such as mountain 
lion and bear.
    This acquisition would open up the area to recreational uses that 
are currently inaccessible to the public. Located midway between 
Yosemite Valley and Wawona, the area would provide an alternative 
destination for those seeking to avoid highly congested areas in the 
park. The property could relieve some of the visitation in Yosemite 
Valley, Wawona, and Tuolumne Meadows by providing an alternative, high-
quality, destination with recreational opportunities. The properties 
are in close proximity to existing infrastructure (roads, utilities, 
etc.), which would reduce the cost of development of future campgrounds 
or other visitor service facilities.
    Because an appraisal of these properties has not been completed, we 
do not have an estimate of acquisition costs. The costs of immediate 
improvements will be minimal as existing logging roads could be adapted 
for horseback riding, cross-country skiing, snowshoeing, and mountain 
biking and reestablished trails would connect visitors to the Sierra 
National Forest trail system and its recreational services. The 
properties could also provide rustic or dispersed camping opportunities 
by adding new areas for backpacking, horse camping, and group campsites 
that are currently in high demand in the park. The tracts have numerous 
outstanding viewpoints for sightseeing, photography and picnicking. 
Lastly, the unique habitat would provide visitors with bird-watching 
and other wildlife-viewing opportunities.
    The PFT properties are adjacent to the Yosemite Environmental 
Education Campus (EEC), which is currently under construction at the 
intersection of Wawona Road and Henness Ridge Road. The project is a 
partnership between the NPS and NatureBridge; NatureBridge is funding 
the construction with outside donors through a capital fundraising 
campaign. The EEC would benefit from the boundary expansion and land 
acquisition as it would allow increased accessibility to recreational 
resources that would greatly enhance the educational opportunities for 
students.
    The boundary modification is supported by the Mariposa County Board 
of Supervisors, members of the California State Assembly, the 
California State Senate and the Governor.
    The Department recommends that the map reference in Sec. 3(1) be 
updated to reference the map entitled ``Yosemite National Park Proposed 
Addition,'' numbered 104/113,969A, and dated May 2013.
    Mr. Chairman, this concludes my testimony. I would be glad to 
answer any questions that you or other members of the subcommittee may 
have.

                               on s. 782

    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 782, a bill to amend Public Law 101-377 to revise the boundaries of 
the Gettysburg National Military Park to include the Gettysburg Train 
Station, and for other purposes.
    The Department supports S. 782 with amendments described later in 
this statement. This legislation would revise the boundary of 
Gettysburg National Military Park to include two distinct sites: the 
historic Gettysburg Train Station, and 45 acres of an environmentally 
important tract of land at the base of Big Round Top.
    Gettysburg National Military Park protects major portions of the 
site of the largest battle waged during this nation's Civil War. Fought 
in the first three days of July 1863, the Battle of Gettysburg resulted 
in a victory for Union forces and successfully ended the second 
invasion of the North by Confederate forces commanded by General Robert 
E. Lee. Historians have referred to the battle as a major turning point 
in the war--the ``High Water Mark of the Confederacy.'' It was also the 
Civil War's bloodiest single battle, resulting in over 51,000 soldiers 
killed, wounded, captured, or missing.
    The Soldiers' National Cemetery within the park was dedicated on 
November 19, 1863, when President Abraham Lincoln delivered his 
immortal Gettysburg Address. The cemetery contains more than 7,000 
interments including over 3,500 from the Civil War. The park currently 
includes nearly 6,000 acres, with 26 miles of park roads and over 1,400 
monuments, markers, and memorials.
    Gettysburg's Lincoln Train Station was built in 1858 and is listed 
on the National Register of Historic Places. The station served as a 
hospital during the Battle of Gettysburg, and the wounded and the dead 
were transported from Gettysburg through this station in the aftermath 
of battle. President Abraham Lincoln arrived at this station when he 
visited to give the Gettysburg Address.
    Gettysburg National Military Park's 1999 General Management Plan 
called for expanding cooperative relationships and partnerships with 
the Borough of Gettysburg and other sites ``to ensure that resources 
closely linked to the park, the battle, and the non-combatant civilian 
involvement in the battle and its aftermath are appropriately protected 
and used.'' In particular, the plan stated that the National Park 
Service would initiate ``cooperation agreements with willing owners, 
and seek the assistance of the Borough of Gettysburg and other 
appropriate entities to preserve, operate and manage the Wills House 
and Lincoln Train Station.''
    The Borough of Gettysburg Interpretive Plan called for the Lincoln 
Train Station to be used as a downtown information and orientation 
center for visitors--where all park visitors would arrive after coming 
downtown--to receive information and orientation to downtown historic 
attractions, including the David Wills House. This is the house where 
Lincoln stayed the night before delivering the Gettysburg Address. The 
Interpretive Plan also called for rehabilitation of the Wills House, 
which was added to the park's boundary through Public Law 106-290 in 
October 2000, and is now a historic house museum in the borough and an 
official site within Gettysburg National Military Park. The David Wills 
House is currently operated jointly by the Gettysburg Foundation and 
the National Park Service.
    The Lincoln Train Station is next to the downtown terminus of 
Freedom Transit, Gettysburg's shuttle system, which started operations 
in July 2009 with a grant from the Federal Transit Administration in 
the Department of Transportation.
    In 2006, the Borough of Gettysburg completed rehabilitation of the 
Lincoln Train Station with funds from a Commonwealth of Pennsylvania 
grant. Due to a lack of funds, however, the borough has been unable to 
operate a visitor information and orientation center there. Through 
formal vote of the Borough Council, the Borough of Gettysburg has asked 
the National Park Service to take over the ownership and operations of 
the train station. While the borough originally intended to sell the 
train station to the National Park Service, the Gettysburg Foundation 
is currently in negotiations to acquire the property, which would in 
turn be donated from the Foundation to the National Park Service.
    The park has a preliminary commitment from the Gettysburg 
Convention and Visitor Bureau (CVB) to provide all staffing 
requirements for operations of an information and orientation center in 
the train station, thereby avoiding staff costs for the park. 
Anticipated National Park Service operating costs for the train station 
are limited to utilities; the rest would be paid by the Gettysburg CVB. 
In the event that the Gettysburg CVB is unable to provide staffing and 
funding for operations, the National Park Service would seek another 
park partner to cover these costs and requirements.
    This legislation would also add 45 acres near Big Round Top along 
Plum Run in Cumberland Township, Pennsylvania, to the boundary of the 
park. The 45-acre tract of land is adjacent to the Gettysburg National 
Military Park and is within the Battlefield Historic District. The land 
is at the southern base of Big Round Top at the southern end of the 
Gettysburg battlefield. There were cavalry skirmishers in this area 
during the Battle of Gettysburg in July 1863, but the real significance 
is environmental. The tract contains critical wetlands and wildlife 
habitat related to Plum Run. Wayne and Susan Hill donated it to the 
Gettysburg Foundation in April 2009. The Gettysburg Foundation plans to 
donate fee title interest in the parcel to the National Park Service 
once it is within the park boundary. It abuts land already owned by the 
National Park Service.
    We recommend that the committee amend S. 782 to reference an 
updated map of the two properties proposed for inclusion in the park 
boundary. In addition, we would recommend providing the usual language 
requiring that the map referenced in the bill be on file and available 
for inspection in the appropriate offices of the National Park Service. 
We would be happy to provide the committee with recommended language 
for these amendments.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions you or members of the committee may have.

                               on s. 869

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the views of the 
Department of the Interior on S. 869, a bill to establish the Alabama 
Black Belt National Heritage Area, and for other purposes.
    The Department recommends deferring action on S. 869 until the 
National Park Service (NPS) completes a final review of the feasibility 
study for the proposed Alabama Black Belt National Heritage Area. The 
NPS has reviewed the current feasibility study, submitted by the Center 
for the Study of the Black Belt at the University of West Alabama, and 
determined that there are nationally significant resources and stories 
associated with the Alabama Black Belt. However, the study needs to be 
revised before the NPS can determine that it meets the interim criteria 
for designation as a national heritage area. We recommend that the 
Center for the Study of the Black Belt continue to work with the NPS 
National Heritage Area Program to refine the statement of national 
importance, contributing resources, supporting themes, and boundary for 
the proposed heritage area, as well as other key sections of the study 
associated with these assessment topics.
    In addition, the Department recommends that Congress enact program 
legislation that establishes criteria to evaluate potential qualified 
national heritage areas and a process for the designation, funding, and 
administration of these areas before designating any additional new 
national heritage areas.
    Geographically, Alabama's Black Belt is part of a larger crescent-
shaped area known as the Southern Black Belt, which extends from 
Virginia to Texas. The term refers to the fertile black soil of the 
region. This soil drew pioneers to settle the lower-central portion of 
Alabama in the 1820s and 1830s where they established and operated a 
network of cotton plantations using the labor of enslaved African 
Americans. During the Antebellum era, the Alabama Black Belt became one 
of the wealthiest and most politically powerful regions in the United 
States.
    Throughout the Twentieth Century, this area gained fame as the site 
where the Tuskegee Airmen trained during World War II, and as a center 
of the civil rights movement in the 1950s and 1960s. Montgomery County 
was the site of the 1955-56 bus boycott that challenged segregation of 
public transportation. Highway 80 in Dallas, Lowndes, and Montgomery 
counties shaped the route taken by participants of the historic march 
for equal rights from Selma to Montgomery in 1965. The Lowndes County 
Freedom Organization, later the Black Panther Party, was an outgrowth 
of that march.
    S. 869 would establish the Alabama Black Belt National Heritage 
Area within nineteen counties in the State of Alabama. The Center for 
the Study of Black Belt would be designated as the Heritage Area's 
local coordinating entity, and the bill defines the duties of the 
Center for the Study of Black Belt, including the preparation and 
implementation of a management plan. S. 869 also provides a process for 
review and approval of the management plan by the Secretary of the 
Interior.
    If the committee decides to move forward with S. 869, we would like 
to work with the committee to provide the appropriate map reference for 
the national heritage area and to ensure that the language of the bill 
is consistent with previously enacted national heritage area 
designations.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or any members of the subcommittee 
may have.

                               on s. 925

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the Department of the Interior's views on S. 925, a 
bill to improve the Lower East Side Tenement National Historic Site, 
and for other purposes.
    The Department supports enactment of S. 925, which would add a 
nearby property to the Lower East Side Tenement National Historic Site.
    The Lower East Side Tenement at 97 Orchard Street in New York City 
was designated a national historic site and made an ``affiliated site'' 
of the National Park System on November 12, 1998 (Public Law 105-378). 
The Lower East Side Tenement is owned and operated by the Lower East 
Side Tenement Museum, a nonprofit organization. Similar to many other 
affiliated areas of the National Park Service, the Lower East Side 
Tenement National Historic Site receives financial and technical 
assistance from the National Park Service, as authorized by law.
    After being shuttered for over 50 years, the property at 97 Orchard 
Street was carefully restored by the museum to depict the lives of 
immigrants who lived in the five-story tenement between 1869 and 1935. 
The Lower East Side Tenement is the continuation of the story of the 
experience of immigrants after they arrived in the United States. It 
explains what happened once after they were processed at Ellis Island 
and, before that, at Castle Clinton. Many immigrants lived in dwellings 
in New York's Lower East Side similar to 97 Orchard Street. The 
museum's efforts to expand the stories it tells that represent the 
contemporary immigrant experience complement the interpretive work the 
National Park Service is doing at the Statue of Liberty, Ellis Island, 
and Castle Clinton.
    S. 925 would revise the national historic site's 1998 designation 
to include 103 Orchard Street, which the museum purchased in 2007 to 
serve as a visitor center and provide exhibition and classroom space. 
The need for the kinds of administrative functions and visitor services 
that would be addressed by adding a property to the national historic 
site was recognized in the General Management Plan that the National 
Park Service prepared for the site in 2006. The bill would not provide 
any funding authority beyond that which current law already provides.
    Mr. Chairman, this concludes my statement. I would be pleased to 
respond to any questions you or members of the committee may have.

                               on s. 916

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on S. 916 
and H.R. 1033, to authorize the acquisition and protection of 
nationally significant battlefields and associated sites of the 
Revolutionary War and the War of 1812 under the American Battlefield 
Protection Program.
    The Department supports S. 916 and H.R. 1033 with an amendment 
described later in this statement. This legislation would expand the 
American Battlefield Protection Program to include both the War of 1812 
and Revolutionary War battlefields in addition to Civil War 
battlefields, which are covered under the current program. It would 
authorize a total of $10 million in grants for the American Battlefield 
Protection Program for both Civil War battlefield sites and 
Revolutionary War and War of 1812 battlefield sites, for each of fiscal 
years 2014 through 2018.
    In March 2008, the National Park Service transmitted the Report to 
Congress on the Historic Preservation of Revolutionary War and the War 
of 1812 Sites in the United States, which identified and determined the 
relative significance of sites related to the Revolutionary War and the 
War of 1812. The study assessed the short and long-term threats to the 
sites. Following the success of the 1993 Civil War Sites Advisory 
Commission Report on the Nation's Civil War Battlefields, this study 
similarly provides alternatives for the preservation and interpretation 
of the sites by Federal, State, and local governments or other public 
or private entities.
    The direction from Congress for the study was the same as for a 
Civil War sites study of the early 1990s. As authorized by Congress for 
this study, the National Park Service looked at sites and structures 
that are thematically tied with the nationally significant events that 
occurred during the Revolutionary War and the War of 1812. The result 
was a more thorough survey that represents twice the field effort 
undertaken for the Civil War study.
    Building upon this recent study, S. 916 and H.R. 1033 would create 
a matching grant program for Revolutionary War and the War of 1812 
sites that closely mirrors a very successful matching grant program for 
Civil War sites. The Civil War acquisition grant program was first 
authorized by Congress in the Civil War Battlefield Protection Act of 
2002 (Public Law 107-359), and was reauthorized by the Omnibus Public 
Land Management Act of 2009 (Public Law 111-11). That grant fund has 
been tremendously successful in allowing local preservation efforts to 
permanently preserve Civil War battlefield land with a minimum of 
Federal assistance.
    With the release of the Report to Congress on the Historic 
Preservation of Revolutionary War and the War of 1812 Sites in the 
United States, communities interested in preserving their Revolutionary 
War and the War of 1812 sites can take the first steps similar to those 
taken by the Civil War advocates 20 years ago. If established, this new 
grant program can complement the existing grant program for Civil War 
battlefields and, in doing so, become a benefit to the American people 
by providing for the preservation and protection of a greater number of 
sites from the Revolutionary War and War of 1812.
    The NPS is currently finalizing its update to the 1993 Civil War 
Sites report, which reviews the conditions of 383 Civil War 
battlefields, and which we plan to transmit to Congress in 2013. As 
currently drafted, S. 916 and H.R. 1033 require another update of the 
condition of these same Civil War battlefields in five years, in 
addition to an update of the 677 sites of the Revolutionary War and the 
War of 1812 identified in the Report to Congress on the Historic 
Preservation of Revolutionary War and the War of 1812 Sites in the 
United States. The NPS feels that updating information for all of these 
sites, most of which are not within the National Park System itself, 
will not be feasible in five years. Therefore, the NPS suggests one 
change in the reporting language of the bill so that the reporting 
requirement for the Civil War update is not later than 10 years after 
the date of enactment.
    The Department recommends an amendment to S. 916 and H.R. 1033 to 
include language for combined funding of $20 million for both the Civil 
War and the Revolutionary War and War of 1812 acquisition grant 
programs in each of fiscal years 2014 through 2018. Under current law, 
$10 million is authorized for the Civil War battlefields alone. With 
the addition of the Revolutionary War and War of 1812 battlefields to 
the program, we believe that a $20 million annual authorization would 
be appropriate. We would be happy to provide language for this 
amendment.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
respond to any questions from you and members of the committee.

                               on s. 995

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's testimony regarding S. 995, a bill to 
authorize the National Desert Storm Memorial Association to establish 
the National Desert Storm and Desert Shield Memorial as a commemorative 
work in the District of Columbia, and for other purposes.
    The Department supports S. 995 with an amendment.
    S. 995 would authorize the National Desert Storm Memorial 
Association to establish the National Desert Storm and Desert Shield 
Memorial as a commemorative work, on Federal land in the District of 
Columbia. This memorial would commemorate and honor the members of the 
Armed Forces who served on active duty in support of Operation Desert 
Storm or Operation Desert Shield. This bill also prohibits the use of 
federal funds to establish this memorial, and directs the Association 
to be solely responsible for accepting contributions for, and paying 
the expenses of, the establishment of the memorial.
    On August 2, 1990, Iraqi forces invaded and occupied Kuwait. 
Fearing an Iraqi invasion of Saudi Arabia and a loss of control of 
Saudi oil fields, the United States launched Operation Desert Shield on 
August 7, 1990. This defensive buildup was intended to deter further 
Iraqi aggression and to persuade Iraqi forces to leave Kuwait. After 
diplomatic efforts failed, U.S. and other coalition forces began 
military actions against Iraq on January 17, 1991, in what is known as 
Operation Desert Storm. The aerial bombardment and the ensuing ground 
invasion of Iraq resulted in the destruction of Iraqi forces and their 
retreat from Kuwait, and hostilities concluded on February 28, 1991. A 
total of 294 Americans lost their lives over the course of the 
conflict, including 114 from enemy action. There is currently no 
national memorial to Operations Desert Shield or Desert Storm.
    The National Desert Storm Memorial Association is a 501(c)(3) 
corporation organized under the laws of the State of Arkansas whose 
mission is to establish a national memorial to these conflicts.
    The Department notes that Section 3(b) of this bill requires the 
establishment of the memorial to comply with Chapter 89 of Title 40, 
United States Code, commonly known as the ``Commemorative Works Act''. 
The Commemorative Works Act establishes a process for the establishment 
of new memorials on certain Federal lands within the District of 
Columbia.
    On November 7, 2012, the National Capital Memorial Advisory 
Commission (NCMAC) reviewed the previous version of this bill, H.R. 
5914, which was introduced in the 112th Congress. On December 20, 2012, 
after confirming with the Department of Defense that Operations Desert 
Shield and Desert Storm were major military operations, the Commission 
informed the House Natural Resources Committee of its unanimous support 
for the proposal.
    Although S. 995 provides for the deposit of excess funds, the 
Department recommends that Section 3(d) of the bill be amended to 
clarify the disposition of excess funds should the authority to 
establish the memorial lapse. We would be glad to work with the 
Subcommittee to amend the existing language.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer questions that you or other members of the committee might have.

                               on s. 1044

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1044, a bill which directs the Secretary of the Interior to install in 
the area of the World War II Memorial in the District of Columbia a 
suitable plaque or an inscription with the words that President 
Franklin Delano Roosevelt prayed with the United States on D-Day, June 
6, 1944.
    The Department appreciates the importance of faith in the lives of 
Americans across this country, the leadership of President Roosevelt, 
and the courage and sacrifices of Americans during World War II and 
today. The World War II Memorial recognizes a period of unprecedented 
national unity during the defining moment of the twentieth century, and 
is devoted to the service, commitment, and shared sacrifice of 
Americans.
    The Department appreciates the efforts by the sponsor, Senator Rob 
Portman, to work with the National Park Service (NPS) on this 
legislation. S. 1044 proposes adding a commemorative work in the area 
of the existing World War II Memorial. We support the continued 
application of the Commemorative Works Act (CWA). Section 2 of this 
bill states that the Secretary of the Interior shall design, procure, 
prepare, and install the plaque or inscription, thus allowing the NPS 
to determine the placement and design of the plaque. However, section 3 
of the bill requires a different method of designing and locating the 
plaque or inscription than is provided in the CWA. The CWA process 
incorporates important design reviews and public consultation. We 
support retaining the CWA as the vehicle for siting and designing this 
plaque or inscription.
    The World War II Memorial was authorized on May 23, 1993, by Public 
Law 103-32. In 1994, Congress approved its placement in the area 
containing the National Mall in Public Law 103-422. Its location at the 
site of the Rainbow Pool was approved in 1995 by the NPS on behalf of 
the Secretary of the Interior, the Commission of Fine Arts (CFA), and 
the National Capital Planning Commission (NCPC). In July 1997, the CFA 
and the NCPC reaffirmed prior approvals of the Rainbow Pool site in 
recognition of the significance of World War II as the single-most 
defining event of the 20th Century for Americans and the world. Even 
so, there were challenges to the establishment of this memorial. The 
design we see today was painstakingly arrived upon after years of 
public deliberations and spirited public debate.
    The National Capital Memorial Advisory Commission (NCMAC) reviewed 
a proposal similar to the one before the committee today at its meeting 
on September 14, 2011, and determined that no additional elements 
should be inserted into this carefully designed Memorial. The American 
Battle Monuments Commission (ABMC), charged by the Congress in Public 
Law 103-32 to design and build the World War II Memorial, is 
represented on the NCMAC, and thus concurred with that determination.
    If directed by Congress pursuant to this legislation, the NPS will 
work to find an appropriate location for the plaque in accordance with 
the CWA process, as directed in section 3 of this legislation.
    That concludes our prepared testimony on S. 1044, and we would be 
happy to answer any questions you may have.

                               on s. 1071

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present the views of the Department on S. 1071, a bill 
to authorize the Secretary of the Interior (Secretary) to make 
improvements to support facilities for National Historic Sites operated 
by the National Park Service (NPS), and for other purposes.
    The Department could only support this legislation if amended to 
apply specifically to Sand Creek Massacre National Historic Site. The 
bill as introduced would apply to any national historic site that meets 
certain criteria. We are only aware of one site, Sand Creek Massacre 
National Historic Site, to which this bill could apply. We believe it 
is better for Congress to provide specific authority to individual 
parks on a case-by-case basis, rather than to appear to provide broad 
authority that only applies to one unit of the National Park System and 
that could have unintended consequences.
    This legislation would authorize the Secretary to make improvements 
to a non-Federal support facility, including a visitor center, at a 
national historic site operated by the NPS if the project is: (1) 
conducted using amounts included in the budget of the NPS in effect on 
the date on which the project is authorized; (2) subject to a 50 
percent non-federal cost-sharing requirement; and (3) conducted in an 
area in which the NPS was authorized by law in effect before the date 
of enactment of this Act to establish a support facility.
    This bill would only allow the NPS to use existing funds to make 
improvements to support facilities at national historic sites that meet 
these criteria at the time that the bill is enacted. The bill would not 
authorize any new appropriations, and Federal spending would not 
increase as a result of the enactment of this legislation.
    S. 1071 would also authorize the Secretary to operate and use all 
or part of such a support facility to carry out duties associated with 
operating and supporting the national historic site, but only in 
accordance with an agreement between the Secretary and the unit of 
local government in which the support facility is located.
    This legislation would allow national historic sites that meet the 
bill's criteria to partner with State and local governments to leverage 
non-Federal funding to improve facilities that are mutually beneficial 
to the National Park Service and to the local community. For example, 
Kiowa County, Colorado, purchased a historic building in 2007. They 
plan to use a portion of this building as a senior citizens center. The 
remainder of the building would be an ideal location for a visitor 
center and administrative facility for the nearby Sand Creek Massacre 
National Historic Site. The local community has already raised matching 
funds for renovations, and would like to partner with the NPS to make 
improvements to the building so that it can be used as both an NPS 
facility and a senior citizens center for the local community.
    The Department recognizes the need to use Federal funds responsibly 
and we believe that national parks should, on a case-by-case basis, be 
authorized and allowed to partner with State and local governments to 
make capital investments in a non-Federally owned building that 
directly benefits the park, the local community, and the American 
people. In this case, allowing the NPS to partner with Kiowa County to 
make improvements to this support facility would provide much needed 
facilities for the park. In other cases, however, NPS could be expected 
to use its limited capital improvement resources for improvements that 
do not directly benefit the park.
    The legislation that established Sand Creek Massacre National 
Historic Site (Pub. L. 106-465) authorizes a support facility to be 
located outside the park boundary, in Kiowa County, Colorado. We urge 
the committee to amend that provision to allow Federal funds to be used 
to make improvements to a facility for that purpose. We would be happy 
to work with the committee to develop the appropriate amendments.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions you or any other members of the subcommittee may 
have.

                               on s. 1138

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1138, a bill to reauthorize the Hudson River Valley National 
Heritage Area.
    The Department recognizes the important work of the Hudson River 
Valley National Heritage Area to preserve heritage resources in the 
Hudson River Valley between Yonkers and Troy, New York. We recommend 
that S. 1138 be amended to authorize an extension for heritage area 
program funding until we have completed an evaluation and report on the 
accomplishments of the area and the future role of the National Park 
Service; and until national heritage area program legislation is 
enacted that standardizes timeframes and funding for designated 
national heritage areas. Consistent with congressional directives in 
the FY 2009 and FY 2010 Interior Appropriations Acts, the 
Administration proposed, in the FY 2014 budget, focusing most national 
heritage area grants on recently authorized areas. The Department would 
like to work with Congress to determine the future federal role when 
national heritage areas reach the end of their authorized eligibility 
for heritage program funding. We recommend that Congress enact national 
heritage legislation during this Congress.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas. Program legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas.
    S. 1138, as introduced, would extend the authorization of federal 
funding for the Hudson River Valley National Heritage Area for an 
additional 9 years. The Hudson River Valley National Heritage Area was 
established in 1996 by Public Law 104-333. The national heritage area 
includes 250 communities in ten counties bordering the Hudson River for 
154 miles of tidal estuary along with three million acres of the Hudson 
Highlands, the Catskill Mountains, rolling farmland and compact 
villages, as well as small cities and hamlets. The region extends from 
the confluence of the Mohawk and Hudson Rivers, south to the northern 
border of New York City.
    The mission of this national heritage area is to recognize, 
preserve, and promote the natural and cultural resources of the Hudson 
River Valley. This is accomplished through a voluntary partnership with 
communities and citizens, and local, state, and federal agencies 
emphasizing public access, economic development, regional planning, and 
interpretive programs.
    Public Law 104-333 designated the Hudson River Valley Greenway 
Communities Council and the Greenway Heritage Conservancy, Inc., as the 
local coordinating entities for the national heritage area. The 
heritage area local coordinating entities facilitate public private 
partnerships for the preservation of heritage resources and work 
closely with National Park Service staff at Roosevelt-Vanderbilt 
National Historic Sites. The national heritage area's work focuses on 
regional initiatives for heritage programming, interpretation, and 
education, preservation and resource stewardship, heritage development 
and infrastructure, and planning and design.
    During its 16 years of existence, the Hudson River Valley National 
Heritage Area has a significant record of achievement and, with 
government funding assistance since its establishment, has shown 
significant success in working with partners and the federal government 
to preserve, interpret, and promote the significant resources in their 
local areas. Every federal dollar has been matched with non-federal 
funds. In total, Hudson River Valley National Heritage Area has 
received nearly $9 million in federal funding, and every federal dollar 
has been matched at least once with non-federal funds.
    The Hudson River Valley National Heritage Area has taken the lead 
on numerous initiatives to engage the public. One such initiative, 
Heritage Weekend, gives visitors the opportunity to discover--or 
rediscover-many historic, architectural, and natural treasures in the 
state. The national heritage area staff also works tirelessly to 
connect sites and schools to create unique place-based curriculum; this 
curriculum can be replicated and used by others through a website that 
provides academic resources regarding the heritage and culture of the 
Hudson River Valley. Moreover, the staff facilitates the creation of 
region-wide ``shows'' focusing on nature and culture sub-themes. On a 
more fundamental level, the staff prints map and guides, and advances a 
graphic identity at partner sites. The staff also continues to help 
communities and trail groups establish a system of trails that link 
cultural and historic sites, parks, open spaces, and community centers. 
This trail system provides public access to the Hudson River as well.
    We recommend a technical amendment to the long title of the bill to 
make it clear that the bill would extend the authorization for federal 
funding for the national heritage area instead of reauthorizing the 
national heritage area. While the Hudson River Valley National Heritage 
Area faces a sunset for its Federal funding, its national heritage area 
designation will not sunset.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or other members of the committee may have.

                               on s. 1151

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1151, a bill to reauthorize the America's Agricultural Heritage 
Partnership in the State of Iowa.
    The Department recognizes the important work of the America's 
Agricultural Heritage Partnership, better known as the Silos and 
Smokestacks National Heritage Area, in northeast Iowa. We recommend 
that S. 1151 be amended to authorize an extension for heritage area 
program funding until Congress has had time to consider the recently 
completed evaluation and report on the accomplishments of the heritage 
area and the future role of the National Park Service that was recently 
transmitted to Congress this past month; and until heritage area 
program legislation is enacted that standardizes timeframes and funding 
for designated national heritage areas. Consistent with congressional 
directives in the 2009 and 2010 Interior Appropriations Acts, the 
Administration proposed, in the FY 2014 budget, focusing most national 
heritage area grants on recently authorized areas. The Department would 
like to work with Congress to determine the future federal role when 
heritage areas reach the end of their authorized eligibility for 
heritage program funding. We recommend that Congress enact national 
heritage area legislation during this Congress.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas. Program legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas.
    The Silos and Smokestacks National Heritage Area was established in 
1996 by Public Law 103-333 to interpret farm life, agribusiness and 
rural communities, past and present. It preserves and tells the story 
of American agriculture and its global significance through 
partnerships and activities that celebrate the land, people, and 
communities of the area. The heart of America's agricultural revolution 
still exists in the region, and the national heritage area is telling 
the breadth and scope of this story in a compelling, meaningful way.
    The heritage of American agriculture and its influence on the 
global agricultural revolution was considered to be nationally 
distinctive and met the criteria for national heritage area 
designation. American agriculture is one of the primary sources of this 
country's wealth and world leadership and should be preserved and 
interpreted. The Silos and Smokestacks National Heritage Area preserves 
and interprets a rich cultural landscape that includes family farms, 
historic industrial architecture, and rural communities across a 37-
county region in northeast Iowa covering over 20,000 square miles. This 
broad agrarian landscape is rare in today's pattern of urban and 
suburban expanding into rural areas.
    The national heritage area is managed by the America's Agricultural 
Heritage Partnership (Partnership), this local coordinating entity 
facilitates public private partnerships for the preservation and 
interpretation of heritage resources. The Partnership's work focuses on 
regional initiatives for heritage programming, interpretation and 
education, preservation and resource stewardship, heritage development 
and infrastructure, and planning and design.
    During its 16 years of existence, the Silos and Smokestacks 
National Heritage Area has a significant record of achievement. It has 
worked closely with the regional business community, county and state 
governments, and multiple non-governmental organizations to build a 
network of partner sites dedicated to preserving and interpreting the 
past, present, and future of America's agricultural story. Working 
together, the network has developed a successful public information and 
way-finding program for promoting tourism that welcomes visitors along 
the major highway corridors surrounding the region and identifies the 
more than 100 partner sites in the heritage area. The new signs serve 
as a connecting thread for this network of sites, while letting 
visitors know they can discover a piece of America's agricultural story 
being preserved at the site. This way-finding program has not only 
helped visitors find tourism destinations within the Silos and 
Smokestacks National Heritage Area, but has also helped the heritage 
area develop a regional identity.
    The bedrock of the National Heritage Area concept has always been 
building partnerships for achieving goals. The Silos and Smokestacks 
National Heritage Area, with minimal government funding assistance 
since its establishment, has shown significant success in working with 
partners and the federal government to preserve, interpret, and promote 
the significant resources of northeast Iowa. Since its establishment, 
the Silos and Smokestacks National Heritage Area has received almost 
$9.5 million in federal funding, and every federal dollar has been 
matched at least once with non-federal funds.
    S. 1151, as is written now, would extend the authorization for 
federal funding for the Silos and Smokestacks National Heritage Area 
for an additional 10 years. The Silos and Smokestacks National Heritage 
Area is one of the nine heritage areas evaluated by the National Park 
Service pursuant to Public Law 110-229. The completed evaluation for 
the Silos and Smokestacks National Heritage Area was recently 
transmitted to Congress this past month, and included recommendations 
on the future role of the National Park Service in the area.
    We recommend a technical amendment to the long title of the bill to 
make it clear that the bill would extend the authorization for federal 
funding for the heritage area instead of reauthorizing the heritage 
area. While the Silos and Smokestacks National Heritage Area faces a 
sunset for its federal funding, its national heritage area designation 
will not sunset.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or other members of the committee may have.

                               on s. 1157

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1157, a bill to reauthorize the Rivers of Steel National Heritage 
Area, the Lackawanna Valley National Heritage Area, the Delaware and 
Lehigh National Heritage Corridor, and the Schuylkill River Valley 
National Heritage Area.
    The Department recognizes the important work of the four national 
heritage areas to preserve historic, cultural, natural, and 
recreational resources in Pennsylvania. We recommend that S. 1157 be 
amended to authorize an extension for heritage area program funding 
until we have completed an evaluation and report on the accomplishments 
of the national heritage areas and the future role of the National Park 
Service; and until program legislation is enacted that standardizes 
timeframes and funding for designated national heritage areas. 
Consistent with congressional directives in the 2009 and 2010 Interior 
Appropriations Acts, the Administration proposed, in the FY 2014 
budget, focusing most national heritage area grants on recently 
authorized areas. The Department would like to work with Congress to 
determine the future federal role when national heritage areas reach 
the end of their authorized eligibility for national heritage program 
funding. We recommend that Congress enact national heritage area 
legislation during this Congress.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas. Program legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas.
    All four areas have lengthy records of leadership and 
accomplishment. All four are recognized for their important histories 
and rich and distinctive historic and natural resources. At each, 
numerous partner organizations and local, state, and federal agencies 
work together through the singular opportunity for collaboration that 
the national heritage area model provides. Each area developed a 
thoughtful plan with the community and has made enormous strides in 
saving historic resources, developing trails, preserving open space, 
building community pride, enhancing education, and promoting economic 
development that responds to these essential elements of their quality 
of life.
    Created by Public Law 104-333 in 1996, the Rivers of Steel National 
Heritage Area (Rivers of Steel) is made up of eight counties in 
southwestern Pennsylvania known for their significant contributions to 
the steel industry in America. The mission of Rivers of Steel is to 
preserve and interpret the history of the region and share the dynamic 
story of the evolution of southwestern Pennsylvania from a small 
colonial settlement to the flourishing of the steel industry in the 
area.
    The Lackawanna Valley National Heritage Area (Lackawanna) was 
established by Public Law 106-278 in 2000. The Lackawanna includes four 
counties in northeastern Pennsylvania with historical ties to the 
anthracite coal industry. These counties preserve nationally 
distinctive resources related to Pennsylvania and America's industrial 
history, including the history of major labor unions and the struggle 
to improve working conditions of mine workers. The architecture, ethnic 
traditions, and infrastructure of the anthracite region tell the story 
of the Lackawanna Valley and its role in the industrial development of 
the United States. The mission of the Lackawanna is to conserve, 
interpret, and develop the historical, cultural, natural, recreational, 
and economic development resources associated with the area's 
significant history.
    The Delaware and Lehigh National Heritage Corridor (Delaware and 
Lehigh) was established by Public Law 100-692 in 1988, the third 
National Heritage Area created by Congress. The 150-mile spine of the 
Delaware and Lehigh is the historic Delaware Canal and Lehigh 
Navigation Canal through five counties in eastern Pennsylvania. The 
Delaware and Lehigh commemorates the historic routes of rivers, canals, 
and railroads-and the people and communities involved-that brought 
anthracite coal from the mines to market in the early nineteenth 
century, fostering the development of vibrant towns and culture. The 
purpose of the Delaware and Lehigh is to provide an integrated 
management structure that facilitates preservation, recreation, 
education, and economic development.
    The Schuylkill River Valley National Heritage Area (Schuylkill 
River Valley) was established by Public Law 106-278 in 2000. The 
Schuylkill River Valley conserves, interprets, and develops the 
historical, cultural, natural, recreational, and economic resources 
related to the heritage of the area, encompassing five counties in 
southeastern Pennsylvania, including Philadelphia. The area is rich in 
Revolutionary War history, and the anthracite, charcoal, iron, and 
textile industries of the region grew here.
    The bedrock of the national heritage area concept has always been 
building partnerships for achieving goals. All four of these non-profit 
national heritage areas, with government funding assistance since their 
establishment, have shown significant success in working with partners 
and the federal government to preserve, interpret, and promote the 
significant resources in their local areas. In total, Lackawanna has 
received approximately $6.7 million in Federal funding, Rivers of Steel 
has received about $13.4 million in Federal funding, Delaware and 
Lehigh has received almost $12.7 million, and Schuylkill River Valley 
has received nearly $5.9 million in Federal funding, and every federal 
dollar has been matched at least once with non-federal funds.
    S. 1157, as drafted, would extend the authorization for federal 
funding for these four heritage areas for an additional ten years. 
Currently, the Evaluation and Report required by Public Law 110-229 is 
being completed for Rivers of Steel and we anticipate the evaluation 
will be transmitted to Congress this year. The NPS and the Delaware and 
Lehigh completed an evaluation for the Delaware and Lehigh; however, 
this evaluation did not include recommendations on what the future role 
of the National Park Service should be in the area. The National Park 
Service will take another look at the evaluation and include 
recommendations on the future role of the National Park Service prior 
to transmitting it to Congress in order to be consistent with the other 
reports.
    We recommend a technical amendment to the long title of the bill to 
make it clear that the bill would extend the authorization for federal 
funding for the four heritage areas instead of reauthorizing the 
heritage areas. While the four heritage areas face a sunset date for 
their federal funding, their national heritage area designation will 
not sunset.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or other members of the committee may have.

                               on s. 1186

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1186, a bill to reauthorize the Essex National Heritage Area.
    The Department recognizes the important work of the Essex National 
Heritage Area to preserve heritage resources in Essex County, 
Massachusetts. We recommend that S. 1186 be amended to authorize an 
extension for heritage area program funding until Congress has had time 
to consider the completed evaluation and report on the accomplishments 
of the area and the future role of the National Park Service that was 
recently transmitted to Congress during this past month; and until 
heritage area program legislation is enacted that standardizes 
timeframes and funding for designated national heritage areas. 
Consistent with congressional directives in the 2009 and 2010 Interior 
Appropriations Acts, the Administration proposed, in the FY 2014 
budget, focusing most national heritage area grants on recently 
authorized areas. The Department would like to work with Congress to 
determine the future federal role when heritage areas reach the end of 
their authorized eligibility for heritage program funding. We recommend 
that Congress enact national heritage legislation during this Congress.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas. Program legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas.
    Essex National Heritage Area was established in 1996 by Public Law 
103-333. This national heritage area was established to recognize, 
preserve, promote, and interpret the historic, cultural, and natural 
resources of the North Shore and lower Merrimack River valley in Essex 
County, Massachusetts. The early settlement history, maritime history, 
and the imprint of the early industrial era on the landscape, in 
particular, were considered to be nationally distinctive and met the 
criteria for national heritage area designation. Essex National 
Heritage Area preserves and interprets a rich cultural landscape that 
includes historic homes, small family farms, and historic industrial 
architecture. Additionally, it contains an array of scenic and natural 
resources such as rocky coasts and harbors, marshlands, and rivers. 
Essex National Heritage Area spans 500 square miles in northeastern 
Massachusetts, and includes 34 cities and towns.
    The Essex National Heritage Area is managed by the Essex National 
Heritage Commission (Commission), which facilitates public private 
partnerships for the preservation of heritage resources and works 
closely with National Park Service staff at Salem Maritime National 
Historic Site and Saugus Iron Works National Historic Site, both of 
which are within the boundary of the national heritage area. The 
Commission's work focuses on regional initiatives for heritage 
programming, interpretation, and education, preservation and resource 
stewardship, heritage development and infrastructure, and planning and 
design.
    During its 16 years of existence, Essex National Heritage Area has 
a significant record of achievement. The national heritage area has 
worked closely with National Park Service staff at Salem Maritime and 
Saugus Iron Works on a variety of educational and interpretive programs 
to educate visitors and students about local heritage resources. One 
successful example is the Trails & Sails weekend, a county-wide event 
that involves more than 50 host organizations at over 140 locations in 
Essex County in providing interpretive tours, hikes, walks, sail trips, 
and special events at no charge to participants. The Essex Local 
History In a National Context program has also successfully brought the 
main themes of the Essex National Heritage Area into area classrooms.
    The national heritage area has played a significant role in local 
communities in helping to inventory and research historic resources. 
Working with the Massachusetts Department of Conservation and 
Recreation, the Essex National Heritage Area created a catalog of 
heritage landscapes that communities had identified as being valuable 
and worthy of protection. In all, communities identified 1,320 
resources in 24 of the 34 municipalities included within the boundary 
of the national heritage area. Additionally, the inventory articulated 
strategies for preserving these historic resources and landscapes.
    Essex National Heritage Area has also implemented a successful 
public information and wayfinding campaign for promoting tourism. More 
than 80 directional highway signs have been installed within the 
national heritage area that point visitors toward regional visitor 
centers and historic and natural visitor destinations. These signs not 
only have helped visitors find tourism destinations within Essex 
National Heritage Area, they have also helped create a regional 
identity for the national heritage area. Essex National Heritage Area 
also plays a significant role in leveraging federal dollars. In total, 
Essex National Heritage Area has received approximately $13.2 million 
in federal funding, and every federal dollar has been matched at least 
once with non-federal dollars.
    S. 1186, as written, would extend the authorization of federal 
funding for Essex National Heritage Area for an additional 15 years and 
increase the authorization of appropriations by $10 million. The Essex 
National Heritage Area is one of the nine national heritage areas 
identified for evaluation by the National Park Service pursuant to 
Public Law 110-229. The completed Essex National Heritage Area 
evaluation was recently transmitted to Congress this past month. The 
evaluation report includes recommendations on the future role of the 
National Park Service in the area.
    We recommend a technical amendment to the long title of the bill to 
make it clear that the bill would extend the authorization for Federal 
funding for the heritage area instead of reauthorizing the heritage 
area. While the Essex National Heritage Area faces a sunset for its 
federal funding, its national heritage area designation does not 
sunset.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or other members of the committee may have.

                               on s. 1252

    Mr. Chairman, thank you for the opportunity to appear before your 
committee today to present the views of the Department of the Interior 
on S. 1252, a bill to amend the Wild and Scenic Rivers Act to designate 
certain segments of the Missisquoi River and the Trout River in the 
State of Vermont, as components of the Wild and Scenic Rivers System.
    The Department has preliminarily determined through the National 
Park Service's draft study of the Upper Missisquoi and Trout rivers 
that the segments proposed for designation under this bill are eligible 
for inclusion into the National Wild and Scenic Rivers System. However, 
the study report is only in the preliminary internal review stage. We 
recommend that the committee defer action on S. 1252 until the study is 
completed, which is consistent with the Department's general policy on 
legislation designating additions to the Wild and Scenic Rivers System 
when a study of the subject is pending.
    S. 1252 would designate two segments of the Upper Missisquoi River 
totaling 35.1 miles and the entire mainstem of its tributary, the Trout 
River, totaling 11 miles, as part of the Wild and Scenic Rivers System, 
to be administered by the Secretary of the Interior as recreational 
rivers. The segments would be managed in accordance with the Upper 
Missisquoi and Trout Rivers Management Plan (March 2013) prepared as a 
part of the study, with the Secretary coordinating administration and 
management with a locally based management committee, as specified in 
the plan. The bill would authorize the Secretary to enter into 
cooperative agreements with the State of Vermont, the adjoining 
communities, and appropriate local planning and environmental 
organizations. The legislation follows the model of other recent New 
England Wild and Scenic River designations based on a ``partnership'' 
model emphasizing locally based management solutions and a limited 
federal role.
    S. 1252 would exclude from designation the property and project 
boundaries associated with the Troy and North Troy hydroelectric 
projects, both of which are small, run-of-river projects that have 
Federal Energy Regulatory Commission (FERC) exemptions-permanent 
authority to operate under existing terms. A third hydroelectric 
facility, the Enosburg Falls project, lies immediately downstream of 
the lower endpoint of the Missisquoi mainstem proposed designation. The 
Department does not view these projects as being in conflict with the 
proposed designation.
    S. 1252 also contains language that would allow the Secretary to 
designate an additional 3.8 mile segment at the headwaters of the 
Missisquoi within the Town of Lowell, subject to a finding of 
sufficient local support. This provision would allow the Town of 
Lowell, which did not support designation at its March 2013 Town 
Meeting, to opt into the designation at some future point without the 
need for additional congressional action.
    The study of the Upper Missisquopi and Trout was authorized by P.L. 
111-11, the Omnibus Public Land Management Act of 2009. The National 
Park Service has conducted the study in close cooperation with the 
adjoining communities, the State of Vermont, the Missisquoi River Basin 
Association, and other interested local parties. Technical assistance 
provided as a part of the study made possible the development of the 
Upper Missisquoi and Trout Rivers Management Plan (March 2013). This 
plan is based primarily around local partner actions designed to guide 
the management of the Upper Missisquoi and Trout rivers with or without 
a National Wild and Scenic River designation. Although the Wild and 
Scenic Rivers Act requires the development of a comprehensive river 
management plan within three years of the date of designation, it has 
become the practice of the National Park Service to prepare this plan 
as part of a study of potential wild and scenic rivers when much of the 
river runs through private lands. This allows the National Park Service 
to consult widely with local landowners, federal and state land 
management agencies, local governments, river authorities, and other 
groups that have interests related to the river prior to any 
recommendation for designation. Early preparation of the plan also 
assures input from these entities as well as users of the river on the 
management strategies that would be needed to protect the river's 
resources.
    While the study has not been finalized, the data collected and 
presented in the preparation of the Management Plan support the 
conclusion that the segments proposed for designation by S. 1252 
exhibit free-flowing character and the presence of outstandingly 
remarkable natural, cultural and recreation resource values consistent 
with Wild and Scenic River eligibility. The study process, which 
culminated in town meeting votes supporting both the Management Plan 
and Wild and Scenic River designation, has also demonstrated strong 
local, state and partner support crucial to successful long-term 
management and protection of partnership-based Wild and Scenic Rivers. 
Resource values of note include the Northern Forest Canoe Trail which 
utilizes a portion of the Upper Missisquoi, and is developing 
substantial momentum as a regional and national canoe route. Big Falls 
State Park on the Missisquoi is home to Vermont's largest undammed 
falls and is one of numerous spectacular falls and gorges exhibited by 
the river and its tributaries. The Trout River in Montgomery is also 
the location of a collection of National Register-listed covered 
bridges considered one of the most significant assemblages in the State 
of Vermont.
    If S. 1252 is enacted, the Upper Missisquopi and Trout would be 
administered as a partnership wild and scenic river, similar to several 
other designations in the Northeast, including the upper Farmington 
River and the Eightmile River in Connecticut, and the Lamprey River in 
New Hampshire. This approach emphasizes local and state management 
solutions, and has proven effective as a means of protecting 
outstandingly remarkable natural, cultural, and recreational resource 
values without the need for direct federal management or land 
acquisition.
    Mr. Chairman, this concludes my prepared remarks. I would be happy 
to answer any questions you or other committee members may have 
regarding this bill.

                               on s. 1253

    Mr. Chairman, thank you for the opportunity to appear before your 
committee today to present the views of the Department of the Interior 
on S. 1253, a bill to amend the Wild and Scenic Rivers Act to designate 
certain segments of the Farmington River and Salmon Brook in the State 
of Connecticut as components of the Wild and Scenic Rivers System, and 
for other purposes.
    The Department has preliminarily concluded through the National 
Park Service's draft study of the Lower Farmington River and Salmon 
Brook that the segments proposed for designation under this bill are 
eligible for inclusion into the National Wild and Scenic Rivers System. 
However, we recommend that the committee defer action on S. 2286 until 
the study is completed, which is consistent with the Department's 
general policy on legislation designating additions to the Wild and 
Scenic Rivers System when a study of the subject is pending. Our 
process is nearly complete, and final transmittal to Congress is likely 
in the very near future.
    S. 1253 would designate 35.3 miles of the Farmington River and the 
entire 26.4 miles of its major tributary, Salmon Brook, as part of the 
Wild and Scenic Rivers System, to be administered by the Secretary of 
the Interior. The segments would be managed in accordance with the 
Lower Farmington River and Salmon Brook Management Plan (June 2011) 
with the Secretary coordinating administration and management with a 
locally based management committee, as specified in the plan. The bill 
would authorize the Secretary to enter into cooperative agreements with 
the State of Connecticut, the adjoining communities, and appropriate 
local planning and environmental organizations. S. 1253 would also make 
an adjustment to the upper Farmington Wild and Scenic River, which was 
designated in 1994, by adding 1.1 miles to the lower end of that 14-
mile designation.
    S. 1253 would complete the wild and scenic river designation of the 
Farmington River in Connecticut by designating all of the mainstem 
Farmington River segments found to meet the criteria of eligibility and 
suitability. At the same time, S. 1253 would provide for the continued 
operation of one existing hydroelectric facility-Rainbow Dam in 
Windsor-and allow for potential ydroelectric development of existing 
dams in the Collinsville stretch of the river, which is currently the 
subject of an active Federal Energy Regulatory Commission (FERC) 
licensing proceeding sponsored by the Town of Canton. However, we have 
concerns regarding the potential future FERC licensing of Rainbow Dam. 
If the committee acts on this legislation, we would like to ensure that 
if operations were to be changed, wild and scenic river values upstream 
and downstream of the hydro project would be protected. We would be 
pleased to provide recommended language to the committee to address 
this issue.
    P.L. 109-370, the Lower Farmington River and Salmon Brook Study Act 
of 2005, authorized the study of the segments proposed for designation 
in S. 1253. The National Park Service conducted the study in close 
cooperation with the adjoining communities, the State of Connecticut, 
the Farmington River Watershed Association, the Stanley Black & Decker 
Corporation (owner of Rainbow Dam) and other interested local parties. 
Although the Wild and Scenic Rivers Act requires the development of a 
comprehensive river management plan within three years of the date of 
designation, it has become the practice of the National Park Service to 
prepare this plan as part of a study of potential wild and scenic 
rivers when much of the river runs through private lands. This allows 
the National Park Service to consult widely with local landowners, 
federal and state land management agencies, local governments, river 
authorities, and other groups that have interests related to the river 
prior to any recommendation for designation. Early preparation of the 
plan also assures input from these entities as well as users of the 
river on the management strategies that would be needed to protect the 
river's resources.
    Technical assistance provided as a part of the study made possible 
the development of the Lower Farmington River and Salmon Brook 
Management Plan (June 2011). This plan is based primarily around local 
partner actions designed to guide the management of the Lower 
Farmington River and Salmon Brook with or without a National Wild and 
Scenic River designation.
    While the study has not been transmitted to Congress, it has 
preliminarily concluded that the proposed segments of the Lower 
Farmington River and Salmon Brook are eligible and suitable for 
inclusion in the National Wild and Scenic Rivers System because of 
their free-flowing nature and outstandingly remarkable geology, water 
quality, biological diversity, cultural landscape, recreation values 
and local authority to protect and enhance these values. These findings 
substantiate the widely held view of the Farmington River as 
Connecticut's premier, free-flowing river resource for a diversity of 
natural and cultural values, including one of New England's most 
significant whitewater boating runs, regionally unique freshwater 
mussel populations, and outstanding examples of archaeological and 
historical sites and districts spanning Native American, colonial and 
early manufacturing periods. Salmon Brook is, in its own right, highly 
significant for outstanding water quality and significant cold water 
fishery.
    If S. 2286 is enacted, the Lower Farmington River and Salmon Brook 
would be administered as a partnership wild and scenic river, similar 
to several other designations in the Northeast, including the upper 
Farmington River and the Eightmile River in Connecticut. This approach 
emphasizes local and state management solutions, and has proven 
effective as a means of protecting outstandingly remarkable natural, 
cultural and recreational resource values without the need for direct 
federal management or land acquisition.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions you or other committee members may have regarding 
this bill.

                               on s. 1328

    Mr. Chairman, thank you for the opportunity to appear before you to 
provide the Department of the Interior's views on S. 1328, a bill to 
authorize the Secretary of the Interior to conduct a special resource 
study of the archeological site, and surrounding land of the New 
Philadelphia town site in the State of Illinois, and for other 
purposes.
    The Department supports enactment of S. 1328. However, we believe 
that priority should be given to the 30 previously authorized studies 
for potential units of the National Park System, potential new National 
Heritage Areas, and potential additions to the National Trails System 
and National Wild and Scenic River System that have not yet been 
transmitted to the Congress.
    S. 1328 authorizes a special resource study to evaluate the 
national significance of the New Philadelphia, Illinois town site and 
to determine the suitability and feasibility of designating the 
archaeological site and the surrounding land as a unit of the National 
Park System. The bill directs the Secretary, in the course of the 
resource study, to also consider other alternatives for the 
preservation, protection and interpretation of the archeological site 
of New Philadelphia, Illinois and the surrounding land by Federal, 
State or local government entities, private nonprofit organizations or 
any other interested individuals. We estimate the cost of the resource 
study to range from $200,000 to $300,000, based on similar types of 
studies conducted in recent years.
    The New Philadelphia town site, located near Barry, Illinois, was 
founded in 1836 by Frank McWhorter, an enslaved man from Kentucky, who 
bought his own freedom and the freedom of 15 family members. New 
Philadelphia is the first known town platted and officially registered 
by an African-American before the Civil War. The rural community 
situated near the Mississippi and Illinois Rivers flourished at first, 
but later fell into decline when the railroad bypassed the community in 
1869; it was eventually dissolved in 1885. The New Philadelphia town 
site is a 42-acre archeological site with no visible above-ground 
evidence. It was designated a National Historic Landmark on January 16, 
2009.
    In 2012, the National Park Service completed a reconnaissance 
survey of the New Philadelphia town site. The survey found that the 
site is nationally significant and would likely meet the criteria for 
suitability to be added to the National Park System. The survey also 
found, however, that the New Philadelphia town site is not likely to be 
feasible for addition to the National Park System due to the challenges 
of providing for public enjoyment, including associated operation and 
staffing costs. However, a special resource study also would examine 
alternatives to National Park Service management for the preservation 
and interpretation of the New Philadelphia town site.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to answer any questions that you or other committee members may 
have regarding this bill.

                               on s. 1339

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1339, a bill to reauthorize the Ohio & Erie National Heritage 
Canalway.
    The Department recognizes the important work of the Ohio & Erie 
National Heritage Canalway to preserve heritage resources in northeast 
Ohio from Cleveland to New Philadelphia and its role in linking 
Cuyahoga Valley National Park to the residents of Cleveland, Akron, and 
other communities through the preservation and maintenance of the 
canal's towpath that runs through the heart of the park. We recommend 
that S. 1339 be amended to authorize an extension for heritage area 
program funding until we have completed an evaluation and report on the 
accomplishments of the area and the future role of the National Park 
Service; and until national heritage area program legislation is 
enacted that standardizes timeframes and funding for designated 
national heritage areas. Consistent with congressional directives in 
the FY 2009 and FY 2010 Interior Appropriations Acts, the 
Administration proposed, in the FY 2014 budget, focusing most national 
heritage area grants on recently authorized areas and reducing and/or 
phasing out funds to well-established recipients to encourage self-
sufficiency. The Department would like to work with Congress to 
determine the future federal role when national heritage areas reach 
the end of their authorized eligibility for heritage program funding. 
We recommend that Congress enact national heritage legislation during 
this Congress.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas. Program legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas.
    S. 1339, as introduced, would extend the authorization of federal 
funding for the Ohio & Erie National Heritage Canalway for an 
additional 9 years. The Ohio & Erie National Heritage Canalway, 
originally called the Ohio & Erie Canal National Heritage Corridor, was 
established in 1996 by Public Law 104-333. This national heritage area 
includes the counties of Cuyahoga, Summit, Stark, and Tuscarawas in 
northeast Ohio. The region extends from Lake Erie along the Erie Canal 
through Cleveland to New Philadelphia.
    The mission of this national heritage area is to preserve and 
interpret and celebrate the rails, trails, landscapes, towns and sites 
that grew up along the first 100 miles of the Ohio & Erie Canalway that 
helped Ohio and our nation grow. This is accomplished through a 
voluntary partnership with communities and citizens, and local, state, 
and federal agencies emphasizing public access, economic development, 
regional planning, and interpretive programs.
    Public Law 104-333 designated the Ohio & Erie Canal Association as 
the management entity for the national heritage area. The heritage area 
management entity facilitates public private partnerships for the 
preservation of heritage resources and works closely with National Park 
Service staff at Cuyahoga Valley National Park. The national heritage 
area's work focuses on regional initiatives for heritage programming, 
interpretation and education, preservation and resource stewardship, 
heritage development and infrastructure, and planning and design, all 
linking the canal communities together through the canal's towpath 
trail.
    During its 16 years of existence, the Ohio & Erie National Heritage 
Canalway has a significant record of achievement and, with government 
funding assistance since its establishment, has shown significant 
success in working with partners and the federal government to 
preserve, interpret, and promote the significant resources of the local 
communities along the Ohio & Erie Canalway. In total, the Ohio & Erie 
National Heritage Canalway has received almost $13.3 million in federal 
funding, and every federal dollar has been matched at least once with 
non-federal funds.
    The Ohio & Erie National Heritage Canalway has taken the lead on 
initiatives such as the development of 73 miles of the multi-use 
recreational Towpath Trail from Cleveland to New Philadelphia, Ohio, 
that is used by thousands of visitors each year. The management entity 
has worked tirelessly to connect sites, communities and parklands, 
resulting in the creation of thousands of new national park and towpath 
trail users. They continue to help communities and trail groups 
establish a system of county trails and green spaces, with over 400 
miles of trails that link cultural and historic sites, parks, open 
spaces, and community centers as well as providing public access to the 
Ohio & Erie Canalway.
    We recommend two technical amendments to the long title of the bill 
to make it clear that the bill would extend the authorization for 
federal funding for the national heritage area instead of reauthorizing 
the national heritage area and to correct the name of the Ohio & Erie 
National Heritage Canalway. While the Ohio & Erie National Heritage 
Canalway faces a sunset for its federal funding, its national heritage 
area designation will not sunset.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or other members of the committee may have.

                              on h.r. 674

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's testimony regarding H.R. 674, a bill to 
authorize the Secretary of the Interior to study the suitability and 
feasibility of designating prehistoric, historic, and limestone forest 
sites on Rota, Commonwealth of the Northern Mariana Islands, as a unit 
of the National Park System.
    The Department supports H.R. 674 with a technical amendment. 
Priority should be given, however, to the 30 previously authorized 
studies for potential units of the National Park System, potential new 
National Heritage Areas, and potential additions to the National Trails 
System and National Wild and Scenic River System that have not yet been 
transmitted to Congress.
    H.R. 674 would authorize the Secretary of the Interior to complete 
a Special Resource Study of sites on the Island of Rota for potential 
inclusion in the National Park System. We estimate that this study will 
cost approximately $250,000--$300,000.
    Rota, where the indigenous Chamorro and Carolinian people have 
retained their cultural heritage in its natural environment, is the 
southernmost island of the Commonwealth of the Northern Mariana Islands 
(CNMI). Spared the population displacement of other colonial islands 
and largely bypassed during World War II, Rota preserves striking 
examples of the three thousand-year-old Chamorro culture surrounded by 
the best remaining expanse of this island chain's native limestone 
forest.
    The Mochon Latte Village, the Chugai Pictograph Cave, the Taga 
Latte Stone Quarry, and the Alaguan Bay Ancient Village prehistoric 
sites include architectural features unique to the ancient Chamorro 
culture and represent outstanding examples of the territory's cultural 
resources. These sites possess a high degree of integrity in location, 
materials, workmanship and association.
    The limestone forests of Rota are the most intact and most 
extensive examples of primary, native limestone forest remaining on any 
island in the Mariana Archipelago. The forest provides and sustains 
habitat for endangered bird species, a threatened species of fruit bat, 
and numerous species of invertebrates that are proposed for listing as 
threatened or endangered. Several of these species are endemic to Rota. 
The significance of this unique biotic community cannot be overstated.
    Rota's residents and legislative delegation have demonstrated an 
extraordinary commitment to the protection of the island's environment, 
including establishment of marine protected areas on Rota. In 2004, 
Senator Diego M. Songao, Chairman of the Rota Legislative Delegation of 
the Fourteenth Commonwealth Legislature, formally requested planning 
assistance from the National Park Service (NPS).
    In response to this request, the NPS completed a reconnaissance 
survey of Rota's natural and cultural resources in September of 2005. 
The reconnaissance survey found that the natural and cultural resources 
of the island of Rota are significant to island residents, the CNMI, 
and the entire nation and merit protection. It also made a preliminary 
finding that these resources are likely to be suitable and feasible for 
inclusion in the park system.
    At present, the people of Rota and their political leaders find 
themselves at a crossroads regarding the uses to which their lands are 
being put. Major land use changes are continuing to take place in the 
form of residential and agricultural lots being subdivided out of the 
island's public lands and transferred into private ownership.
    Congressional authorization to conduct a Special Resource Study 
will provide a public process to determine the suitability and 
feasibility of designating prehistoric, historic, and limestone forest 
sites on Rota, Commonwealth of the Northern Mariana Islands, as a unit 
of the National Park System. The NPS would be pleased to actively 
engage organizations, residents and others in discussions of how best 
to preserve Rota's significant cultural and natural resources.
    The NPS recommends a technical correction to clarify the intent of 
section 2(a)(2) of the bill. We interpret this section to apply to 
areas identified as suitable and feasible for designation as a unit of 
the National Park System. It is possible, however, to read this section 
more broadly to imply that the National Park Service should examine 
alternatives for management of the entire island of Rota. We would like 
to work with the committee to clarify the intent of this section.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer questions that you or other members of the committee might have.

                              on h.r. 885

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide the views of the Department on H.R. 885, to 
expand the boundary of San Antonio Missions National Historical Park 
(Park), and for other purposes.
    The Department supports H.R. 885 with amendments described later in 
this statement.
    H.R. 885 would expand the boundary of the Park by approximately 137 
acres, all of which are currently being managed by the National Park 
Service (NPS). Of the 137 acres, 102 acres are either owned by the 
United States and managed by the NPS or are being managed by the NPS 
under a cooperative agreement and are in the process of being donated 
to the Park. Nineteen acres are currently, and will continue to be, 
managed through a cooperative agreement with the landowners, the city 
of San Antonio and Bexar County that protects the cultural landscape, 
ensures public access, and provides for greater interpretation of the 
historical and architectural values of the Park. The additional 16 
acres will continue to be managed by Bexar County.
    The Park's authorizing legislation allows for the acquisition of 
new lands outside the Park boundary and allows the Park to enter into 
cooperative agreements to preserve historic properties and provide for 
visitor access and interpretation. However, the Park has only limited 
authority to revise the Park boundary to include additional lands, 
which is why this legislation is necessary. Because the park currently 
manages 121 acres of the lands that would be included in the new 
boundary and Bexar County will continue to manage the additional 16 
acres, H.R. 885 will not result in increased operational costs.
    The Park preserves a significant link to Mexico and Spain that has 
influenced the culture and history of the United States since before 
its inception. San Antonio, Texas, is now the seventh-largest, third-
fastest growing city in the United States. The city grew 68 percent 
between 1980 and 2007 and now almost entirely surrounds the Park with 
urban development, threatening areas that contain significant Spanish 
colonial resources historically associated with the Park. Based on the 
Park's General Management Plan and Land Protection Plan, which found 
that numerous areas containing significant Spanish colonial resources 
historically associated with the Park were outside the boundary, the 
Park acquired the additional lands that now need to be included in the 
boundary.
    This legislation enjoys the support of officials from Bexar County, 
Wilson County, the City of San Antonio, the City of Floresville, the 
San Antonio River Authority, the San Antonio Conservation Society, Los 
Compadres, and others. It would help guarantee the preservation, 
protection, restoration, and interpretation of the missions for current 
and future generations.
    The Department recommends that the bill be amended to address the 
bill's park boundary, land acquisition, and buffer zone provisions: As 
passed by the House, H.R. 885 prohibits acquisition by condemnation of 
any land or interests in land within the boundaries of the park. The 
NPS has consistently opposed changing a park's existing land 
acquisition authority when boundary adjustments are made. While 
condemnation is rarely used, it can be a critical tool during a 
friendly condemnation, where the value of the land is in dispute, or 
when title to the property is in doubt or cannot be cleared. If the 
intent of this legislation is to prohibit the acquisition by 
condemnation of the new 137 acres that would be included in the park 
boundary, we recommend amending the bill to eliminate the general 
prohibition on condemnation, and to provide specifically that 
acquisition of the 137 acres brought within the boundary by this 
legislation may not be accomplished through condemnation.
    The bill makes the establishment of the expanded boundary subject 
to the written consent of the owners of properties that would be 
included within the new boundary. This places landowners, rather than 
Congress or the Administration, in the position of determining the 
boundary of a federal park, which we believe is inappropriate. This 
provision has the potential to create legal and practical confusion 
over the boundary since it is possible that a landowner could give 
consent, then change his or her mind and withdraw consent or convey the 
property to another owner who withdraws consent. If the intent of this 
language is to ensure that only willing sellers convey lands to the 
NPS, we recommend amending the language to include such a provision, 
instead of investing members of the public with the ability to 
determine park boundaries.
    The bill also includes language that says that an activity outside 
the boundary shall not be precluded because it can be heard or seen 
inside the park boundary. The Department has concerns about this 
language. It is misleading, as it suggests that the NPS may have 
authority to preclude activities outside the boundaries, which it does 
not. Of even greater concern, however, is that the language could 
discourage park managers from addressing threats to park resources from 
external sources. Even though the NPS does not control what happens 
outside of its boundaries, park managers have a responsibility under 
the NPS Organic Act and other laws to work with owners of properties 
outside of park boundaries to resolve problems that could negatively 
impact the resources the NPS is responsible for protecting. Therefore, 
we recommend removing paragraph (4) on page 3 of the bill by striking 
lines 1 through 15.
    Mr. Chairman, thank you for the opportunity to present the views of 
the Administration.

                              on h.r. 1158

    Mr. Chairman, thank you for the opportunity to provide the 
Department of the Interior's views on H.R. 1158, a bill to direct the 
Secretary of the Interior to continue stocking fish in certain lakes in 
North Cascades National Park, Ross Lake National Recreation Area, and 
Lake Chelan National Recreation Area (hereafter referred to as ``North 
Cascades Complex'').
    The Department does not oppose H.R. 1158 if amended in accordance 
with this testimony.
    The National Park Service collectively manages North Cascades 
National Park, Ross Lake National Recreation Area, and Lake Chelan 
National Recreation Area as North Cascades National Park Service 
Complex. All of the 245 mountain lakes in the North Cascades Complex 
area were naturally fishless. Fish stocking in this area began in the 
late 1800s. During this period, approximately 91 lakes were stocked at 
one time or another and 154 lakes were never stocked. This fish 
stocking provided the opportunity to fish in these mountain lakes. The 
issue of continued fish stocking arose in 1968 when the proposal to 
create the park was introduced. Although the enabling legislation does 
reference the requirement for a Washington state fishing license, it is 
silent regarding fish stocking. Stocking continued after the park was 
established. However, concerns over the ecological impacts of fish 
stocking in naturally fish-free waters continued. Soon after the park 
complex was created, the National Park Service policy regarding fish 
stocking was revised to provide that fish stocking in naturally fish-
free waters should not occur. Fish stocking was phased out in many 
national parks across the country to restore natural conditions and to 
preserve native species. In 1988, Congress designated ninety-three 
percent of the North Cascades as the Stephen Mather Wilderness, and 90 
of the 91 lakes that had historically been stocked are within the 
wilderness area. At the time the wilderness was designated, Congress 
did not address the issue of stocking the lakes.
    The 2006 Management Policies of the National Park Service (NPS) 
allow for the management of fish populations when necessary to restore 
resources to their natural state or reestablish a native species that 
has been extirpated. Stocking of other plants or animals is also 
allowed under certain circumstances. Specifically, the policies provide 
that ``In some special situations, the Service may stock native or 
exotic animals for recreational harvesting purposes, but only when such 
stocking will not unacceptably impact park natural resources or 
processes and when:

  <bullet> the stocking is of fish into constructed large reservoirs or 
        other significantly altered large water bodies and the purpose 
        is to provide for recreational fishing; or
  <bullet> the intent for stocking is a treaty right or expressed in 
        statute, applicable law, or a House or Senate report 
        accompanying a statute. The Service will not stock waters that 
        are naturally barren of harvested aquatic species.''

    The NPS appreciates the collaborative partnership with the 
Washington Department of Fish and Wildlife (WDFW) at North Cascades 
Complex and throughout the State of Washington. Despite this strong 
working relationship, a number of challenges have historically arisen 
when trying to reconcile the missions and policies of the WDFW and NPS 
on this stocking program. However, multiple attempts have been made to 
negotiate a mutually acceptable outcome on this issue. For example, in 
1987 the Assistant Secretary of the Interior, Fish and Wildlife and 
Parks negotiated an agreement allowing fish stocking to continue in 
certain lakes while research into the ecological impacts of stocking 
was conducted. In a 1991 Consent Decree resolving litigation 
challenging the fish stocking program, NPS agreed to conduct research 
into the ecological impacts of fish stocking at North Cascades and a 
National Environmental Policy Act review of the stocking of naturally 
fish-free lakes.
    A decade of research, conducted in the North Cascades Complex 
through Oregon State University and the USGS Biological Resources 
Division, documented lakes where fish had been stocked in low numbers 
and could not reproduce. No statistically significant ecological 
effects to native aquatic species were detected. However, in self-
sustaining populations, non-native trout can have significant effects 
on native aquatic organisms such as amphibians and zooplankton.
    In 2002, the NPS in collaboration with WDFW began development of a 
comprehensive Mountain Lakes Fishery Management Plan/Environmental 
Impact Statement (Plan/EIS). The purpose of the planning effort was to 
apply the results of the research and resolve the longstanding conflict 
over fish stocking in the mountain lakes.
    On November 26, 2008, the NPS issued a Record of Decision for the 
final Plan/EIS and selected the preferred alternative, which would stop 
stocking and remove fish from lakes where significant impacts were 
occurring (49 lakes) but allow stocking of non-reproducing fish at low 
densities to continue in up to 42 lakes, subject to additional 
monitoring. The EIS found that such stocking would not unacceptably 
impact park natural resources or processes in those lakes.
    However, the Record of Decision (ROD) also notes that fish stocking 
in the Stephen T. Mather Wilderness does not meet the minimum 
requirements analysis conducted under section 4(c) of the Wilderness 
Act. In addition, the ROD recognizes that the NPS would need legal 
authority to implement the preferred alternative. The ROD further 
provides that if such legal authority was not provided to the NPS by 
July 1, 2009, the NPS, consistent with NPS policy, would discontinue 
the stocking program in its entirety and work to restore the natural 
ecology of all the mountain lakes. In the majority of lakes this would 
be accomplished through continued fishing without further stocking. 
Over time, natural mortality would remove the remainder. In lakes where 
naturally reproducing populations were found, the NPS would work to 
remove these fish. Realistically, at least ten lakes are so large that 
no known removal techniques will work and fish populations will remain 
for the foreseeable future.
    The NPS is interested in ensuring that any legislation regarding 
fish stocking is guided by science and an understanding of the impact 
that such policy decisions would have on park resources. We note that 
the bill directs the Secretary to continue monitoring the impacts of 
fish stocking in order to determine if further adjustments are needed 
to protect aquatic resources.
    Fish stocking has not occurred in any lakes within the North 
Cascades Complex since 2007. During that time, there have been no 
requests for additional stocking from either the public or from the 
WDFW, as they no longer consider fish stocking a priority.
    Since non-native fish removal efforts began in 2009, we have seen 
an almost immediate return of native amphibians, which is an indicator 
of a more resilient ecosystem. With our improved awareness of the 
negative resource impacts of climate change, we now understand the 
importance of eliminating environmental stressors, such as non-native 
fish species. Thus, we feel that NPS needs the management flexibility 
to respond to changing environmental conditions, including climate 
change.
    To ensure the NPS has the management flexibility to respond 
appropriately should monitoring and scientific research indicate 
negative impacts to resources from fish stocking, we strongly recommend 
one amendment. We ask that Section 3 (a) be amended to read as follows: 
``Subject to subsection (b), the Secretary may authorize the stocking 
of fish in lakes in the North Cascades National Park Service Complex.''
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
Subcommittee may have.

Statement of the Bureau of Land Management, Department of the Interior, 
                               on S. 974
    Thank you for inviting the Department of the Interior to testify on 
S. 974, the Las Vegas Valley Public Land and Tule Springs Fossil Beds 
National Monument Act. The Department generally supports S. 974 and 
would welcome the opportunity to work with the Sponsor and Committee on 
modifications to provisions of the bill.

Background
    The Las Vegas Valley is home to nearly 2 million people, the famous 
Las Vegas Strip, spectacular desert landscapes, and historic, cultural, 
and paleontological treasures. Balancing the protection of these 
important natural, cultural, and scientific resources with economic 
development and growth is a challenge embraced by Senator Reid and the 
Nevada delegation. Over the last 20 years, a number of laws have been 
enacted to help maintain that balance. Among these are: the Red Rock 
Canyon National Conservation Area Establishment Act (P.L. 101-621); the 
Southern Nevada Public Land Management Act (P.L. 105-263); and the 
Clark County Conservation of Public Land and Natural Resources Act 
(P.L. 107-282), several of which are the subject of today's hearing.

S. 974
            Tule Springs Fossil Beds National Monument (Section 2)
    S. 974 would designate a new unit of the National Park Service 
(NPS)--the Tule Springs Fossil Beds National Monument. This bill would 
transfer administrative jurisdiction of approximately 22,650 acres of 
public land from the Bureau of Land Management to the National Park 
Service. The bill would establish the Tule Springs Fossil Beds National 
Monument Advisory Commission to provide guidance for the management of 
the Monument.
    The Department supports the establishment of the Tule Springs 
Fossil Beds National Monument and the Advisory Council. The NPS does 
not currently have a park designated specifically to protect and 
interpret Pleistocene fossils and the creation of this site would 
comprise the most significant Pleistocene paleontological resources in 
the American southwest. However, since a special resource study has not 
been completed, there are many outstanding questions regarding the most 
efficient and effective means for managing this area.
    The NPS completed a Reconnaissance Report for the Upper Las Vegas 
Wash/Tule Springs area in June 2010. Preliminary findings from this 
report indicated that the resources in this area appeared to be 
nationally significant and suitable for inclusion in the national park 
system but further study would be needed to compare the resources of 
Tule Springs to other similar areas that represent nationally 
significant resources of the late Pleistocene epoch. Preliminary 
findings also indicated that the area is potentially feasible but that 
the initial determination would greatly benefit from a full study of 
alternatives that would more fully examine site issues such as 
vandalism, unauthorized removal of fossils, and ORV use that may affect 
future options for management and protection of the area. Additionally, 
the report recommends an analysis of operational costs, particularly 
those associated with an active paleontology management program 
involving the preparation and curation of fossils, such as collection 
storage equipment, materials and supplies, dedicated curation space, 
and staff time to prepare fossils.
    Section 2(d)(5)(B)(IV) directs the NPS to include a travel 
management plan for the national monument that may include existing 
public transit. Although it is unclear what is being proposed by this 
language, this proposed monument is on the border of the cities of Las 
Vegas and North Las Vegas and transit options for existing residents 
will be taken in account during the planning process.
    Finally, section 2(e) provides for a renewable energy transmission 
corridor to be managed by the Bureau of Land Management (BLM) on the 
north side of the new National Monument. The BLM recommends that this 
narrow strip of land be withdrawn from the mining and mineral leasing 
laws, and that access to these lands be limited to administrative uses 
in order to avoid incompatible activities.

Red Rock Canyon National Conservation Area Additions (Section 3)
    First established by an Act of Congress in 1990, the 196,000-acre 
Red Rock Canyon National Conservation Area (NCA) is located 17 miles 
west of the Las Vegas Strip. The NCA welcomes over one million visitors 
annually who are looking to explore the natural wonders beyond the 
traditional Las Vegas experience. The Red Rock Canyon NCA offers 
opportunities for hiking, rock climbing, horseback riding, biking, and 
photography. A 13-mile scenic drive provides an up close look at this 
spectacular desert landscape.
    The BLM supports the provisions of S. 974 (Section 3) which propose 
to expand the boundaries of the NCA by approximately 1,540 acres. We 
would like to work with the Sponsor and the Committee on some minor 
boundary modifications to improve manageability of the NCA addition.

Conveyances to the Cities of North Las Vegas & Las Vegas (Sections 4 & 
        5)
    S. 974 (Sections 4 & 5) provides for the conveyance of public lands 
to the city of North Las Vegas (645 acres) and the city of Las Vegas 
(660 acres) respectively at no cost. The lands proposed for conveyance 
are within the Southern Nevada Public Land Management Act (SNPLMA) 
(P.L. 105-263) boundary established by Acts of Congress. Under these 
provisions of the bill, the two local governments would then be able to 
sell, lease, or otherwise convey these lands at fair market value to 
third parties. All revenues derived from these conveyances would be 
distributed consistent with direction under SNPLMA as if the 
conveyances had been undertaken by the BLM under its existing 
authorities. Additionally, the bill would allow these governments to 
retain some of the lands for uses consistent with those allowed under 
the Recreation and Public Purposes (R&PP) Act, such as for schools, 
parks and fire stations. All costs related to the initial transfer of 
land to the city governments or from them to third parties would be the 
responsibility of the cities of North Las Vegas and Las Vegas.
    SNPLMA identified these lands for disposal, and specified the use 
of the proceeds from the sale of these lands. By transferring the lands 
to the cities of North Las Vegas and Las Vegas, the bill will allow 
those communities to determine the development of the lands within 
their boundaries, while requiring fair market value for subsequent 
conveyances. The BLM does not oppose these transfers, but recommends 
amending this section to eliminate the leasing option. Such leases are 
difficult to oversee and manage; by only allowing reconveyance by the 
cities through sale or R&PP conveyance, we can better protect the 
integrity of the process.

Expansion of Police Shooting Range (Section 6)
    The Clark County Conservation of Public Land and Natural Resources 
Act of 2002 (P.L. 107-282) transferred 176 acres of BLM-managed public 
land to the Las Vegas Metropolitan Police Department for a shooting 
range. S. 974 (Section 6) would transfer an additional 80 acres of BLM-
managed lands to the Las Vegas Police Department.
    The BLM supports this conveyance, which will allow the Police 
Department to establish long-range shooting and training facilities. We 
recommend that the legislation specify that the transfer will be 
subject to valid existing rights.

Spring Mountain National Recreation Area Withdrawal (Section 7)
    The Department of the Interior defers to the Department of 
Agriculture on the Spring Mountain National Recreation Area provisions 
of S. 974 (Section 7), which affect lands administered by the U.S. 
Forest Service.

SNPLMA Boundary Modification (Section 8)
    The SNPLMA, as amended, was designed to provide for the responsible 
disposal of BLM-managed public land within the Las Vegas Valley. Under 
the Act, funds generated from the sale of these lands are deposited 
into a special account to be expended consistent with the provisions of 
the Act. Funds from SNPLMA lands sales have been used for a variety of 
purposes as stipulated by the Act, including: acquisition of high value 
environmentally-sensitive lands; establishment of parks, trails, and 
natural areas; creation of new conservation initiatives; and a number 
of other projects. To date, nearly 45,000 acres have been conveyed out 
of Federal ownership under the provisions of SNPLMA, and approximately 
39,500 acres remain to be considered for disposal under SNPLMA.
    S. 974 (Section 8) proposes to modify the SNPLMA disposal boundary 
by removing approximately 9,950 acres of public land currently inside 
the boundary and by adding approximately 6,795 acres of public land 
currently outside the boundary, resulting in a net reduction of lands 
within the SNPLMA boundary of approximately 3,158 acres. Total public 
land acres within the SNPLMA boundary would be 36,890 acres if S. 974 
is enacted. The acres proposed for removal are lands that S. 974 would 
transfer (Section 2) to the National Park Service for inclusion in the 
Tule Springs Fossil Beds National Monument. The acres proposed for 
addition to the boundary are primarily on the northeast and northwest 
sides of the Las Vegas Valley, and the most significant current uses 
are for the mining of aggregate materials for construction. The BLM 
supports section 8 of S.974.

Conveyances to Nevada Colleges & Universities (Section 9)
    The Nevada System of Higher Education (NSHE), a subdivision of the 
State of Nevada, provides for the education for over 125,000 students 
throughout the state at eight different colleges and universities. The 
NSHE is seeking to expand the capacity of three of those schools in 
southern Nevada in order to improve higher education opportunities.
    S. 974 (Section 9) provides for the conveyance of three parcels of 
public land for three of these colleges and universities in southern 
Nevada at no cost and for uses consistent with those allowed under the 
Recreation & Public Purposes Act (R&PP). All costs associated with the 
transfers would be paid by the NSHE. The three conveyances include 
approximately 285 acres for the Great Basin College in Pahrump, Nevada, 
41 acres for the College of Southern Nevada, and 1,886 acres for the 
University of Nevada-Las Vegas (UNLV).
    The R&PP Act authorizes the Secretary of the Interior to lease or 
convey public lands at nominal costs for recreational and public 
purposes, including for educational facilities. The BLM generally 
supports appropriate legislative conveyances at no cost if the lands 
are to be used for purposes consistent with the R&PP Act, and if the 
conveyances have a reversionary clause to enforce this requirement.
    The BLM supports these conveyances for higher education in S. 974 
and would like to work with the Sponsor and the Committee on minor and 
technical modifications to these provisions. Specifically, we recommend 
the addition of a clause allowing the Secretary to add reasonable terms 
and conditions to the transfer. For example, the lands proposed for 
transfer for the Great Basin College are adjacent to the BLM's Pahrump 
Fire Station. In the conveyance documents we may want to include 
building height restrictions in areas closest to the helipad to ensure 
safe aerial fire activities. The addition of a ``terms and conditions'' 
clause would allow the agency to address this and similar situations.

Ivanpah Airport Conveyance (Section 10)
    The Ivanpah Valley Airport Public Lands Transfer Act (P.L. 106-362) 
provided for the sale of approximately 5,750 acres of public land to 
Clark County for the construction of a future airport. The completion 
of the sale of the land and construction of the airport is contingent 
on a number of factors, including approval by the Federal Aviation 
Administration (FAA). S. 974 (Section 10) provides for the conveyance, 
at no cost, of approximately 2,350 acres to the east of the proposed 
airport for flood mitigation projects related to the airport. The land 
would not be conveyed unless and until the FAA approves the airport 
project.
    S. 974 also reserves to the Federal government the mineral estate 
(potentially valuable sand and gravel) of the 2,350 acres to be 
conveyed for the airport, except that the County may construct flood 
control facilities and remove aggregate following flood events under 
the bill. The BLM supports these provisions. However, provisions 
providing that the County pay all costs associated with this transfer 
and a terms and conditions clause (similar to those in Section 9 of S. 
974) should be added to this section as well.

Sunrise Mountain Instant Study Area Release (Section 11)
    The Sunrise Mountain Instant Study Area (ISA) lies to the east of 
Las Vegas. The 9,700-acre area has been managed by the BLM to protect 
these lands for possible future wilderness designation as required by 
law. Over the last decades, and most recently in 2009, the Congress has 
legislatively released portions of the Sunrise Mountain ISA from those 
protections, but the BLM does not have the independent authority to 
release the remaining acres.
    The BLM supports the provisions of S. 974 (Section 11) which would 
release the entire Sunrise Mountain ISA from interim protected status, 
thereby allowing the consideration of a full range of multiple uses. 
The Sunrise Mountain ISA does not possess significant wilderness 
characteristics. Furthermore, it is the assessment of the BLM that this 
area is appropriate for the expansion of high-voltage transmission 
lines, including those for renewable energy transmission, as well as a 
possible interstate natural gas and water pipelines.

Nellis Dunes Off-Highway Vehicle (OHV) Recreation Area (Section 12)
    The Nellis Dunes OHV area is a popular recreation area with over 
100,000 visits annually. S. 974 (Section 12) would promote the further 
development of this area as a destination OHV site. OHV use is a 
popular and growing activity in Nevada and across the West. The BLM 
welcomes opportunities to support this type of recreation in 
appropriate locations.
    Studies conducted by the UNLV at the request of the BLM have 
indicated that there are high levels of naturally occurring arsenic in 
the Nellis Dunes area. While the area is presently open to OHV use, the 
BLM makes visitors aware of these potential health concerns. Currently, 
the UNLV is conducting a health risk assessment of the area in 
accordance with the Environmental Protection Agency's human health risk 
assessment processes and protocols. The BLM expects to receive a 
completed study by late 2014, and believes that it is premature to make 
permanent decisions about the Nellis Dunes area prior to receiving the 
final report. Therefore, the BLM recommends deferring sections 12(a), 
(b), and (c) until the final report is available.
    However, if Congress elects to move forward with these provisions 
of S. 974, the BLM recommends a number of substantive modifications. 
The bill (Section 12) allocates uses in Nellis Dunes in three parts. 
First, it establishes a BLM-managed Nellis Dunes Off-Highway Vehicle 
Recreation Area on approximately 10,000 acres of public land. Second, 
it transfers approximately 960 acres of public land to Clark County for 
a more intensively managed OHV Recreation Park. Third, it establishes 
an ``Economic Support Area'' adjacent to the other two areas.
    The BLM could support the establishment of the Nellis Dunes OHV 
Recreation Area if our safety concerns are appropriately addressed. 
Likewise, we could support the transfer of land to Clark County for an 
OHV Recreation Park if the transfer and management of those lands is 
done consistent with the R&PP Act, and if the transfer addressed issues 
outlined in our discussion of Section 9 regarding similar no cost 
conveyances. Finally, the BLM does not object to the establishment of 
an Economic Support Area; however, we strongly urge that these 290 
acres be sold to the County at fair market value, rather than setting 
up a system of revenue sharing between the County and Federal 
government for private enterprises on these lands. The BLM does not 
typically participate in commercial activities such as these and we do 
not believe that it would be appropriate in this case.
    The BLM would like to work with the Sponsor and Committee on 
perfecting these sections of S. 974, provided the human health risk 
assessment determines that establishing an OHV park in this area is 
appropriate.

    Senator Udall. Thank you, Dr. Toothman for that concise and 
also substantive summary.
    Let me recognize myself for 5 minutes for a first round of 
questions.
    It wouldn't surprise you, I want to turn to 1071, my bill, 
which would authorize the Park Service to make improvements to 
support facilities at certain National Historic Sites.
    As you've noted in your testimony, the specific situation 
in Colorado that the bill addresses is the proposed shared 
visitor's center and park administrative facility that would be 
located outside the boundary of the Sand Creek Massacre 
National Historic Site. That is located in Kiowa County.
    I'd like clarification on one point in the Park Service's 
testimony. I introduced this bill to help the Park Service 
locate its park offices and visitor center in a shared use 
building outside the park boundary. With the remote location of 
the Sand Creek site it's my understanding that the Park Service 
wanted to be able to enter into a shared use agreement with 
Kiowa County.
    Is there any concern that the bill does not give the Park 
Service the authority that it needs to accomplish this?
    Ms. Toothman. The Park Service does believe it gives us the 
authority to accomplish it. We strongly support being given 
that authority. Our concern is the precedent being set by a 
bill that's somewhat ambiguous in terms of its application to 
more than one park. We're concerned about that precedent.
    But we do support giving Sand Creek Massacre National 
Historic Site that authority.
    Senator Udall. We want to work with you to clarify and 
simplify the approach so that it doesn't set a precedent, but 
it also doesn't potentially run afoul of rules in the House, in 
particular, as in the House of Representatives.
    Ms. Toothman. We're happy to continue working with you 
because we do believe it's important.
    Senator Udall. This is a very important site. We want to 
take the steps necessary to encourage more people to be able to 
visit it, learn from it. It was a tragic event, but it's one 
from which we can learn a great deal.
    In the process help Kiowa County which is a wonderful part 
of the Eastern Plains of Colorado.
    Ms. Toothman. I look forward to seeing it someday.
    Senator Udall. Will you come out and visit?
    Ms. Toothman. I would love to.
    Senator Udall. Alright.
    We will invite Senator Campbell who played a key role in 
the designation of this site as well.
    Let me turn to S. 398, the National Women's History Museum 
Commission. The bill would establish a commission to study the 
feasibility of a National Women's History Museum right here. I 
understand from your testimony that your concern with the bill 
is that it authorizes the commission to evaluate a potential 
site for the museum near the Washington Monument which is an 
area where new memorial museum construction is prohibited by 
the Commemorative Works Act.
    If the bill was amended to remove that particular site 
would that address the Park Service's concerns?
    Ms. Toothman. Yes, it would.
    Senator Udall. It would.
    Alright, let me move next to S. 869, the Alabama Black Belt 
National Heritage Area. Your testimony recommends that the 
committee defer action on the bill until the Park Service 
completes a final review of the feasibility study which 
apparently needs to be revised.
    Can you give us an estimate of when the revised study will 
be completed and will you please inform the committee when the 
Park Service has finished its review including your 
recommendations of whether the area is appropriate for a 
National Heritage Area designation?
    Ms. Toothman. Yes. We do believe that the area contains 
some very significant, nationally significant sites. We are 
working very closely with the center right now to review their 
present submission and identify some of the issues that remain 
in terms of their current draft. We anticipate getting them the 
actual written comments after we've had a pretty thorough 
discussion by mid to late August.
    As soon as they've made their revisions we're committing to 
a very quick turnaround so that we can move this forward.
    Senator Udall. Thank you for that update. I look forward to 
the further update.
    Ms. Toothman. OK.
    Senator Udall. Let me turn next to Desert Storm/Desert 
Shield memorial, S. 995. Your testimony recommends that the 
bill language should be clarified regarding the disposition of 
funds if legislative authority expires before the memorial is 
built.
    What does the Park Service recommend should happen to any 
funds that have been raised in support of the memorial if the 
legislative authority expires?
    Ms. Toothman. Our recommendation would be to follow 
previous precedent and that would be to deposit the money 
that's not used in an account with the National Park Foundation 
to benefit the protection and preservation of all of the 
monuments on the Mall.
    Senator Udall. OK.
    Then the final question before I turn to my friend and 
Ranking Member. This is a general question about memorials and 
other commemorative works relating to intellectual property 
rights.
    It's my understanding that on at least one occasion the 
artist designing a memorial or the group which was authorized 
to construct a memorial has asserted that it owns the copyright 
to the memorial design. That the United States can't use images 
of the memorial without its permission and presumably some kind 
of compensation.
    When commemorative works are constructed and transferred to 
the National Park Service does the Park Service have the right 
to produce images of the memorial for its own use and to allow 
park concessioners and operating associations to sell 
authorized merchandise with images of the memorial?
    If I could I'm going to throw two more questions at you.
    Ms. Toothman. OK.
    Senator Udall. Related to this.
    Then are all the memorials that are currently on the 
National Mall considered to be in the public domain?
    Then a third question.
    Should we consider including provisions in authorizing 
legislation that would require the intellectual property for 
the memorial to be held by the Federal Government or otherwise 
be in the public domain?
    Ms. Toothman. It's my understanding that, before the 
Commemorative Works Act was passed, memorials that were 
transferred to the National Park Service did come with their 
intellectual property rights. So that would include memorials 
such as the Lincoln and the Jefferson memorials and the 
Washington Monument.
    Under the Commemorative Works Act as presently written, the 
transfer to the National Park Service is of the physical 
property but not the intellectual property rights. So there are 
several memorials that have been transferred under the CWA that 
did not transfer the intellectual property rights, the Martin 
Luther King Memorial, for example, did not.
    So we would strongly support any effort by the Congress to 
clarify that situation.
    Senator Udall. Thank you for that.
    Let me turn to Senator Portman for his questions.
    Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    Dr. Toothman, I have a number of questions for you about 
some of the bills you just talked about.
    Starting with the modifying boundaries or expanding 
boundaries. We had a good discussion here in this committee, 
full committee, last week regarding some of the deferred 
maintenance issues at the parks. The question is to whether we 
should be expanding boundaries at a time when we're having a 
difficult time finding the funding to maintain the parks for 
proper stewardship of the parks is been a focus of Senator 
Udall and myself.
    We have a few bills here that expand boundaries or modify 
them. There's the San Antonio Mission National Historic Park 
that's H.R. 885 then S. 781 which is Yosemite, S. 782, which is 
Gettysburg. These all expand these park units.
    I wonder if you could answer these questions.
    How much of the land involved in these proposed expansions 
are currently in private ownership versus public ownership?
    Ms. Toothman. I don't have the specific acreage in that 
case. I can say that with Gettysburg those properties are in 
the process of being acquired by the Gettysburg Foundation from 
a willing seller. In the case of the train station from the 
community with their full support.
    In the case of Yosemite, which again, I would have to get 
back to you on the specific acreage.
    Ms. Toothman. But the land that is being considered is 
largely in the hands of non-profits, some of which would be 
donated, most of which would have to be acquired.
    Let me ask you again on San Antonio Mission, we're already 
have the authority under the San Antonio legislation to work 
collaboratively to manage properties outside of our boundary. 
At least that's my understanding of the legislation, so that by 
expanding the boundaries we're clarifying that but we're not 
taking on additional costs beyond what we're already expending 
there.
    Excuse me, what was the fourth one?
    Senator Portman. That was it, just San Antonio, Yosemite 
and Gettysburg.
    Mr. Toothman. OK.
    Senator Portman. So you're saying with regard to San 
Antonio there's no additional cost that's incurred. With regard 
to Gettysburg and Yosemite, will expanding the boundaries 
require additional costs? Will it require additional personnel?
    Ms. Toothman. I've been advised for Gettysburg that they'll 
be no acquisition costs because they'll be donated by the 
Foundation and that there will be minimal operational costs in 
the case of the train station. The community is committed to 
continuing to run that operation. So that additional 
operational costs will be minimal.
    The addition to, I think it's Little Round Top, that's 
already immediately adjacent to our boundaries. So the 
additional operational costs would be pretty minimal.
    Senator Portman. Any sense of how many additional personnel 
will be required at Yosemite and Gettysburg?
    Ms. Toothman. My recollection is in terms of the briefing 
that I had on it is that because it's again, immediately 
adjacent to the park and primarily back country area that the 
costs would be minimal.
    Senator Portman. OK. We talked about the maintenance 
backlog earlier. Any sense of whether this encourages further 
backlog in terms of deferred maintenance?
    Ms. Toothman. In the case of the Gettsburg train station 
you are acquiring a building but it is in excellent condition. 
It was recently rehabilitated. So there wouldn't be, other than 
normal maintenance costs.
    In the case of Yosemite, I'm not aware that there's any 
structures within those boundaries. But we can certainly check 
that.
    Senator Portman. OK.
    Ms. Toothman. In the case of San Antonio we're already 
involved in working with the city and other owners--and again I 
would have to get back to you in terms of what structures would 
be within that boundary.
    Senator Portman. On 647, do you have any sense there of 
what the deferred maintenance cost increases might be?
    Ms. Toothman. I'm sorry, which one is 647? I don't have 
that.
    Oh, I have 674?
    Senator Portman. I'm sorry, I mean 674.
    Ms. Toothman. For the Rota National Park Study?
    Senator Portman. Yes.
    Ms. Toothman. There's an estimate of cost in my briefing of 
just the special resource study. Until we know what resources 
we're looking at it would be difficult to estimate.
    We do already have a presence in CNMI at the American 
memorial and a little further away at Guam, so that there would 
be, very likely, a sharing of administrative costs.
    Senator Portman. OK. That would be interested for the 
Committee to know just so we have a sense of what maintenance 
costs there might be.
    Senator Portman. On the amending the National Wild and 
Scenic River System legislation there's 2, I guess, S. 1252 and 
S. 1253. How many of those additions go through public land? Do 
you have the answer to that?
    How much of the addition flows through private land?
    Ms. Toothman. I don't have that. I will have to get that 
back to you.
    Ms. Toothman. I do know that the study has gone through 
extensive public review and is supported by the communities 
along the course of those rivers.
    Senator Portman. Do you have any sense, if it's on private 
land, whether it will affect any of the proposed uses of the 
river or the surrounding area?
    Ms. Toothman. Those would be outlined in any authorization, 
but no, not normally. It wouldn't affect private uses of their 
lands.
    Senator Portman. You wouldn't mind getting back to us on 
that just so we know the answer to that?
    Ms. Toothman. Yes.
    Senator Portman. These were not included, these 2 areas, in 
the original Wild and Scenic Rivers designation. If we could 
also--if you could also let us know in the process of 
researching that why those weren't included in the original 
designation.
    Ms. Toothman. OK.
    Senator Portman. On the protecting and authorizing the 
acquisition of Revolutionary War and War of 1812 sites, it 
would be H.R. 1033 and S. 916.
    Ms. Toothman. Yes.
    Senator Portman. Do you have any sense of how that land is 
being utilized now? How that acquisition by the Park Service 
might change the use of that land?
    Ms. Toothman. At this point we would be conducting and we 
are in the point of completing, I believe, for the 
Revolutionary War sites, evaluations similar to what we did at 
your request, Congress' request, for the Civil War sites. So I 
would have to go back to the battlefield group and ask where 
they are on those studies and get back to you.
    Senator Portman. OK. That would be very helpful for the 
committee as well.
    Senator Portman. Go back to the chairman for a couple other 
questions. But I'm over my 5 minutes.
    Senator Udall. Thank you, Senator Portman.
    I have a couple of questions. Then a comment and I'll turn 
back to Senator Portman for the remainder of his questions.
    Before I do begin I wanted to, for the record, include 
statements from Senator Reid of Nevada, Senator Gillibrand, 
Senator Warren, Senator Kane and Senator Sanders. Without 
objection we'll include those in the record.
    Senator Udall. Dr. Toothman, I assume Senator Portman will 
want to discuss this as well, his bill, S. 1044. Has the Park 
Service checked with the Justice Department and if so, were 
there any Constitutional issues or concerns with legislation to 
authorize the specific prayer be included at a national 
memorial?
    Ms. Toothman. We don't have a formal opinion from them. But 
their basic consensus is that any time you raise an issue of 
separation of church and State that you always have the 
possibility of a law suit.
    Senator Udall. Again, I ask that question with no 
particular point of view and implicitly. I just think it's 
important. I know Senator Portman will explore this further.
    Your testimony noted that the National Capitol Memorial 
Advisory Commission had already considered this proposal. Then 
they decided not to add the plaque. Do you know why the 
Commission declined to add the plaque to the memorial?
    Ms. Toothman. I don't have the minutes of the meeting. So 
we would have to get back to you on that.
    Ms. Toothman. But I believe it has to do with the CWA's 
statement that the memorials within the reserve are considered 
completed works of art so that they regularly will take a 
position against adding anything to it.
    With Congressional direction we'll continue to work with--
under the CWA to find an appropriate place.
    Senator Udall. Thank you for that insight. Again, I know I 
look forward to Senator Portman's further questions that he has 
and any other commentary on this because I know it's important 
to Senator Portman. I felt he made a very strong statement 
about the power of what one of our venerated and greatest 
Presidents did at a very important time in our history.
    Let me move to the North Cascades, H.R. 1158. It would 
require the Park Service to resume stocking fish in certain 
lakes in the North Cascades National Park.
    Now your testimony asked for an amendment to allow rather 
than require----
    Ms. Toothman. Yes.
    Senator Udall. The Secretary of the Interior to stock fish 
in the North Cascades lakes. Why is that change necessary? 
Could you explain that to us?
    Ms. Toothman. We believe the management decision involved 
there should be based on the best and most current science. 
This has been a long standing issue. There's been several 
research projects done where we've seen some of the lakes 
thathave not been stocked recently and are beginning to show 
significant recovery of other species.
    So we think it would be best to allow the best science to 
govern that decision.
    Senator Udall. Are those species that are recovering 
indigenous species or would these studies explore the nature of 
those species that are being recovered and are expanding?
    Ms. Toothman. My understanding is that the species that are 
recovering are indigenous species. But I would be happy to get 
back to you with more specific information.
    Senator Udall. OK.
    Senator Udall. Before I turn back to Senator Portman I did 
want to comment on the question that he was asking you with 
some regulatory and consistency which is one of the maintenance 
costs of additional land additions.
    Ms. Toothman. Right.
    Senator Udall. I think that those are very important 
questions to ask in a time of constrained budgets. I would 
imagine that the Park Service has a set of formulas at hand 
when land exchanges are considered or suggested to understand 
the long term caring costs of those lands. Of course if you buy 
lands or transfer lands that have infrastructure, roads, 
buildings, water treatment systems, those sorts of things, you 
certainly are going to have maintenance obligations.
    If you buy open space, pristine lands, lands that aren't 
developed, my gut tells me they would be less expensive to 
maintain. But my gut is one thing, the numbers are another 
thing. I think, as the committee moves forward on this very 
important discussion of LWCF and the centennial of the Park 
Service and our National Parks on which Senator Portman, by the 
way, served on that commission. He's very well informed and 
very passionate about the National Parks.
    It would be really important to have those tools at hand so 
we can make informed decisions. We all want to preserve and 
protect our parks wherever they are and whatever units they're 
carried in. So again, I appreciate Senator Portman's interest 
in this because we want to see the parks thrive for many, many 
decades, if not centuries to come. We have some important 
decisions to make right now about the future of the parks.
    Again, thank you for your attendance today.
    Let me recognize the Ranking Member, Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    Yes, I think as the centennial approaches we're looking for 
ways to ensure that the backlog can be improved, hopefully 
cleared at a lot of these great facilities. That we can provide 
some more resources particularly through this innovative 
public/private partnerships and, you know, following on some of 
the work of the Centennial Challenge and the Centennial match 
ideas. This again was debated here in this committee just last 
week and we had a good conversation.
    On the fish stocking, I had some questions about that too. 
Most of them have been answered by my friend, Senator Udall. 
But my sense is that as you've written the bill you're not 
mandating that the Park Service stock the fish. You are making 
it discretionary.
    Ms. Toothman. That would be our recommendation, yes.
    Senator Portman. OK.
    Is that adequate to override the park management laws that 
might otherwise prohibit, you know, stocking with fish that 
would be taken into some of these high mountain lakes?
    Ms. Toothman. We're supporting the bill with the amendment 
that we're recommending. So, yes.
    Senator Portman. I know this is a result of a lot of years 
of study saying that the low population density of these fish 
in carefully selected lakes would not lead to impairment of the 
park resources. Does that mean that there is just no ecological 
impact at all that's negative?
    Ms. Toothman. I'm not in a position to say there's no 
ecological impacts. But this has been reviewed by my 
counterparts in natural resources. I'm a historian. They're the 
biologists.
    As I said, we support the bill as written with the 
amendment that would give us the discretion to apply the best 
science and to operate within our management policies.
    So I think having been proximate to the North Cascades 
through many years of residence in Seattle, it is one where we 
have built some--a body of knowledge that would help us make 
good decisions that wouldn't impair the resource.
    Senator Portman. You have to be careful because you're 
talking to a Golden Trout fly fisherman to my right which is 
only found in high mountain lakes as I understand. Native that 
is, Golden Trout.
    On S. 1044 you said in your testimony the National Park 
Service supports continued application of the Commemorative 
Works Act which regard to the World War II memorial. Let me ask 
you this. I'm sure you've read it. Section III of the bill, as 
you know, intends to address that by subjecting design and 
placement of the proposed plaque to the Congressional Works Act 
process. Is that your understanding of the legislation?
    Ms. Toothman. Yes.
    Senator Portman. That again is something we've worked on 
for a couple years with the Park Service to ensure that it does 
go through the proper process. We appreciate your clarification 
of that position. In terms of a religious significance to the 
President's statement that day, certainly there is, as there 
was in S. 57, which just passed out of the committee by 
unanimous consent. That's the Distinguished Flying Cross 
memorial, Senator Boxer's bill which has religious 
connotations.
    If you've been to the Mall in the vicinity of what we're 
talking about and been to the Jefferson Memorial you've 
probably seen some other prayers.
    Ms. Toothman. Yes.
    Senator Portman. Of religious significance or for that 
matter walking further down to the Lincoln Memorial and seeing 
his references. So it's certainly not something that would be 
unusually there for the Mall or other commemorations.
    So I do appreciate the fact that Secretary Jewell has, you 
know, spoken positively about this. You have spoken positively 
about it today. I do think it's something that would add, in my 
view, a little more context to that beautiful memorial. We do 
want to work, of course through the proper commemorative works 
process because that's valuable real estate along that Mall.
    I know that those works of art, which is what they are, as 
you said, have to be maintained and preserved. So I appreciate 
you getting back to us with some of the questions we asked 
today. Again, we just want to be in a position to understand 
better what the implications are, clearly, of the additions to 
any Park Service unit or any change in the boundaries.
    We appreciate your service, both of you and thank you for 
being here today.
    Ms. Toothman. Thank you.
    Senator Udall. Thank you, Senator Portman.
    Before we conclude I want to thank Dr. Toothman for your 
testimony. I think this may have been a record for the number 
of bills----
    Ms. Toothman. That is my understanding.
    Senator Udall. a witness has had to testify on.
    Ms. Spisak, we apologize for not drawing on your great 
wisdom and knowledge. But we will try and do better next time 
you're here.
    As I bring the hearing to a close I want to let everyone 
know that some members of the committee may submit additional 
questions in writing. If so, we may ask you to submit answers 
for the record.
    We'll keep the hearing record open for 2 weeks to receive 
any additional comments.
    Senator Udall. The subcommittee is adjourned.


                                APPENDIX

    Additional material submitted for the record
                              ----------                              

         Department of the Interior, National Park Service,
                                Washington, DC, September 16, 2013.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman:
    At the July 31,2013, hearing on National Park Service-related 
legislation, during which Dr. Stephanie Toothman provided testimony for 
the Department of the Interior, several requests were made for 
additional information. This letter provides that requested 
information.
    Senator Portman asked how much of the Missisquoi River and the 
Trout River proposed for Wild and Scenic River designation run through 
public lands and how much through private lands, and whether the 
designation will affect the private use ofland. The Missisquoi River 
and the Trout River flow through mostly private lands. Since there are 
no plans for federal land acquisition and the Wild and Scenic River 
designation does not confer any authority for land-use control to the 
National Park Service, private landowners and the use of private lands 
should not be impacted. Private lands will continue to be governed by 
existing local and state authorities, as they are without the 
designation.
    Senator Portman also asked how much ofthe Farmington River and the 
Salmon Brook proposed for Wild and Scenic River designation run through 
public lands and how much through private lands, whether the 
designation will affect the private use of the land, and why these 
additional miles were not included in the original designation. Similar 
to the Missisquoi and Trout Rivers, the Farmington River and the Salmon 
Brook flow through mostly private lands. Since there are no plans for 
federal land acquisition and the Wild and Scenic River designation does 
not confer any authority for land-use control to the National Park 
Service, private landowners and the use of private lands should not be 
impacted. Private lands will continue to be governed by existing local 
and state authorities, as they are without the designation. Regarding 
the question about the original designation, 14 miles of the Upper 
Farmington River were designated in 1994 based on the findings of a 
congressionally authorized study (P.L. 99-590) of the segment ending at 
the New Hartford-Canton town line. A second congressionally authorized 
study (P.L. 109-370) assessed the remainder of the Farmington River and 
Salmon Brook. S. 1253 is based on the findings of this subsequent 
study.
    Senator Portman asked how battlefields and associated sites of the 
Revolutionary War and the War of 1812 are being used now and how that 
would change if any of the lands were acquired under the American 
Battlefield Protection Program. At this time, it is unknown which 
properties would be acquired; therefore, we cannot say how the land is 
currently being used nor how it would change after being acquired. 
However, any lands that would be acquired are those lands that have 
been identified for protection under the American Battlefield 
Protection Program and must have retained its historic character and 
integrity. The purpose of a Battlefield Protection grant is to preserve 
the historic landscape. This is done by purchasing the land in fee 
simple or purchasing the development rights and placing a protective 
easement on the property. Once the property or interest is purchased, 
the land use is frozen to the current use at the time of purchase. The 
property may still be in private ownership, but if it is a farm, it 
would remain a farm; and if it is open space, it would remain open 
space. Land purchased in fee simple may be restored to a more historic 
appearance.
    Senator Portman asked how much of the land involved in three park 
boundary expansion bills is private, and how much is public. All of the 
land proposed to be included in the boundary of San Antonio Missions 
National Historical Park under H.R. 885 is publicly owned, either by 
the National Park Service or by local governmental entities. All of the 
land proposed to be included in the boundary of Yosemite National Park 
under S. 781 is in private ownership, with 793 of the acres owned by 
the Pacific Forest Trust and 782 acres owned by West Yosemite 
Associates to be transferred through fee simple acquisition. Regarding 
the land proposed to be included in the boundary of Gettysburg National 
Military Park under S. 782, the 45 acres at the base of Big Roundtop 
are privately owned (by the Gettysburg Foundation), and the Gettysburg 
Train Station is publicly owned (by the Borough of Gettysburg) but is 
expected to be purchased by the Gettysburg Foundation in the near 
future. The Gettysburg Foundation plans to donate both properties to 
the National Park Service if S. 782 is enacted.
    Senator Portman also asked if the three park expansion bills will 
add to the maintenance backlog. They will not add to the maintenance 
backlog. The San Antonio Missions bill will not result in additional 
lands being owned or managed by the National Park Service; therefore, 
there will be no new maintenance costs associated with the boundary 
adjustment. The land that would be added to Yosemite National Park is 
undeveloped and expected to remain undeveloped. Of the land that would 
be added to Gettysburg National Military Park, the 45-acre tract at the 
base of Big Roundtop would remain undeveloped and the historic 
Gettysburg Train Station is in excellent condition and so will only 
require normal maintenance.
    You asked why the National Capitol Memorial Advisory Commission 
(NCMAC) declined to endorse adding President Franklin D. Roosevelt's D-
Day Prayer to the World War II Memorial. During the NCMAC meeting on 
September 14, 2011, the Commission members voiced a concern for the 
proliferation of plaques at the memorial and stated that, as designed, 
the memorial accomplishes very w ll its mandate to pay tribute to the 
Armed Forces' service and sacrifice. At that meeting, the Commission 
voted unanimously that the World War II Memorial is a completed work of 
civic art and that no additional elements should be added into the 
design. You also asked if the species recovering in the lakes that were 
previously stocked with fish in the North Cascades National Park 
Complex are indigenous. Yes, the species recovering are indigenous. 
Since nonnative fish removal efforts began in 2009, we have seen a 
return of native amphibians in those lakes.
    We appreciate having the opportunity to respond on these matters.
            Sincerely,
                                        Jonathan B. Jarvis,
                                                          Director.
                                 ______
                                 
     Statement of Jeremy Fancher, International Mountain Bicycling 
                         Association, on S. 364

    The International Mountain Bicycling Association (IMBA) is 
submitting additional testimony to express our support for the proposed 
Rocky Mountain Front Heritage Act (S.364). This proposal permanently 
protects 275,000 acres through Wilderness and a Conservation Management 
Area that provides continued access to historically important bicycle 
trails in the Lewis and Clark National Forest. The proposed bill also 
authorizes the agency to conduct a study to improve non-motorized 
recreation trail opportunities including mountain biking on lands 
within the Lewis and Clark National Forest. In contrast to S.37 Forest 
Jobs and Recreation Act, this bill was crafted by local communities and 
in the interest of local communities. The result is a land protection 
bill that balances conservation and recreation.
    We greatly appreciate the concerted effort by Senator Baucus to 
include IMBA and local mountain bicycling interests in the development 
of this proposal. We have participated in numerous meetings and 
conversations with the Senator over the last few years where we have 
worked collaboratively to provide input about mountain bike trails that 
may be impacted by the wilderness protections in the proposal. There 
has been a genuine effort to address access issues we have referenced 
with the proposal and we are excited to support the final outcome.
                                 ______
                                 
                                          The Mountaineers,
                                       Seattle, WA, August 1, 2013.
Hon. Ron Wyden,
U.S. Senate, Washington, DC.
Hon. Lisa Murkowski,
U.S. Senate, Washington, DC.
Hon. Doc Hastings,
U.S. House of Representatives, Washington, DC.
Hon. Ed Markey,
U.S. House of Representative, Washington, DC.
    Dear Chairman Wyden, Chairman Hastings, Ranking Member Murkowski 
and Ranking Member Markey,
    On behalf of The Mountaineers, I am writing to express our support 
for H.R. 908/S. 404, the Green Mountain Lookout Heritage Protection 
Act, introduced earlier this year by Representatives DelBene and Larsen 
and Senators Murray and Cantwell.
    For nearly forty years, The Mountaineers has worked to preserve and 
maintain Washington's historic fire lookouts. Our Everett Branch 
Lookout and Trail Maintenance Crew dedicates hundreds of hours of 
skilled labor each year to three primary lookouts: Three Fingers, 
Pilchuck and Heybrook. In addition to the ongoing roofing, glazing, 
custom wood milling painting and general repairs performed at these 
lookouts, our volunteers have contributed labor and technical 
assistance to the maintenance of over 30 fire lookouts across the 
Pacific Northwest, including the Green Mountain Lookout.
    H.R. 908/S.404 would allow for the continued presence and 
maintenance of the Green Mountain fire lookout and we urge you to 
support this bill. During a time when lookouts are being removed or 
closed to the public due to disrepair, the recently-restored Green 
Mountain fire lookout offers an increasingly rare opportunity for 
hikers and equestrians to experience an important part of Washington's 
history.
    The Green Mountain lookout provides an educational destination for 
visitors to the Glacier Peak Wilderness and its preservation will serve 
to bolster support for wilderness areas across the state. We urge you 
to ensure passage of the Green Mountain Lookout Heritage Protection Act 
to ensure the permanent preservation of this important resource. Thank 
you for your leadership.
            Sincerely,
                                               Leann Arend,
                                        Interim Executive Director.
                                 ______
                                 
                                  City of Las Vegas Nevada,
                                  Las Vegas, Nevada, July 30, 2013.
Hon. Ron Wyden,
Chairman, Energy and Natural Resources, 221 Dirksen Senate Office 
        Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Energy and Natural Resources, 709 Hart Senate Building, 
        Washington, DC.
    Dear Chairman Wyden and Ranking Member Murkowski:
    On behalf of the city of Las Vegas, I write to whole-heartedly 
support the Las Vegas Valley Public Land and Title Springs Fossil Beds 
National Monument Act of 2013 (S.974/H.R. 2015). We worked closely with 
the Nevada Congressional Delegation to designate the Tule Springs area 
as a National Monument in the 112th Congress, and we look forward to 
moving the bill forward in this Congress.
    As you may know, this legislation enjoys broad support in Southern 
Nevada and would result in many mutually beneficial outcomes. The city 
of Las Vegas supports swift passage of S.974/H.R.2015 as it is 
imperative to protect paleontological and sensitive plant resources. We 
also believe that the legislation would create opportunities for 
economic development and job creation while providing for responsible 
urban development of adjacent lands, and allowing for necessary 
infrastructure to service existing developed areas.
    Again, we strongly support S.974/H.R.2015 and look forward to its 
successful passage.
            Respectfully,
                                        Carolyn G. Goodman,
                                          Mayor, City of Las Vegas.
                                 ______
                                 
   Statement of Chris Long, President of Ohio Christian Alliance and 
         Christian Alliance of America, Akron, Ohio, on S. 1044

    Chairman Udall and distinguished Members of the Senate Energy and 
Natural Resources Subcommittee on National Parks:
    We are honored to submit this letter of support for S. 1044, 
legislation that will include FDR's D-Day Landing Prayer at the WWII 
Memorial in Washington, D.C. We would like to express appreciation to 
Senator Rob Portman, sponsor of this legislation.
    Sixty-nine years ago, on the morning of June 6, 1944, as Allied 
forces were landing on the beaches in Normandy, President Roosevelt 
went to the airwaves and prayed with our nation for God's blessing and 
protection upon our brave fighting men. He prayed, ``Almighty God: Our 
sons, pride of our nation, this day have set upon a mighty endeavor, a 
struggle to preserve our Republic, our religion, and our civilization, 
and to set free a suffering humanity . . . ''
    President Roosevelt's prayer articulated the great crusade that was 
underway to liberate millions suffering under tyranny. He honored the 
war effort and paid tribute to the fallen and those veterans who fought 
courageously in the conflict. It is only fitting that succeeding 
generations learn of this prayer that was offered at that most poignant 
moment in our nation's history. We are encouraged by the support that 
this legislation is receiving. Veterans and veterans groups across the 
nation are in support of adding FDR's D-Day Landing Prayer to the WWII 
Memorial in Washington, D.C. This prayer represents an important piece 
of American history. Historians indicate that President Roosevelt hand 
wrote the prayer which was an inspiration to a nation engaged in a 
great world war of which the outcome was still very much uncertain. The 
prayer gave hope to millions of Americans and to those listening on the 
radio in occupied Europe anticipating the Allied advance.
    We therefore urge members of the U.S. Senate to support the FDR D-
Day Prayer inclusion and pass the legislation that will allow its 
placement at the WWII Memorial in Washington, D.C. We commend Senator 
Portman and the Senate co-sponsors of this historic legislation.
                                 ______
                                 
   Statement of Americans United for Separation of Church and State, 
                          (AUSCS), on S. 1044

    Founded in 1947, Americans United is a nonpartisan educational 
organization dedicated to preserving the constitutional principle of 
church-state separation as the only way to ensure true religious 
freedom for all Americans. We fight to protect the right of individuals 
and religious communities to worship as they see fit without government 
interference, compulsion, support, or disparagement. Americans United 
has more than 120,000 members and supporters across the country.
    We submit this written statement to express our objections to S. 
1044, which calls for the installation of a plaque or inscription with 
a prayer at the World War II Memorial in the District of Columbia, 
which was dedicated in May 2004. We believe that inserting the prayer 
acts contrary to the Memorial's goal of uniting Americans, and it 
defies the designers' judgments, which were reached through a rigorous 
process.
    It is true that ``each visitor views the memorial through their own 
experience, which sometimes results in their questioning aspects of the 
design.''\1\. But this questioning, no matter how heartfelt, should not 
reopen the design process. For example, since the Memorial's 
dedication, soldiers have requested amendments to add the Battles of 
Cassino, Bougainville, and New Georgia; asked for changes to recognize 
the Canal Zone; and advocated for the inclusion of campaign ribbons.\2\ 
These requests were denied.\3\ As explained in a letter written in 2006 
by the American Battle Monuments Commission, ``The government agencies 
for the design of the memorial . . . consider it complete, recognizing 
that the full story can never be captured in a memorial.''\4\.
---------------------------------------------------------------------------
    \1\ Letters from Michael G. Conley, Director of Public Affairs, The 
American Battle Monuments Commission, Complaint letters to The American 
Battle Monuments Commission (ABMC) from the public and/or members of 
Congress concerning battle monuments 3, http://www.governmentattic.org/
docs/ABMC_ComplaintLetters_2006-7.pdf (ABMC Response Letters).
    \2\ Id. at 3, 25, 37, 50.
    \3\ Id.
    \4\ Id. at 3.
---------------------------------------------------------------------------
Inserting This Prayer Contradicts the Main Message of the Memorial-
        Unity.
    One of the main themes of the World War II Memorial is unity: ``The 
memorial serves as a timeless reminder of the moral strength and the 
awesome power of a free people united in a common and just cause.''\5\. 
Adding a prayer to the completed Memorial, however, does not serve the 
theme of unity. Instead, it introduces an element to the design on 
which many Americans disagree-religion.
---------------------------------------------------------------------------
    \5\ Thomas B. Grooms, U.S. General Services Administration's Design 
Excellence Program in the Office of the Chief Architect,World War II 
Memorial Online Book 25 (2004), http://www.wwiimemorialfriends.org/
docs/WWII_Memorial_Book_Completed.pdf (WWII Memorial Online Book); see 
also id. at 56 (explaining that the Memorial design was chosen because 
it ``created a strong sense of unity-the bringing together the nation-
with the two colonnades representing the states); id. at 65 (during the 
design process, ``overall, the peers sought to keep the site as `green' 
as possible while ensuring the integrity of the design vision, 
particularly the theme of national unity . . . '').
---------------------------------------------------------------------------
    When Senator Rob Portman and Senator Joseph Lieberman introduced 
the identical bill last Congress, they both spoke on the House floor 
and noted the religious significance of adding the prayer. Senator 
Portman explained that the new inscription will be a ``permanent 
reminder of . . . the power of prayer through difficult times.''.\6\ 
And Senator Lieberman stated his belief that the prayer will ``remind 
us that faith in God has played a pivotal role in American history 
every day since the Declaration of Independence.''.\7\
---------------------------------------------------------------------------
    \6\ ``Portman Commemorates D-Day with WWII Memorial Prayer Act on 
Senate Floor,'' June 6, 2012, http://www.youtube.com/
watch?v=SsTPINh9WHY; see also ``Portman Renews Effort to Commemorate 
FDR's D-Day Prayer with the National at the WWII Memorial,'' Press 
Release, May 23, 2013, http://www.portman.senate.gov/public/index.cfm/
2013/5/portman-renews-effort-to-commemorate-fdr-s-d-day-prayer-with-
the-nation-at-the-wwii-memorial (We should not underestimate the power 
of prayer through difficult times, and I encourage the Senate to take 
it up and pass it quickly.'').
    \7\ Id.
---------------------------------------------------------------------------
    But America's military, like the nation itself, is extraordinarily 
religiously diverse. Our veterans-like our currently serving troops-
come from many different religious traditions and some follow no 
spiritual path at all. Indeed, a 2009 report by the Department of 
Defense ``tracks 101 faiths for active-duty personnel'' and noted that 
``almost 281,710 claim[ed] no religion.''.\8\
---------------------------------------------------------------------------
    \8\ Bob Smietana, Buddhist Chaplain is Army First, USA TODAY, Sept. 
8, 2009, http://www.usatoday.com/news/military/2009-09-08-buddhist-
chaplain--N.htm.
---------------------------------------------------------------------------
    Adding a prayer that represents some, but not all veterans and 
members of the military, defies the theme of unity, making many feel 
unrepresented by the Memorial. The current Memorial represents all 16 
million service members who served in our armed forces during World War 
II. There is no need to alter the Memorial to depict one particular 
view of God, which would cause some veterans to feel excluded.

The Designers of the Memorial Called for Fewer Inscriptions, Not More.
    The process of choosing the inscriptions for the World War II 
Memorial was exhaustive and done with expertise, and should not be 
reopened. In 2011, Robert Abbey, the director of the Bureau of Land 
Management, testified at a House subcommittee hearing that ``the design 
we see today was painstakingly arrived upon after years of public 
deliberations and spirited public debate.''.\9\ Indeed, ``the 
inscription selection and review process involved two American Battle 
Monuments Commissions (one appointed by President Clinton, one 
appointed by President Bush), the Memorial Advisory Board, military 
service and civilian historians, the Library of Congress, the National 
Park Service, and the Commission of Fine Arts.''.\10\During this 
process, ``the number, locations, words, and authors to be represented 
[on the memorial] changed often.''.\11\
---------------------------------------------------------------------------
    \9\ Hearing on H.R. 1980, H.R. 2070, H.R. 2621, and H.R. 3155 
Before the Subcomm. on National Parks, Forests and Public Lands of the 
H. Comm. on Natural Resources, 112th Congress (2011) (testimony of 
Robert Abbey, Director of the Bureau of Land Management).
    \10\ ABMC Response Letters at 3.
    \11\ World War II Online Book at 76-79.
---------------------------------------------------------------------------
    As part of the inscription approval process, the American Battle 
Monuments Commission created a Review Commission, whose membership 
included historians and retired Army Generals, to review proposed 
inscriptions for the monument.\12\ This Review Commission called for 
``Fewer Words-Less Inscriptions.''.\13\ The Review Commission ``decided 
to reduce the number of inscription locations from 25 to 20 and to 
emphasize evocative quotations from World War II participants-including 
Roosevelt, Truman, Marshall, Eisenhower, MacArthur, and Nimitz.''.\14\
---------------------------------------------------------------------------
    \12\ Id. at 76-79.
    \13\ Id. at 76.
    \14\ Id. at 79.
---------------------------------------------------------------------------
    Adding additional inscriptions to the monument, therefore, goes 
against the vision, expertise, and design of those who designed the 
Memorial. And, it surely contradicts the Commission's goal to have 
``Fewer Words-Less Inscriptions.''
The Commemorative Works Act
    S. 1044 defies the Commemorative Works Act (CWA). The original 
design process included ``more than two dozen public reviews,'' and 
``numerous informal design review sessions with members of the 
evaluation board and design competition jury.''.\15\ And, as explained 
above, the inscriptions themselves were also subject to significant 
review. Adding additional inscription disrespects the original process 
and the current design.
---------------------------------------------------------------------------
    \15\ Id. AT 65.
---------------------------------------------------------------------------
    That S. 1044 calls for the design of the new inscription or plaque 
to also go through the CWA process does not undo the fact that the 
Memorial's design is being reopened and altered or that the painstaking 
decisions made in the original process are being overruled. The bill 
demands that a specific inscription be added. Even if the exact 
location and the font of the inscription will be reviewed under the 
CWA, it does not cure the fact that the insertion of the plaque 
violates the original design process and, at a minimum, the spirit of 
the CWA.

Changing the Content of Such a Prominent Monument a Decade after Its 
        Dedication is Nearly Unprecedented.
    Redesigning critical aspects of a Memorial more than a decade after 
its dedication is nearly unprecedented. Proponents of S. 1044 claim 
that adding the prayer to the World War II Memorial is akin to Congress 
choosing to add an inscription at the Lincoln Memorial to commemorate 
Martin Luther King Jr.'s ``I Have a Dream Speech.'' They also claim it 
is similar to adding a plaque to the World War II Memorial to thank 
Former Senator Bob Dole for his ``tireless support of'' the Memorial. 
But adding these plaques was wholly different.\16\
---------------------------------------------------------------------------
    \16\ In addition, actions to fix spelling errors and misquotes or 
to add names to the Vietnam Memorial are also easily distinguishable. 
Also clearly different is eliminating an incorrect quote from the 
Memorial to Martin Luther King Jr., which was dedicated in 2011. 
Indeed, the Department of the Interior chose to remove an inaccurate 
quotation from the Memorial to Martin Luther King Jr., rather than add 
the full quotation to ``ensure that the structural integrity of the 
monument was not compromised.'' Secretary Salazar Provides Update on 
Resolution to Dr. Martin Luther King, Jr., Memorial, Press Release, 
Dec. 11, 2012, <http://www.doi.gov/news/pressreleases/secretary-
salazar-provides-update-on-resolution-to-dr-martin-luther-king- jr-
memorial.cfm>.
---------------------------------------------------------------------------
    The plaque added at the Lincoln Memorial merely commemorated that 
spot as the site for an important historical event. In just a few 
words, the inscription commemorated Martin Luther King, Jr.'s speech: 
the inscription includes the words ``I HAVE A DREAM,'' and acknowledges 
the speaker, the event, and the date. It does not add, detract, or 
change any aspects of the monument that reflect upon Lincoln.
    The plaque honoring Bob Dole also does not change any reflections 
upon World War II. It was not even embedded into the World War II 
Memorial. Instead, it was placed at the Memorial's visitor center, 
approximately 25 yards away from the World War II Memorial itself. 
Indeed, you must turn away from the Memorial to even see the plaque.
    Neither the King nor the Dole plaque changed the content and 
message of the Memorial to which they were added: they did not alter, 
remove, or add language, images, or emblems relating to the honoring of 
President Lincoln or World War II Veterans. Neither second guessed the 
designers, historians, architects, or public input regarding the best 
way to honor Lincoln or veterans at the memorials. Instead, they left 
the memorials intact.
    Inserting the prayer at the World War II Memorial, in contrast, 
alters the content of the memorial and the message of the monument 
itself.

Conclusion
    Our forefathers were wise when they called for our nation to 
separate church and state. It protects the autonomy of religious 
institutions and ensures that Americans have the right to believe-or 
not-as they choose without government intrusion or influence. A quick 
search on the internet on S. 1044 demonstrates why passing legislation 
imposing civil religion is dangerous for religious liberty-articles, 
blogs, and emails are riddled with inflammatory statements challenging 
the religion of government officials who opposed changing the Memorial 
and demonizing some as anti-prayer and anti-Christian.\17\ Even when 
unintended, such results are neither good for religious freedom nor our 
nation as a whole.
---------------------------------------------------------------------------
    \17\ In 2004, false information was also spread that the designers 
of the World War II Memorial purposefully deleted the words, ``so help 
us God'' from a sentence inscribed on the Memorial. In truth, the 
sentence from the speech that included those wordswas never even 
included on the Memorial and so claiming the words were omitted is 
misleading and false. ABMC ResponseLetters at 46 (``The inclusion or 
exclusion of religious references was never an issue, nor was it ever 
discussed''). But that falsehood is still being circulated today and is 
used to disparage certain officials as anti-religious, and hostile to 
God. Unfortunately, some of this rhetoric is being mixed into the 
messages pushing for the prayer inscription.
---------------------------------------------------------------------------
    The Memorial, as designed, is purposely short on words yet 
certainly evokes a powerful message of unity.\18\ And, in contrast to 
some of the rhetoric that is being generated by this debate, the 
monument already acknowledges that faith was important to many soldiers 
during the war.\19\ There is no need to take extraordinary steps to 
reopen the Memorial to add a prayer.
---------------------------------------------------------------------------
    \18\ Its goal ``was supposed to be a memorial to inspire, not a 
museum to teach.'' World War II Online Book at 66.
    \19\ The monument quotes Walter Lord: ``Even against the greatest 
of odds, there is something in the Human Spirit-a magic blend of skill, 
faith, and valor-that can life men from certain defeat to incredible 
victory.'' World War II Online Book at 97 (emphasis added).
---------------------------------------------------------------------------
                                 ______
                                 
                     American Civil Liberties Union (ACLU),
                                                     July 29, 2013.
Hon. Mark E. Udall,
Chairman, Subcommittee on National Parks, Committee on Energy & Natural 
        Resources, 304 Dirksen Senate Office Building, Washington, DC.
Hon. Robert J. Portman,
Ranking Member, Subcommittee on National Parks, Committee on Energy & 
        Natural Resources, 304 Dirksen Senate Office Building, 
        Washington, DC.
    Dear Chairman Udall and Ranking Member Portman:
    We, the undersigned organizations, write to express our concerns 
about S. 1044, the ``World War II Memorial Prayer Act of 2013.'' This 
bill would require the Secretary of the Interior to add an inscription 
of President Franklin D. Roosevelt's D-Day prayer to the WWII Memorial.
    Religious freedom is a fundamental and defining feature of our 
national character. Given our robust, longstanding commitment to the 
freedom of religion and belief, it is no surprise that the United 
States is among the most religious, and religiously diverse, nations in 
the world. Our religious diversity is one of our nation's great 
strengths.
    This bill, however, shows a lack of respect for this great 
diversity. It endorses the false notion that all veterans will be 
honored by a war memorial that includes a prayer proponents 
characterize as reflecting our country's ``Judeo-Christian heritage and 
values.''\1\ In fact, Department of Defense reports show that nearly 
one-third of all current members of the U.S. Armed Forces identify as 
non-Christian.\2\ Likewise, many of our veterans and citizens come from 
a variety of religious backgrounds, or have no religious belief; thus, 
it is inappropriate to honor the ``power of prayer''.\3\ in a national 
memorial.
---------------------------------------------------------------------------
    \1\ See Misc. National Parks Bills Hearing Before the Subcomm. on 
National Parks of the S. Comm. Energy & Natural Resources, 112th Cong. 
(2012) (Statement of Senator Rob Portman) available at http://
www.energy.senate.gov/public/index.cfm/hearings-and-business-
meetings?ID=a64e4f88-18d3-4489-96a0-b1a89b2b51e6 (86:15).
    \2\ Religious Diversity in the U.S. Military, Military Leadership 
Diversity Comm'n, Issue Paper No. 22 (June 2010).
    \3\ Press Release, Sen. Rob Portman, Portman Renews Effort to 
Commemorate FDR's D-Day Prayer with the Nation at the WWII Memorial 
(May 23, 2013), http://www.portman.senate.gov/public/index.cfm/2013/5/
portman-renews-effort-to-commemorate-fdr-s-d-day-prayer-with-the-
nation-at-the-wwii-memorial.
---------------------------------------------------------------------------
    Memorials are designed to bring our country together in a unified 
reflection of our past. Indeed, the WWII Memorial's stated purpose is 
national unity.\4\ Instead of uniting us as we remember the sacrifice 
of those who served, the inclusion of this prayer on the memorial would 
be divisive: It would send a strong message to those who do not share 
the same religious beliefs expressed in this prayer that they are 
excluded and ```not full members of the . . . community.'''\5\.
---------------------------------------------------------------------------
    \4\ American Battle Monuments Commission (AMBC), National WWII 
Memorial, Facts, http://www.wwiimemorial.com/
default.asp?page=facts.asp&subpage=intro (``Above all, the memorial 
stands as an important symbol of American national unity, a timeless 
reminder of the moral strength and awesome power that can flow when a 
free people are at once united and bonded together in a common and just 
cause.'').
    \5\ Santa Fe Indep. Sch. Dist. v. Doe, 530 U.S. 290, 309-10 (2000) 
(quoting Lynch v. Donnelly, 465, U.S. 668, 688 (O'Connor, J., 
concurring); see also, e.g., Trunk and Jewish War Veterans v. City of 
San Diego, 629 F. 3d 1099, 1124-25 (9th Cir. 2011), cert. denied, 567 
U. S. (2012).
---------------------------------------------------------------------------
    The memorial, as it currently stands, appropriately honors those 
who served and encompasses the entirety of the war. The World War II 
Memorial Commission and the American Battle Monuments Commission (ABMC) 
carefully chose the thirteen inscriptions already included on the 
memorial. The inscriptions contain quotes spanning from the beginning 
of U.S. involvement in the war following the attacks on Pearl Harbor to 
the war's end, and already include a quote about D-Day and two quotes 
from President Roosevelt.\6\ These commissions thoroughly deliberated 
which inscriptions to include, selecting quotations that honor those 
who served and commemorate the events of World War II.\7\ As the 
National Park Service explained at a hearing on this legislation in the 
112th Congress, ``The design we see today was painstakingly arrived 
upon after years of public deliberations and spirited public 
debate.''.\8\ The ABMC and National Capital Memorial Advisory 
Commission, which was designated by Congress to consult on the design 
of the Memorial, have stated that ``no additional elements should be 
inserted into this carefully designed Memorial.''\9\
---------------------------------------------------------------------------
    \6\ AMBC, National WWII Memorial Inscriptions, http://
wwiimemorial.com/archives/factsheets/inscriptions.htm.
    \7\ National Parks Service, World War II Memorial Inscription 
Controversy, http://www.nps.gov/wwii/photosmultimedia/upload/
WWII%20Memorial%20Inscription%20Controversy%20web.pdf.
    \8\ Legislative Hearing on H.R. 1980, H.R. 2070, H.R. 2621, and 
H.R. 3155 Before the Subcomm. on National Parks, Forest and Public 
Lands of the H. Comm. on Natural Resources, 112th Cong. (2011) 
(Statement for the Record from National Park Service, U.S. Department 
of the Interior) available at http://www.doi.gov/ocl/hearings/112/
HR2070_110311.cfm.
    \9\ Id.
---------------------------------------------------------------------------
    The First Amendment affords special protections to freedom of 
religion. Because of these protections, each of us is free to believe, 
or not believe, according to the dictates of our conscience. The effect 
of this bill, however, is to co-opt religion for political purposes, 
which harms the beliefs of everyone.
    Thank you for allowing us to share our concerns with S. 1044.
            Sincerely,
                     American Civil Liberties Union (ACLU),
                           American Jewish Committee (AJC),
       Americans United for Separation of Church and State,
                                 Hindu American Foundation,
                                       Interfaith Alliance.
                                 ______
                                 
     Statement of Faith & Freedom Coalition, Deluth, GA, on S. 1044

    In a letter to his wife Abigail, John Adams wrote these words 
regarding what we now call Independence Day, ``I am apt to believe that 
it will be celebrated by succeeding generations as the great 
anniversary Festival. It ought to be commemorated, as the Day of 
Deliverance, by solemn acts of devotion to God Almighty.'' Those words 
were written in 1776 when the founders were convinced that, through the 
hand of God, they had delivered this fledgling nation from a great 
tyranny. We were to be a nation dedicated to the God of the Word, and 
the Word of God. Our Founding Fathers, and Statesmen that followed, 
emphasized the importance of religious obedience to a thriving and 
successful nation.

  <bullet> `` . . . reason and experience both forbid us to expect that 
        national morality can prevail in exclusion of religious 
        principle.'' George Washington
  <bullet> `` . . . Religion and good morals are the only solid 
        foundations of public liberty and happiness.'' Samuel Adams
  <bullet> ``The great pillars of all government and social life are 
        virtue, morality, and religion . . . '' Patrick Henry
  <bullet> ``We have no government armed in power capable of contending 
        in human passions unbridled by morality and religion . . . our 
        Constitution was made only for a moral and religious people. It 
        is wholly inadequate to the government of any other.'' John 
        Adams

    This statement by John Adams is powerful. He acknowledges the 
corrupting influence of power and the only force strong enough to 
curtail those passions as being morality and religion.
    Where do we stand today? Have we clung to the only power and 
authority our founders acknowledged would prosper and protect our 
nation? On the other hand, have we fallen into the trap we were warned 
of, abandoning God, abandoning his principles and still expecting His 
blessing and protection? A quick glance at any day's headlines gives us 
the obvious answer. An honest look at today's culture tells us the 
results.
    Christianity is deeply engrained America's history, from the 
founding of the nation through today. Prior to the invasion of Normandy 
by American, British, and Canadian forces on June 6, 1944, President 
Franklin D. Roosevelt empowered the country with this prayer. The 
burdens of war remain unchanged between generations; President 
Roosevelt's prayer for the troops and their families continues to serve 
as a reminder that American is a blessed nation that will unwaveringly 
stand resolute in the face of adversity. Its enduring message should be 
recognized.
                                 ______
                                 
  Statement of Kelly Damerow, Director of Federal and State Affairs, 
               Secular Coalition For America, on S. 1044

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to submit testimony on the behalf of the Secular Coalition 
for America and the 25 million nontheistic Americans the Secular 
Coalition represents. We have grave concerns about S. 1044, which would 
direct the Secretary of the Interior to install in the area of the 
World War II Memorial an inscription with President Franklin D. 
Roosevelt's prayer on D-Day, June 6, 1944.
    According to the American Battle Monuments Commission, the 
preeminent purpose of the WWII Memorial is to ``stand as an important 
symbol of American national unity.'' The inscriptions currently etched 
into the memorial reaffirm this notion, celebrating our country's 
collective efforts and sacrifices in conquering tyranny and defending 
liberty.
    Rebuffing the unifying purpose of the monument, the prayer this 
bill proposes to add is inherently divisive. The defining 
characteristic of our religious freedom is not our unity, but our 
diversity. We are proudly a religiously pluralistic society. The 
freedom to make our religious choices is our own and the vast majority 
of Americans agree that ``religion is a private matter that should be 
kept out of public debates.''
    There is no secular motivation behind this bill. It does not seek 
to correct inaccuracies or further the unifying purpose of the 
monument. The 13 inscriptions were thoughtfully chosen by experts for 
their historical significance and this prayer was not one of them. Even 
with a professor and expert on Judaic studies on the advisory board, no 
religious quote was chosen. Overruling this carefully weighed decision 
by a panel of experts would send a strong message. The impact of 
returning to a finished monument to add this prayer would clearly be 
granting special treatment for religious statements.
    The unnecessary addition of a religious prayer shows great 
disrespect for our current military service members and veterans who 
come from a variety of religious backgrounds, many with no religious or 
theistic belief. Currently, nontheistic servicemembers are the largest 
non-Christian religious affiliation, and 23% of servicemembers indicate 
no religious preference. The permanent and unnecessary action this bill 
proposes only solidifies to these servicemembers the discrimination 
they continue to face on a daily basis.
    If this monument stands to renew faith, let it renew our faith that 
this legislative body will respect the growing religious diversity of 
its constituents and servicemembers.
    If this monument stands to reaffirm belief, let it reaffirm our 
belief in the constitutional principles that separate religion and 
government as the best guarantee of freedom for all.
    Thank you.
                                 ______
                                 
   Statement of the Schuylkill River Valley National Heritage Area, 
                               on S. 1157

    I am pleased to offer these comments in support of S. 1157 which 
will reauthorize the Schuylkill River Valley National Heritage Area 
until September 30, 2022. First authorized by Public Law 106-278 on 
October 6, 2000 and operating under a management plan entitled Living 
with the River approved by the National Park Service in 2003, the 
Schuylkill River Heritage Area is eager to continue our work in five 
counties of southeastern Pennsylvania. Our Heritage Area uses 
conservation, recreation, education, cultural and historic 
preservation, and tourism as tools for community revitalization and 
economic development. In keeping with our management plan, the 
Schuylkill River Heritage Area has developed three major initiatives: 
The Schuylkill River Sojourn, our signature event; the Schuylkill River 
Trail, our signature project; and The River of Revolutions Interpretive 
Center which is part of the Schuylkill River Academic and Heritage 
Center being developed in partnership with Montgomery County Community 
College and the Borough of Pottstown, Pennsylvania.

The Schuylkill River Sojourn: Our Signature Event
    The Schuylkill River Sojourn has been our signature event since it 
was initiated in 1999 in partnership with the PA Department of 
Conservation and Natural Resources. Since its inception, participants 
have traveled from 20 states, Washington, D.C. and two provinces in 
Canada to paddle the river and over 3,000 people have registered for 
this weeklong, 112-mile guided paddle. In addition, the Schuylkill 
River Heritage Area engages more than 70 partners each year to provide 
food, educational programming, entertainment and funding. The sojourn's 
popularity has grown steadily over the years. In 2013, we had a record 
number of people (59) make the full trip, and 226 for the entire trip.
    The sojourn addresses the multiple goals of the SRHA management 
plan: educating people about the region, encouraging recreational use 
of the river, instilling an appreciation for nature, facilitating 
community revitalization and promoting heritage tourism.
    The sojourn spawned the publication of a Schuylkill River Water 
Trail Map and Guide, which improved paddling safety and directly led to 
the river's designation as an American Canoe Association Recommended 
Water Trail. It has also attracted a great deal of media attention, 
raising awareness of the river as a valuable recreational resource and 
as a source of drinking water for over 1.5 million people through both 
regional and national media platforms. Since it incorporates 
educational programs that are open to the public at evening campsites, 
it has taught thousands of non-sojourners to value of the river, as 
well.

The Schuylkill River Trail: Our Signature Project
    Development of a 130-mile Schuylkill River Trail from Philadelphia 
to Pottsville has been a primary goal of our organization since the 
Schuylkill River Greenway Association was founded in 1974. Our 
motivation in building the trail has always been about bringing people 
to the river, so that they value and conserve its resources.
    Early on, our role consisted of supporting a vision, in partnership 
with others, of a trail that ran the length of the river. In 1991, the 
Schuylkill River Greenway Association officially acquired 10.5 miles of 
abandoned Pennsylvania Railroad right-of-way in southern Berks County 
and formulated a plan to build a 19-mile trail from Pottstown to 
Reading. Gradually, through a variety of funding sources and 
partnerships, we built that entire 19 miles, filling a major gap in 
2005 with the completion of the Lancaster Avenue Bridge in Reading, and 
closing the final gap in 2008 by constructing a .68-mile piece in 
Birdsboro. A four mile section remains as a signed, on-road trail. In 
2006, the Heritage Area received a two-year, $600,000 grant from the 
William Penn Foundation and became the lead organization in unifying 
the trail's various sections, creating a uniform sign system and 
improving accessibility. In 2007, we completed 6.5 miles of trail from 
Hamburg to Auburn, and in 2010 we posted signs for a 20-mile on-road 
Route from Reading to Hamburg. Our work with the trail is on-going as 
we regularly reprint and distribute trail maps and maintain a website 
dedicated to the trail.
    Today, more than 56 miles of the Schuylkill River Trail has been 
built by a number of partners. Of this, the Heritage Area operates and 
maintains, through volunteers, 28 trail miles without the benefit of 
state, county or local funds. We are currently working towards building 
an off-road trail from Reading to Hamburg, and have begun using the 
trail as an economic development tool with our Heritage Towns and Tours 
program, which assists communities in linking the trail to downtowns 
and attractions.

River of Revolutions Interpretive Center
    It has been a long-term goal of the Schuylkill River Heritage Area 
to create a visitors center for the entire region. In 2012 we achieved 
that goal, opening the River of Revolutions Interpretive Center in our 
Pottstown headquarters. The center features interactive exhibits, maps, 
videos, informative wall panels, and family-friendly displays to tell 
the fascinating history of the Schuylkill River region through the 
American, Industrial and Environmental Revolutions. It also includes 
brochures and maps that encourage visitors to explore the region's many 
historic and recreational sites.
    The River of Revolutions Interpretive Center has been well received 
by visitors of all age groups and backgrounds. It will eventually be 
part of the Schuylkill River Academic and Heritage Center that the 
Heritage Area is creating in partnership with Montgomery County 
Community College. Plans call for revamping a 5,000-square-foot 
undeveloped section of the building which houses our offices and 
transforming it into an environmental education center for the college, 
with four classrooms, a lab and office space. When the college facility 
is complete, the site will become a regional hub for river education, 
history and recreation.
    Since being authorized by Congress in 2000, the Schuylkill River 
Heritage Area has undertaken many additional projects. The following 
list is a sampling of dozens of initiatives, projects and programs we 
have presented to the region.

  <bullet> The Schuylkill River Water Trail was designated a National 
        Recreation Trail by the United States Department of the 
        Interior, the first in Pennsylvania.
  <bullet> The Schuylkill River National Heritage Area Management Plan 
        was approved by the Secretary of the Interior.
  <bullet> Completed a master sign plan, to help brand the Schuylkill 
        River Heritage Area and to provide visitors and residents with 
        a uniform sign system for the Schuylkill River Land and Water 
        Trails.
  <bullet> Reprinted The Schuylkill, by J. Bennett Nolan in partnership 
        with the Martin Foundation. This long out-of-print book, first 
        published in 1951, is considered the premier source of 
        historical information on the Schuylkill River.
  <bullet> The Schuylkill River Water Trail was selected by the 
        American Canoe Association as a Recommended Water Trail, then 
        one of only 12 water trails in the US and Canada to receive 
        that designation.
  <bullet> Organized the first Scenes of the Schuylkill Juried 
        Exhibition, featuring 31 original works by artists celebrating 
        the beauty of the Heritage Area. This year we will host the 
        10th annual exhibition, which includes 83 works.
  <bullet> Entered into an agreement with Exelon Nuclear to establish 
        the Schuylkill River Restoration Fund. To date, Exelon has 
        donated over $1.4 million for projects that improve water 
        quality in the river and its tributaries.
  <bullet> Participated in several Upward Bound programs introducing 
        high school students from inner city areas to kayaking, 
        bicycling and lessons about the Heritage Area.
  <bullet> Produced a full color brochure of the Schuylkill River 
        Heritage Area aimed at encouraging people to explore the 
        region's cultural and recreational attractions.
  <bullet> Received a $735,000 two-year grant from the William Penn 
        Foundation for projects that increase public awareness and 
        accessibility to the Schuylkill River Trail.
  <bullet> Published Along the Schuylkill River, a pictorial history of 
        the river that featured over 200 vintage photographs of the 
        Schuylkill River, the canal and the communities along it.
  <bullet> Premiered a new PBS documentary, The Revolutionary River, 
        about the history of the Schuylkill River to enthusiastic 
        audiences at several events. The film was also broadcast on 
        WHYY.
  <bullet> Introduced the Heritage Towns and Tours program, providing 
        municipalities along the Schuylkill River Trail with grant 
        funding and how-to information on making their towns into 
        destinations for trail users.
  <bullet> Produced and distributed a new full-color brochure for the 
        Schuylkill River Trail that includes a map of the entire 
        trail--the first of its kind produced as a handout--and 
        information on key towns along the trail.
  <bullet> Received a $719,000 grant from the William Penn Foundation 
        to improve the Schuylkill River Trail and strengthen its 
        economic development potential.
  <bullet> Worked in partnership with the Pottstown Health and Wellness 
        Foundation to assume management of Pottstown's free bike share 
        program, Bike Pottstown, and expanded it to Phoenixville and 
        Hamburg, where it is known as Bike Schuylkill. The community 
        bike share program has been remarkably successful-in Pottstown 
        alone over 350 bikes are shared per month at no cost to the 
        user.
  <bullet> The Heritage Area received national publicity when two short 
        films about the Schuylkill River Heritage Area were produced by 
        American Milestone as part of a short-form documentary series.
  <bullet> Organized the Schuylkill River Trail Bike Tour Series 
        featuring an annual bike ride on the Schuylkill River Trail to 
        introduce riders to historic assets and community resources 
        easily accessible via the trail.
  <bullet> We introduced a new lecture series with a talk and book 
        signing by local writer Chari Towne, whose book, A River Again, 
        focused on the mid-20th century cleanup that saved the 
        Schuylkill River. Additional lectures have been held throughout 
        the year on a variety of topics of regional interest.
  <bullet> Installed 19 Gateway Information Centers at popular 
        destination sites throughout the five-county Heritage Area. 
        Gateway Centers are information booths designed to educate 
        people about the region's cultural and historic significance.

    The Schuylkill River Heritage Area has developed an excellent 
network of regional funders that have provided matching support for our 
federal appropriation. Matching funds have been as high as five dollars 
for every one dollar of federal support. Collectively these funds have 
supported jobs, as monies are invested in community projects. Since 
2000, $5.2 million in matching support has come from the Pennsylvania 
Department of Conservation and Natural Resources and $2.5 million from 
the William Penn Foundation. Another $1.6 million from the Exelon 
Corporation and $400,000 from the Philadelphia Water Department has 
been given in support of the Schuylkill River Restoration Fund 
established by our organization. We have also received generous support 
from the Pottstown Health & Wellness Foundation, the Wyomissing 
Foundation, the Martin Foundation, Chester, Montgomery, Berks and 
Schuylkill Counties and increasing support from businesses and 
individuals.
    Should we be reauthorized by Congress until 2022, we are well under 
the $10,000,000 that was authorized to be appropriated to the 
Schuylkill River Heritage Area in Public Law 106-278--October 6, 2000 
and every indication we have suggests continued matching support from 
the funders noted above.
    As a National and State designated Heritage Area, we are fortunate 
to be able to partner with three National Parks that are located in our 
area, Valley Forge National Historical Park, Independence National 
Historical Park and Hopewell Furnace National Historic Site. We have 
installed Gateway Information Centers about the Schuylkill River 
Heritage Area and have provided for public educational programming 
through a variety of events at each of these sites. In the past, the 
National Park Service has provided programming for our Schuylkill River 
Sojourn; and next year we are sponsoring a three-day bicycle ride on 
the Schuylkill River Trail that begins at Hopewell, stops at the 
Heritage Area River of Revolutions Interpretive Center, camps at Valley 
Forge and tours Independence. The National Park Service has a 
representative on our Board of Directors and is recognized on all 
Heritage Area literature and our website with the iconic National Park 
Service arrowhead logo. The Schuylkill River Valley National Heritage 
Area is implementing our management plan, leveraging federal funding, 
partnering with our National Parks, restoring the Schuylkill River, 
building the Schuylkill River Trail and promoting numerous visitor 
attractions in the region as we use conservation, recreation, 
education, cultural and historic preservation and tourism as tools for 
community revitalization and economic development.
    We respectfully request your support for S.1157 which will 
reauthorize the Schuylkill River Valley National Heritage Area until 
September 30, 2022.
    Thank you.
                                 ______
                                 
 Statement of Annie C. Harris, Chief Executive Officer, Essex National 
                    Heritage Commission, on S. 1186

    Mr. Chairman and distinguished members of the subcommittee, thank 
you for opportunity to submit written testimony for S. 1186--the Essex 
National Heritage Area Reauthorization Act.
    The Essex National Heritage Area is the 500 square mile region 
located north of Boston, Massachusetts. For nearly four hundred years, 
this region has played a very important role in American history, and 
many of the sites and resources from the founding of our Nation still 
survive intact today. The National Heritage Area was established in 
1996 by Public Law 103-33 to recognize, preserve, promote and educate 
the public about three nationally significant themes: early settlement, 
maritime history and the early industrial era. The Essex National 
Heritage Area has within its boundaries the first integrated ironworks 
in North America, the oldest continuously operating museum, the oldest 
working boat shop, the oldest cultivate fruit tree, and much more.\1\ 
The area is rich in manmade and natural resources including 9,968 sites 
on the National Register of Historic Places, 73 National Register 
Historic Districts, 26 National Historic Landmarks, 86 historical sites 
and museums open to the public, 400 farms, 9 state parks, 2 units of 
the National Park Service and 1 National Wildlife Refuge.
---------------------------------------------------------------------------
    \1\ The Saugus Iron Works National Historic Site, Saugus, is the 
site of the first integrated ironworks manufacturing complex in North 
America. The Peabody Essex Museum, Salem, was established by Salem sea 
captains in 1799, and it is considered by most historians to be the 
oldest continuously operating museum in the United States. Lowell's 
Boat Shop, Amesbury, is the Nation's oldest working boat shop and the 
birthplace of the famous Gloucester stackable fishing dory. The 
Endicott Pear Tree, Danvers, (also known also as the Endecott Pear) is 
the oldest known cultivated fruit tree in North America having been 
brought by Governor John Endecott from England on the Arbella in June 
1630.
---------------------------------------------------------------------------
    The Essex National Heritage Commission (ENHC) is the regional, non-
profit organization that manages the activities of the National 
Heritage Area. ENHC works to conserve and promote the nationally 
significant stories and resources of the region. At the ENHC, we 
support a robust network of public and private partnerships that rely 
on the heritage resources and stories to revitalize communities and 
strengthen the local economy. We promote cultural tourism sites and 
programs, and contribute to supporting the state's tourism economy 
which is the third largest job producing industry in Massachusetts. We 
provide grants in conservation and resource stewardship that not only 
preserve the historic fabric of our region, but also create jobs in 
construction and tourism. Currently, it is estimated that we have 
created nearly 1,500 jobs through our grant programs, and for the past 
5 summers we have provided 103 jobs for disadvantaged youths. We 
develop trails and bikeways for recreation, healthy living and clean 
transportation. Twenty-eight miles of trail were recently completed and 
are now providing safe recreational opportunities, and another eighteen 
miles are currently under design. We create regional events that build 
community pride, and last year alone we assisted in attracting 1.3 
million visitors to the region. Appreciating that our future lies in 
engaging residents and visitors of all backgrounds and interests, we 
have increased our educational programming to include the Latino 
community and other English language learners. This summer, in 
partnership with our local university and the National Park Service, we 
presented two teacher workshops in place-based learning and a summer 
enrichment program for 40 students for whom English is their second 
language.
    In the Essex National Heritage Area, as in the other National 
Heritage Areas, we accomplish our work by leveraging the public 
investment with private funding, volunteer time, in-kind donations, and 
local and state contributions. We successfully match the federal 
dollars invested in our area many times over. As documented in the 
Evaluation of the Essex National Heritage Area Commission Findings 
Document, ``between 1998 and 2008, ENHC received $9,327,437 in federal 
funds which were match with $19,702,891 from non-federal sources.''\2\ 
We promote the principles of conservation and preservation from the 
grassroots by involving residents in long-term, multi-partnership, 
landscape and community conservation projects. Our projects like Trails 
& Sails and the Essex Coastal Scenic Byway engage hundreds of people in 
multiple communities. We accomplish our work in harmony with the goals 
of the National Park Service and without requiring public ownership for 
our success. The value of the Essex National Heritage Area and our 
fellow heritage areas lies in our ability to connect with the area's 
historic, cultural and natural sites and to utilize these indigenous 
resources to create jobs, and revitalize communities.
---------------------------------------------------------------------------
    \2\ Evaluation of the Essex National Heritage Commission Findings 
Document; prepared by the Center for Park Management for the National 
Park Service; November 2010.
---------------------------------------------------------------------------
    It is our experience that heritage preservation and jobs go hand-
in-hand. Strong economies occur in places where there is deep community 
pride and dedicated stewardship. Our accomplishments in preservation 
and economic development in the Essex National Heritage Area are 
supported by the findings of TrippUmbach, a nationally recognized 
consulting firm, engaged by the National Park Service to study the 
economic impact of the National Heritage Areas across the United 
States. In their study on The Economic Impact of National Heritage 
Areas (February, 2013), they conclude that the annual national economic 
effect of the National Heritage Areas is ``$12.9 billion in economic 
activity which supports approximately 148,000 jobs and $1.2 billion 
annually in Federal taxes.''\3\
---------------------------------------------------------------------------
    \3\ The Economic Impact of National Heritage Areas: A Case Study 
Analysis of Six National Heritage Area Sires in the Northeast Region of 
the United States and Projections on the National Impact of All 
National Heritage Areas. TrippUmbach. February 18, 2013.
---------------------------------------------------------------------------
    National Heritage Areas, also, enhance the capacity of the National 
Park Service to meet its mission. Within the Essex National Heritage 
Area, we work closely with two national parks--Salem Maritime National 
Historic Site and Saugus Iron Works National Historic Site. We support 
these park units with programs, community projects, and fundraising. As 
diversity and youth engagement have become ever more important, we 
regularly assist our local national parks in their efforts to reach out 
to our region's underserved youth and to engage diverse audiences.
    The National Heritage Areas are acknowledged by the leadership of 
the National Park Service to be one of NPS's most effect external 
programs. Director Jon Jarvis states in Policy Memorandum 12-01 (March 
14, 2012), ``the Service also manages programs that reach beyond 
national park boundaries. (and) they form a vital part of the NPS 
mission and help sustain and enhance the quality of life throughout 
America. These programs rely on a spirit of partnership and 
cooperation, which I believe must be the hallmark of the NPS in the 
decades that lie ahead. And nowhere is that spirit of partnership and 
cooperation more fully displayed than in the National Heritage Areas.'' 
He explains that ``The National Heritage Areas Program expands on 
traditional approaches to resource stewardship by supporting large-
scale, community centered initiatives that connect local citizens 
through preservation, conservation, and planning processes.''\4\
---------------------------------------------------------------------------
    \4\ United States Department of the Interior, National Park 
Service; Policy Memorandum 12-01; Director Jon Jarvis; March 14, 2012. 
Emphasis is provided by A. Harris.
---------------------------------------------------------------------------
    The value of ENHC's work is substantiated by a recently released, 
independent evaluation. On May 8, 2008, Congress enacted Public Law 
110-229 requiring that the nine NHAs established by PL 104-333 be 
evaluated to assess the progress they have made on accomplishing the 
purposes of their authorizing legislation and achieving their 
management plans, to analyze the investments made in these areas, and 
to review their management structure. The legislation then directed the 
Secretary of the Interior to submit a report to Congress which ``shall 
include recommendations for the future role of the National Park 
Service, if any, with respect to the National Heritage Area.'' The 
first three of these evaluations along with the Secretary of the 
Interior's recommendations were submitted to Congress on April 12, 
2013. The Evaluation of the Essex National Heritage Area Commission 
Findings Document--(the Essex Evaluation)\5\ was one of the three 
transmitted to the Senate Committee on Energy and Natural Resources and 
the House Committee on Natural Resources. The evaluations were 
performed by the Center for Park Management and Westat, consultants to 
the Secretary of the Interior and the National Park Service. Based on 
these independent findings, the Secretary of the Interior states in the 
letter of April 12 that the Essex National Heritage Area ``contributes 
to the mission of the NPS''. ``successfully engages citizens who work 
in heritage and conservation agencies all across the region''. ENHC's 
``work demonstrates the ability to successfully provide formal 
technical assistance and work collaboratively to assist with long-term 
resource protection''. and has ``more than doubled the requirement for 
annual matching contributions.'' In summary, the Secretary of the 
Interior concludes that ``losing federal assistance would have a 
significant negative impact on the resources, partners, and the NPS'' 
and states that ``ENHC is fulfilling its legislative mandate'' and 
``recommends a future role with the Essex National Heritage Area.''\6\
---------------------------------------------------------------------------
    \5\ Evaluation of the Essex National Heritage Commission Findings 
Document; November 2010
    \6\ Letter by Rachel Jacobson, Principal Deputy Assistant Secretary 
for Fish and Wildlife and Parks, Office of the Secretary, US Department 
of the Interior; dated April 12, 2013; transmitted to the Honorable Ron 
Wyden. the Honorable Lisa Murkowski, the Honorable Doc Hastings, the 
Honorable Edward Markey, the Honorable Elizabeth Warren, the Honorable 
William Cowan, the Honorable Niki Tsongas and the Honorable John 
Tierney. Emphasis is provided by A. Harris.
---------------------------------------------------------------------------
    By enacting S. 1186, the Senate will gain the time it needs to 
review the evaluation of the Essex National Heritage Area and consider 
the recommendations of the US Department of Interior. The Senate will, 
also, allow a successful program to continue until the Senate can give 
due consideration to the comprehensive national heritage area 
legislation currently filed in the House as H.R. 455--National Heritage 
Area Act of 2013. Comprehensive National Heritage Area legislation has 
been recommended for many years--including by the National Park System 
Advisory Board in 2006 in Charting a Future for the National Heritage 
Areas\7\ and in 2009 by the National Parks Second Century Commission 
Report--Advancing the National Park Idea\8\ and most recently by the 
Secretary of the Interior--National Park Service's spokesperson 
Stephanie Toothman, Associate Director, Cultural Resources, 
Partnerships, and Science in her testimony regarding the sun-setting 
National Heritage Areas before this committee on March 7, 2012 and 
again on July 31, 2013. Lastly, in the current era of fiscal constraint 
and slow job growth, the Essex National Heritage Area, along with the 
other established National Heritage Areas, has demonstrated the 
important part we play in regional economic development. As confirmed 
by NPS Director Jon Jarvis, ``National Heritage Areas are places where 
small (public) investments pay huge dividends, providing demonstrable 
benefits in communities across the county and in partnership with our 
national parks.''\9\
---------------------------------------------------------------------------
    \7\ Charting a Future for the National Heritage Areas: A Report by 
the National Park System Advisory Board, Douglas P. Wheeler, Chairman, 
2006; page 25.
    \8\ Advancing the National Park Idea: National Parks Second Century 
Commission Report; Howard H. Bakers, Jr. and J. Bennett Johnston, Co-
Chairs; 2009; page 43.
    \9\ Policy Memorandum 12-01.
---------------------------------------------------------------------------
                                 ______
                                 
  Statement of Margaret Miner, Executive Director, Rivers Alliance of 
                Connecticut, Litchfield, CT, on S. 1253

    Rivers Alliance of Connecticut is the statewide, non-profit 
coalition of river organizations, individuals, and businesses formed to 
protect and enhance Connecticut's waters by promoting sound water 
polides, uniting and. strengthening the state's many river groups, and 
educating the public about the importance of water stewardship. Our 450 
members include almost all of the state's river and watershed 
conservation groups, representing many thousand Connecticut residents.
    We much appreciate your care for our country's great natural 
resources. In Connecticut, the Farmington River is probably the most 
beautiful, beloved, and used of all our waterways. I may be prejudiced, 
since Rivers Alliance was founded on the banks of the Farmington. But 
people come from all over the state (and the world, actually) to fish, 
boat, tube, and swim in the river; and to hike, run, and bicycle on the 
pathways along the river. Meanwhile, the river serves to supply 
drinking water and to treat wastewater for the entire Hartford region.
    The Wild and Scenic designations, both existing and now pending, 
are richly deserved and much needed. We are a densely populated state 
ih which open space and high-quality rivers are keenly appreciated. I 
am familiar with the fine work done by the Wild and Scenic Study 
Committee in uniting the ten area towns for a plan of stewardship and 
management that will maximize the ecological and economic benefits of 
the river. One reason forthis municipal enthusiasm is the excellent 
track record of the community-based Farmington River Coordinating 
Committee, which serves the Upper Fairmington Wild & Scenic area. 
People in the Farmington region are ever willing to work for their 
river, and saving its varied natural habitat and clean, cold water is a 
priority. We look forward to enhancing the partnership with the federal 
government, and respectfully ask you to support Senate Bill 1253.
                                 ______
                                 
  Statement of Eileen Fielding, Executive Director, Farmington River 
         Watershed Association, Inc., Simsbury, CT, on S. 1253

    On behalf of the Farmington River Watershed Association (FRWA), a 
non-profit citizens' group founded in 1953, whose mission is to 
preserve, protect, and restore the Farmington River and its watershed 
through research, education, and advocacy, I thank you for the 
opportunity to submit the following comments in support of S. 1253.

    In the 1980s and 1990s, FRWA led the campaign to have the West 
Branch of the Farmington River designated a Wild & Scenic River. At the 
time, the Partnership model for Wild & Scenic rivers was un- tried and 
some feared the designation as a threat to local autonomy. But since 
achieving the designation 1994, FRWA and the towns along the West 
Branch have had no regrets or doubts about its value. The Coordinating 
Committee that was formed to implement the Wild & Scenic management 
plan on the West Branch brought together diverse public and private 
partners to work on projects of joint interest. The Committee's 
activities enhanced communication, combined resources and expertise in 
a productive way, and even mellowed deep antagonisms among 
stakeholders. Federal funding for the W&S management plan attracted 
local matches of cash, goods, services, and volunteer help for river 
stewardship. Designation helped promote the river as a destination, 
thus supporting local tourism and recreation-based businesses, as well 
as enhancing real estate values and general quality of life.
    This success is not unique. In 2007, the National Park Service 
reported that, of all grades of Wild & Scenic Rivers, the Partnership 
Rivers did best at meeting legislative mandates, external coordination, 
policy guidance, staff training, and resource protection. That same 
year, the Ash Institute for Democratic Governance and Innovation at 
Harvard's JFK School of Government named Partnership Wild & Scenic 
Rivers in the top 50 government innovations linking citizens with 
important public services.
    It's important to understand the nature of the public service. It 
does not come from large infusions of federal money or top-down river 
management. Modest funding, and access to techni al and advisory 
resources of the National Park Service, suffice to catalyze local 
initiatives. As demonstrated on the Farmington's West Branch, the 
Partnership Wild & Scenic model fosters communication, taps multiple 
funding sources, and leads to creative solutions tailored to local 
circumstances.
    With S. 1253 we hope to extend these benefits to the rest of the 
Farmington River in Connecticut and to one of its most ecologically 
valuable tributaries, Salmon Brook. Findings in the Lower Farmington 
Management Plan and Study Report fully support the river's eligibility 
for designation. So do the ten towns and many stakeholder organizations 
along the lower river. FRWA is fully committed to implementing the 
management plan in collaboration with all the other stakeholders who 
had a part in producing it. In fact, we have not passively waited for 
designation-we have already raised considerable local funding and have 
begun to work with our partners on projects recommended in the 
management plan. Even the promise of designation has inspired our 
communities to action.
    We realize the difficulty of defining the Wild & Scenic reach in a 
way that protects the river's outstanding resource values while 
allowing for the operation and possible FERC permitting of a pre-
existing hydroelectric facility at Rainbow Dam. If it proves necessary, 
we will support continued effort to draft language that protects the 
hydro facility's ability to do needed upgrades, but also supports the 
National Park Service mandate to protect the reaches upstream and 
downstream of the facility in a way that's consistent with W&S 
designation.
    In conclusion, we strongly support S. 1253 as providing a proved, 
sensible, and important means for the citizens of Connecticut to take 
care of one of their most beautiful and valuable rivers.
    Respectfully submitted,
                                 ______
                                 
  Statement of William Case, President, Farmington Valley Chapter of 
                      Trout Unlimited, on S. 1253

    As President of the Farmington Valley Chapter of Trout Unlimited, I 
respectfully request the Senate Committee on Energy and Natural 
Resources to act favorably on S 1253, the bill to des-ignate the lower 
Farmington River and Salmon Brook as a partnership Wild and Scenic 
river under the National Wild and Scenic Rivers Act.
    Trout Unlimited is an organization with 150,000 members in 400 
chapters across 35 states whose mission is to conserve, protect and 
restore cold water fisheries and their watersheds. The Farmington 
Valley Chapter is the largest of eight chapters in Connecticut with 
over 600 members.
    I am not sure it is possible to convey to you the passion and 
devotion anglers have for this riv-er. It is also not only a world-
class trout stream, but a source of great enjoyment for thou-sands of 
other Connecticut residents and visitors. We enthusiastically support 
any effort that would provide much needed coordination and resources 
that will positively benefit the Farm-ington and its tributaries.
    Farmington Valley Trout Unlimited has the greatest respect for the 
groups who act to protect our valuable resource, and we hope that you 
will support the extensive effort put forth by the lower Farmington 
River and Salmon Brook Wild and Scenic Study Committee by awarding the 
lower portion of the river this designation.
    Thank you for the opportunity to provide testimony.
    Sincerely,
                                 ______
                                 
  Statement of Sally S. Rieger, Lower Farmington River/Salmon Brook, 
                        Simsbury, CT, on S. 1253

    As the volunteer chairman of the Lower Farmington River and Salmon 
Brook Wild and Scenic Study Committee, on behalf of the Study Committee 
I respectfully urge the Senate Committee on Energy and Natural 
Resources to act favorably on S 1253, the bill to designate the lower 
Farmington River and Salmon Brook as a partnership Wild and Scenic 
river under the National Wild and Scenic Rivers Act.
    A 14 mile segment of the upper Farmington River was designated as 
Wild and Scenic in 1994. The lower river and Salmon Brook towns that 
are involved in the current Wild and Scenic Study want their part of 
the watercourses designated as well, The ten Study area towns have 
formally endorsed designation because they would like to enjoy the 
economic and conservation benefits for their portion of the rivers 
which a Wild and Scenic designation would bring.
    In addition to requiring such community support, the National Wild 
and Scenic Rivers Act requires that designated rivers have at least one 
Outstandingly Remarkable Value of regional or national significance. 
The lower Farmington and Salmon Brook surpass that standard, sharing 
five such values, Geology, Water Quality, Biodiversity, Cultural 
Landscape and Recreation. These are documented, along with priorities 
for their protection and enhancement, in the Management Plan developed 
by the Study Committee. Development of a Management Plan, a guidance 
document available for public and private use, is yet a third 
requirement for Wild and Scenic designation. Designation would put into 
action a volunteer advisory group that works on implementing the 
Management Plan priorities for the watercourses as whole rather than on 
a town by town basis as individual municipalities do. This would result 
in better coordinated river protection and more coordination of river 
related economic development efforts.
    The Lower Farmington River and Salmon Brook Wild and Scenic Study 
has brought together more than thirty river stakeholders including 
volunteers from the ten study area towns, and from local community and 
conservation organizations as well as representatives from Stanley 
Black and Decker, Inc, and the Connecticut Department of Energy and 
Environmental Protection. The Study Committee's work in documenting 
river resources, in determining potential opportunities to enhance 
river protection, and in promoting a better understanding and 
appreciation of the ecological and economic value of a healthy river 
has made a strong contribution to our local communities. The Study 
Committee seeks designation for the lower Farmington and Salmon Brook 
with the hope that the work it has completed will lead to an ongoing 
and successful community-based effort to protect the watercourses for 
today's citizens and for future generations.
    Thank you for the opportunity to provide testimony.
    Sincerely
                                 ______
                                 

                          Gila County Board of Supervisors,
                                                     July 26, 2013.
Hon. Jeff Flake,
U.S. Senate, B85 Russell Senate Office Building, Washington, DC.
Hon. John McCain,
U.S. Senate, 241 Russell Senate Office Building, Washington, DC.
Re: Support for S. 1300 to amend the Healthy Forests Restoration Act of 
2003 to provide for the conduct of stewardship end result contracting 
projects.

    Dear Senators Flake and McCain;

    Gila County has been a stakeholder in the effort to develop and 
implement landscape scale forested ecosystems restoration for the last 
decade and has been involved in the creation of the White Mountains 
Stewardship Project; the Arizona Governor's Forest Health Council's 
Statewide Strategy for Restoring Arizona Forests; the collaborative 
Analysis of Small-Diameter Wood Supply in Northern Arizona; and the 
Four Forest Restoration Initiative.
    The value and effectiveness of the Stewardship Contracting 
Authority for forested ecosystems and watersheds restoration has been 
repeatedly demonstrated across the nation over the last 10 years, and 
particularly in Arizona through the accomplishments of the White 
Mountains Stewardships Contract and the collaborative work of the Four 
Restoration Initiative.
    Simultaneously, Gila County has been deeply involved in addressing 
and resolving for the Four Forest Restoration Initiative first analysis 
area contract the cancellation ceiling obligation currently required in 
Stewardship Contracts. Gila County also understands and appreciates the 
need to align the stewardship contracting fire liability provisions 
with those of other contracting tools available to the U.S. Forest 
Service.
    Gila County is therefore pleased to write in strong support of S. 
1300 to amend the Healthy Forests Restoration Act of 2003 to provide 
for the conduct of stewardship end result contracting projects, 
introduced by Senators Jeff Flake and John McCain, and wants to express 
its appreciation as a means to prevent catastrophic forest fires, and 
landscape scale forested ecosystems and watershed ecological 
restoration.
    Thank you for your consideration.
            Respectfully submitted,
                                             Tommie Martin,
                                             District 1 Supervisor.
                                 ______
                                 
                    The Nature Conservancy Arizona Chapter,
                                                     July 31, 2013.
Hon. John McCain,
Member, U.S. Senate, 241 Russell SOB, Washington, DC.
Hon. Jeff Flake,
Member, U.S. Senate, 368 Russell SOB, Washington, DC.
    Dear Senators McCain & Flake:
    Thank you for the opportunity to comment on the Stewardship 
Contracting Reauthorization and Improvement Act, S. 1300 (hereinafter 
the ``bill''). The Nature Conservancy deeply appreciates the leadership 
shown by both of our Arizona Senators. The reauthorization of 
Stewardship Contracting is a top priority for the Conservancy and 
action on this issue is urgently needed. We cannot afford to lose this 
critical forest management tool, which will expire on September 30, 
2013 without Congressional action and support the objectives of this 
bill.
    As you know, The Nature Conservancy is an international, nonprofit 
organization dedicated to the conservation of biological diversity. Our 
mission is to conserve the lands and waters on which all life depends. 
Our on-the-ground conservation work is carried out in all 50 states and 
in more than 30 foreign countries and is supported by approximately one 
million individual members. We have helped conserve nearly 15 million 
acres of land in the United States and Canada and more than 102 million 
acres with local partner organizations globally.
    The Conservancy owns and manages approximately 1,400 preserves 
throughout the United States-the largest private system of nature 
sanctuaries in the world. We recognize, however, that our mission 
cannot be achieved by core protected areas alone. Therefore, our 
projects increasingly seek to accommodate compatible human uses, and 
especially in the developing world, to address sustained human well-
being.
    As members of the stakeholders group of the Four Forest Restoration 
Initiative, known as 4FRI, we know firsthand of the importance of 
Reauthorization of the Stewardship Contracting authority. Specifically, 
allowing forest managers to continue using innovative contracting 
methods to achieve forest management objectives, increase and diversify 
job opportunities, and provide certainty for contractors with multiyear 
agreements while building strong partnerships invested in the future of 
the forest and community. Treatments completed under the Stewardship 
Contracting Authority promote healthy forests and reduce fire hazards, 
increase watershed resilience, and expand business and job 
opportunities.
    Stewardship Contracting is a particularly important tool in Arizona 
where rebuilding a robust and multi-faceted forest industry is critical 
to achieving the large scale restoration and community protection goals 
embodied in 4FRI and other collaborative forest management projects. It 
is essential that we be able to attract forest industry investment that 
is equal to the scale of our forest management challenge and 
Stewardship Contracting plays a key role in this equation.
    Again, we thank you for your leadership and great concern over this 
very important issue. Please do not hesitate to contact me if you have 
any questions.
            Sincerely,
                                            Patrick Graham,
                                                    State Director.
                                 ______
                                 
  Statement of Jonathan M. Nez, Chairman of the Board, Navajo County 
  Board of Supervisors, on Navajo County Board of Supervisors, S. 1300

    Navajo County has been a stakeholder in the effort to develop and 
implement landscape scale forested ecosystems restoration for the last 
decade and has been involved in the creation of the White Mountains 
Stewardship Project; the Arizona Governor's Forest Health Council's 
Statewide Strategy for Restoring Arizona Forests; the collaborative 
Analysis of Small-Diameter Wood Supply in Northern Arizona; and, the 
Four Forest Restoration Initiative.
    The value and effectiveness of the Stewardship Contracting 
Authority for forested ecosystems and watersheds restoration has been 
repeatedly demonstrated across the nation over the last 10 years, and 
particularly in Arizona through the accomplishments of the White 
Mountains Stewardship Contract and the collaborative work of the Four 
Forest Restoration Initiative.
    Simultaneously, Navajo County has been deeply involved in 
addressing and resolving for the Four Forest Restoration Initiative 
first analysis area contract the cancellation ceiling obligation 
currently required in Stewardship Contracts. Navajo County also 
understands and appreciates the need to align the stewardship 
contracting fire liability provisions with those of other contracting 
tools available to the U.S. Forest Service.
    Navajo County is therefore pleased to write in strong support of S. 
1300 to amend the Healthy Forests Restoration Act of 2003 to provide 
for the conduct of stewardship end result contracting projects, 
introduced by Senators Jeff Flake and John McCain, and wants to express 
its appreciation to the Senators for their continued involvement and 
leadership in addressing the issues of fuel reduction as a means to 
prevent catastrophic forest fires, and landscape scale forested 
ecosystems and watershed ecological restoration.
    Thank you for your consideration.
                                 ______
                                 
                       Arizona's Payson Cool Mountain Town,
                                         Payson, AZ, July 29, 2013.
Hon.  Joe Manchin,
Chairman, Public Lands, Forests, and Mining Sub-Committee, Dirksen 
        Senate Office Building, 304 Washington, DC.
    Dear Chairman Manchin and Ranking Member Senator John Barrasso:
    As the Mayor of Payson Arizona, in the heart of the largest 
Ponderosa Forest in the country, I write to encourage your support for 
S.B. 1300, the ``Stewardship Contracting Reauthorization and 
Improvement Act, a bill to amend the Healthy Forests Restoration Act of 
2003 to provide for the conduct of stewardship end result contracting 
projects.
    First, I also want to express my appreciation to you for holding 
this hearing and to Senators FLAKE, MCCAIN, CRAPO, RISCH, and HELLER 
for introducing this important and timely piece of legislation.
    The Town of Payson has formally voted to support the Healthy Forest 
Initiative, 4-FRI and other measure to improve Forest Health and 
minimize fire hazards. More importantly we have supported efforts of 
the Congress and the US Forest Service to protect and preserve our 
beautiful western forests. Stewardship contracting is one tool the 
Forest Service can use to treat forests and reduce fuel loads to 
protect forested communities. It allows a variety of land-management 
goals to be used to reduce wildfire threats by combining timber 
harvesting with beneficial public goals such as forest thinning.
    The Cancellation Ceiling provision will allow one more tool for 
proper financial accounting and accountability.
    Thank you for your continued service to our communities and the 
Country at large.
            Respectfully,
                                               Kenny Evans,
                                                             Mayor.
                                 ______
                                 
                                        City of Scottsdale,
                                                     July 26, 2013.
Hon. Ron Wyden
Chairman, Committee on Energy & Natural Resources, 221 Dirksen Senate 
        Office Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Committee on Energy & Natural Resources, 709 Hart 
        Senate Building, Washington, DC.
    Dear Chairman Wyden and Senator Murkowski,
    As the Mayor of the City of Scottsdale, I am writing you today to 
express my strong support of S. 1300, the Stewardship Contracting 
Reauthorization and Improvement Act. I would also like to commend 
Senator Jeff Flake for introducing this important bill and thank the 
bill's co-sponsors.
    The City of Scottsdale is Arizona's sixth largest city and is home 
to approximately 220,000 residents. Scottsdale's municipal boundaries 
encompass 185 square miles and it abuts the Tonto National Forest on 
our northern boundary.
    As you likely know, the current forest health problem is endemic 
and is affecting watershed management, wildlife habitat and increasing 
the dangers to human life and property from catastrophic wildfire 
events. The poor forest health conditions and resulting catastrophic 
wildfires are having an impact on the City of Scottsdale, which is made 
evident when we experience a reduction of watershed utility, increased 
water treatment costs due to silt and other fire contaminants or the 
loss of tourist visitation to Scottsdale and the great State of 
Arizona.
    Scottsdale is not alone from being impacted by poor forest health. 
Families and businesses in rural Arizona communities face severe 
economic hardship and displacement when fire destroys surrounding 
forested lands. These wildfires create a great and unnecessary risk to 
the health and safety of the community residents especially the brave 
firefighters who battle these blazes each year. Tools to restore forest 
health and reduce the threat of catastrophic wildfires are much needed 
and should be recognized as a national priority.
    One of the most important forest restoration tools at this time is 
stewardship contracting established by the Congress to enable the U.C. 
Forest Service and the Bureau of Land Management to enter into long-
term contracts with external partners to meet forest health objectives.
    Stewardship contracts put into place restoration efforts that 
produce improvements to forest health and the associated benefits to 
our communities. I believe it is essential that we continue the proper 
use of this effective and efficient tool which will help to better 
manage our national forests, reduce the risk of catastrophic wildfires 
and offset the costs to taxpayers for forest treatments by utilizing 
partnerships with the private sector.
    Without the passage of S. 1300, the stewardship contracting 
authority will expire on September 30, 2013. Again, I want to emphasize 
the importance of this forest health tool and feel it is essential that 
the authority not be allowed to expire. I want to thank you for your 
consideration of S. 1300 and respectfully ask for your support.
            Sincerely,
                                         W.J. ``Jim'' Lane,
                                                             Mayor.
                                 ______
                                 
                                        Salt River Project,
                                                      July 29, 2013
Hon. Ron Wyden,
Chairman, Senate Energy and Natural Resources Committee, Washington, 
        DC.
Hon. Lisa Murkowski,
Ranking Member, Senate Energy and Natural Resources Committee, 
        Washington, DC.
Re: Support for S. 1300, Stewardship Contracting Reauthorization and 
Improvement Act
    Dear Chairman Wyden and Ranking Member Murkowski:
    I appreciate your continued leadership on forestry issues and write 
today in support of the Stewardship Contracting Reauthorization and 
Improvement Act (S. 1300). The Salt River Project (SRP) delivers about 
1 million acre-feet of water to agricultural, urban and municipal water 
users and serves nearly 1 million electric customers in Central 
Arizona. Our water supply originates from a 13,000 square mile 
watershed that encompasses the Salt and Verde Rivers.
    Dating back to the early part of the 20th century, the hydrologic 
values associated with healthy forests were recognized by the SRP and 
the federal government, and were a fundamental reason forest lands were 
initially set aside in Arizona. Today, 59% of SRP's watershed lies 
within U.S. National Forests, which is vital to protecting a renewable 
water supply for the State. However, fire suppression and other 
management practices on National Forest lands in the last hundred years 
has resulted in unnatural forest conditions whereby the forests have 
become dense and overgrown, resulting in unhealthy trees that are more 
prone to insect infestation and disease, and the persistent and 
increasing threat of catastrophic wildfire. Deteriorating forest health 
and catastrophic wildfires damage our watersheds, ultimately impacting 
the quality and sustainability of our water supply.
    Restoring the health of our forests and improving future management 
practices is critical, and successful efforts in this regard hinge upon 
the forging of strong public and private partnerships. However, 
attracting private capital investments are protected from unnecessary 
administrative burdens.
    The Stewardship Contracting Reauthorization and Improvement Act (S. 
1300) addresses these concerns by outlining practical solutions to 
ensure forest restoration can be accomplished expediently, and reducing 
the administrative and financial burdens for the Forest Service.
    In addition to improving watershed health, forest restoration also 
helps protect SRP investments in facilities and infrastructure, 
including C.C. Cragin reservoir, power lines and rights of way, and 
communication sites. For these reasons, SRP supports S. 1300 and urges 
prompt consideration of the bill. The health of our watersheds, 
National Forests, and local communities ultimately results in a 
stronger economy for the Salt River Valley and the state of Arizona, 
and I look forward to continuing to work with you on this important 
issue.
            Sincerely,
                                             John Sullivan,
           Associate General Manager and Chief Resources Executive.
                                 ______
                                 
                        Graham County Board of Supervisors,
                                                     July 26, 2013.
Hon. Jeff Flake,
U.S. Senate, B85 Russell Senate Office Building, Washington, DC.
Hon. John McCain,
U.S. Senate, 241 Russell Senate Office Building, Washington, DC.
Re: Support for S.1300 to amend the Healthy Forests Restoration Act of 
2003 to provide for the conduct of stewardship end result contracting 
projects.
    Dear Senators Flake and McCain;
    Graham County has been a stakeholder in the effort to develop and 
implement landscape scale forested ecosystems restoration for the last 
decade and has been involved in the creation of the White Mountains 
Stewardship Project; the Arizona Governor's Forest Health Council's 
Statewide Strategy for Restoring Arizona Forests; the collaborative 
Analysis of Small Wood Supply in Northern Arizona; and, the Forest 
Restoration Initiative.
    The value and effectiveness of the Stewardship Contracting 
Authority for forested ecosystems and watersheds restoration has been 
repeatedly demonstrated across the nation over the last 10 years, and 
particularly in Arizona through the accomplishments of the White 
Mountains Stewardship Contract and the collaborative work of the Four 
Forest Restoration Initiative.
    Simultaneously, Graham County has been deeply involved in 
addressing and resolving for the Four Forest Restoration Initiative 
first analysis area contract the cancellation ceiling obligation 
currently required in Stewardship Contracts. Graham County also 
understands and appreciates the need to align the stewardship 
contracting fire liability provisions with those of other contracting 
tools available to the U.S. Forest Service.
    Graham County is therefore pleased to write in strong support of 
S.1300 to amend the Healthy Forests Restoration Act of 2003 to provide 
for the conduct of stewardship end result contracting projects, 
introduced by Senators Jeff Flake and John McCain, and wants to express 
its appreciation to the Senators for their continued involvement and 
leadership in addressing the issues of fuel reduction as a means to 
prevent catastrophic forest fires, and landscape scale forested 
ecosystems and watershed ecological restoration.
    Thank you for your consideration.
            Respectfully submitted,
                                                 Drew John,
          Chairman of the Board Graham County Board of Supervisors.
                                 ______
                                 
                     Eastern Arizona Counties Organization,
                                       Show Low, AZ, July 26, 2013.
Hon. Jeff Flake,
U.S. Senate, B85 Russell Senate Office Building Washington, DC.
Hon. John McCain,
U.S. Senate, 241 Russell Senate Office Building, Washington, DC.
Re: Support for S. 1300 to amend the Healthy Forests Restoration Act of 
2003 to provide for the conduct of stewardship end result contracting 
projects.
    Dear Senators Flake and McCain;
    The Eastern Arizona Counties Organization is a local government 
organization created in 1993 by joint resolutions of the Boards of 
Supervisors and an Intergovernmental Agreement between the Counties of 
Apache, Gila, Graham, Greenlee and Navajo to implement Presidential 
Executive Order 12372 Intergovernmental Review of Federal Programs 
related to the clearinghouse process for review of Federal programs 
which affect the custom, cultures and economic well-being of the 
Counties. The Eastern Arizona Counties Organization member counties 
have been appointed by Arizona Governor Executive Order as County 
Official Reviewers in the Procedures for Arizona Single Point of 
Contact implementing Intergovernmental Review of Federal Programs.
    The Eastern Arizona Counties Organization has been a stakeholder in 
the effort to develop and implement landscape scale forested ecosystems 
restoration for the last decade and has been involved in the creation 
of the White Mountains Stewardship Project; the Arizona Governor's 
Forest Health Council's Statewide Strategy for Restoring Arizona 
Forests; the collaborative Analysis of Small-Diameter Wood Supply in 
Northern Arizona; and, the Four Forest Restoration Initiative.
    The value and effectiveness of the Stewardship Contracting 
Authority for forested ecosystems and watersheds restoration has been 
repeatedly demonstrated across the nation over the last 10 years, and 
particularly in Arizona through the accomplishments of the White 
Mountains Stewardship Contract and the collaborative work of the Four 
Forest Restoration Initiative.
    Simultaneously, the Eastern Arizona Counties Organization has been 
deeply involved in addressing and resolving for the Four Forest 
Restoration Initiative first analysis area contract the cancellation 
ceiling obligation currently required in Stewardship Contracts. The 
Eastern Arizona Counties Organization also understands and appreciates 
the need to align the stewardship contracting fire liability provisions 
with those of other contracting tools available to the U.S. Forest 
Service.
    The Eastern Arizona Counties Organization is therefore pleased to 
write in strong support of S. 1300 to amend the Healthy Forests 
Restoration Act of 2003 to provide for the conduct of stewardship end 
result contracting projects, introduced by Senators Jeff Flake and John 
McCain, and wants to express its appreciation to the Senators for their 
continued involvement and leadership in addressing the issues of fuel 
reduction as a means to prevent catastrophic forest fires, and 
landscape scale forested ecosystems and watershed ecological 
restoration. Thank you for your consideration.
    Respectfully submitted,
    On behalf and with the approval of the Board of Directors,
                                Pascal Berlioux, Ph.D. MBA,
                                                Executive Director.
                                 ______
                                 
                                      Arizona State Senate,
                                                     July 23, 2013.
Hon.  Ron Wyden,
Chairman, Senate Committee on Energy and Natural Resources, U.S. 
        Senate, 221 Dirksen Senate Office Bldg., Washington, DC.
    Dear Senator Wyden,
    It's with great urgency and alarm that I write to urge your support 
of S1300, the Stewardship Contracting Reauthorization and Improvement 
Act.
    For an understanding of why this legislation is critically 
important to the State of Arizona and the western United States, I have 
one simple recommendation:
    Come to Arizona.
    For the last ten years, the people of Arizona have endured an 
unprecedented series of catastrophic wildfires that have destroyed 
hundreds of homes, burned over a million areas of forest, and cost 
taxpayers tens of millions of dollars. From the 470,000-acre Rodeo-
Chediski Fire in 2002 to the 538,000-acre Wallow Fire in 2011, 
Arizona's tragic experience with large-scale, destructive wildfires on 
federal land is both expensive and well-documented.
    As a result of these fires, large swaths of rural Arizona are now 
charred landscapes standing in mute testimony to the catastrophic 
ineffectiveness of federal forest management policies.
    Unfortunately, my hometown and the district I represent are the 
latest casualties in this struggle. The Doce Fire, which burned 6000 
acres, including critical habitat for a number of species, and the 
Yarnell Hill Fire, which claimed the lives of 19 courageous members of 
the Prescott Fire Department, both burned within my district, affecting 
the landscape and lives of my constituents for decades to come.
    It's time for a change.
    S.1300, sponsored by Arizona Senators Jeff Flake and John McCain, 
is a significant first step in towards changing the way that federal 
agencies manage the forest to prevent wildfire. The bill would extend 
federal agencies' authority to enter into forest stewardship contracts 
to reduce the risk of wildfire. The bill also includes significant 
improvements to the stewardship program to help agencies treat the 
forests on larger scales.
    The importance of these stewardship contracts was vividly and 
unmistakably demonstrated in the summer of 2011 when the 537,000-acre 
Wallow Fire swept through eastern Arizona. In spite of hostile weather 
conditions and unfavorable terrain, the Fire did not burn through 
several forested communities in its path-communities around which the 
Forest Service had conducted thinning as part of the White Mountain 
Stewardship Contract.
    Alpine, Springerville, Eager, and Nutrioso were all largely spared 
because the woods around those communities had been treated by a 
stewardship contract.
    Significantly, S1300 would also grant the Forest Service and Bureau 
of Land Management (BLM) flexibility when holding funds in reserve to 
cover the cost of cancelled contracts-a reform that proponents of 
proactive forest management have been advocating for years. Typically, 
these agencies must hold in reserve the full amount of the contract for 
its duration. This requirement has been a serious impediment to the 
kind of long-term contracts that are necessary to conduct landscape-
scale treatments of the forest.
    The urgency of Senator Flake and McCain's legislation is 
underscored by the loss of Arizona firefighters in the Yarnell Hill 
Fire. While this specific tragedy was not the result of federal forest 
management policies since the fire occurred on state, not federal land, 
the incident is nevertheless a dramatic reminder of the potential for 
these fires to cause significant loss of life and property.
    In addition to expressing support for S1300, I would like to make a 
personal appeal for federal fire aviation resources to be permanently 
positioned at Forest Service Fire Centers, such as the Prescott Fire 
Center and Aviation Facility. Doing so would ensure that critical 
assets are pre-positioned to quickly respond when local fires erupt, as 
they surely will.
    As a native Arizonan and lifelong rancher, I have personally 
witnessed the federal government's neglect of Arizona's national 
forests and the tragic consequences of that neglect. Just a few weeks 
ago, I stood on my front porch and watched slurry bombers desperately 
work to contain the Doce Fire, which burned only 8 miles from the Town 
of Prescott and a few miles from my ranch.
    The current policies governing forest management in the United 
States have proven effective at only one thing-promoting wildfires in 
greater frequency and larger scales. If the federal government does not 
change these policies, there will come a day when the fires stop.
    But only because there are no more trees left to burn.
    I ask for your support of S.1300.
            Sincerely,
                                              Steve Pierce,
                                               Senator, District 1.
                                 ______
                                 
    Statement of John W. Moore, Mayor, City of Williams, on S. 1300

    Those of us who are fortunate enough to live, work or play in or 
near Arizona's awesome forests know or have experienced the devastation 
resulting from wildfires. Keeping our forests healthy and our 
communities and firefighters safe are our responsibilities as good 
stewards of our natural resources.
    Allowing the Forest Service more flexibility and authority to enter 
into forest stewardship contracts that use private timber companies to 
thin our forests and sell the harvested wood as compensation would seem 
to be a major component in addressing the above-noted concerns as well 
as serving as an economic stimulus for the private timber companies and 
their employees.
    The Mayor and Council Members of Williams strongly support the 
passage of S. 1300 by the Energy and Natural Resources Committee so 
that these issues may be better addressed.
                                 ______
                                 
 Statement of James A. Allen, Ph.D., Policy Chair, Southwest Sector of 
        the Southwestern Society of American Forests, on S. 1300

    The Southwestern Society of American Forestry (SAF), a scientific 
and educational organization representing more than 350 forestry 
professionals in Arizona and New Mexico, is writing to express our 
thanks to the Committee for considering The Stewardship Contracting 
Reauthorization and Improvement Act (S. 1300) during the July 30th 
Committee Hearing. We also thank Senators Flake, McCain, and Baucus for 
their leadership in promoting timely action on the reauthorization of 
Stewardship Contracting.
    We cannot afford to lose this critical forest management tool, 
which will expire on September 30, 2013 without Congressional action. 
Reauthorization of the Stewardship Contracting Authority is urgently 
needed to ensure the USDA Forest Service and Bureau of Land Management 
can continue to use this essential tool to foster healthy forest 
ecosystems and provide stability and employment to rural communities.
    Stewardship Contracting helps address the critical need for 
restoration activities in our national forests by encouraging the 
collaboration and long-term commitments among agencies, contractors, 
local communities, and other interested stakeholders. In Arizona and 
New Mexico, rural communities and forests benefit from treatments 
completed under the Stewardship Contracting Authority to promote 
healthy forests and reduce fire hazards, increase watershed resilience, 
protect wildlife habitat, and help improve local economies. Stewardship 
Contracts and Agreements are an effective and important complement to 
traditional timber sales. The efficacy of these instruments is being 
amply demonstrated in our region--examples include the White Mountain 
Stewardship Contract, Pinaleno Ecosystem Restoration Project, Bluewater 
Stewardship Agreement and the Four Forest Restoration Initiative, Phase 
I Integrated Resource Service Contract.
    Reauthorization of the Stewardship Contracting authority will allow 
forest managers to continue using innovative contracting methods to 
achieve landscape-scale forest management objectives, increase and 
diversify job opportunities, and provide certainty for contractors with 
multiyear projects while building strong partnerships invested in the 
future of our forests and communities of the Southwest.
    As stakeholders, we are concerned that time is short and definitive 
action has not yet been taken to ensure the long-term availability of 
Stewardship Contracting Authority. We urge careful consideration of 
this and related legislation that would reauthorize and make permanent 
this critical forest management tool. Stewardship Contracting Authority 
enjoys the endorsement of SAF and a wide range of forest and 
conservation groups, as well as bi-partisan support in Congress.
                                 ______
                                 
 Statement of Elizabeth C. Archuleta, Chair, Coconino County Board of 
                        Supervisors, on S. 1300

    On behalf of Coconino County, we are writing to express our support 
of S. 1300, Stewardship Contracting Reauthorization and Improvement 
Act. S. 1300 will extend stewardship contracting for another ten years.
    As you are aware, stewardship contracting has been successfully 
implement in Arizona, and is a very valuable tool to promote healthy 
forests and to reduce wildfire risks. Large-scale treatment projects 
are necessary to maintain the health of our forests and this 
legislation will provide the authority for large projects, such as the 
Four Forests Restoration Initiative, to move forward.
    Expanding the stewardship contracting authority will also allow the 
ability to include improvements to the stewardship program that would 
help agencies treat larger areas of our forests. The legislation also 
provides the United States Forest Service and the Bureau of Land 
Management with flexibility in establishing cancellation ceilings and 
also reduces barriers to stewardship contracting that could prove 
useful for future restoration initiatives.
    While the county is supportive of expanding stewardship contracting 
authority, we would be remiss if we did not relay a request from 
counties to extend traditional receipt sharing to counties, as it 
currently exists through timber sales. With the decline in receipts and 
the expiration of the Secure Rural Schools and Self Determination Act, 
counties are looking for ways to continue funding critical needs, 
including road maintenance. We request you address this issue as the 
legislation moves forward.
    Thank you again for introducing S. 1300. Coconino County has seen 
first-hand the devastation that wildfires can bring and the subsequent 
aftermath. Proper forest management and allowing the Forest Service 
every tool is of utmost importance to the health of our forests and of 
the citizens of Coconino County and the State of Arizona.
                                 ______
                                 
     Statement of Charlotte King, Director of the New Philadelphia 
                       Association National Parks

    Thank you, Chairman Udall and Members of the Subcommittee. My name 
is Charlotte King and I am a Director of the New Philadelphia 
Association, a grass roots organization dedicated to preserve and 
commemorate the historic town site of New Philadelphia, Illinois, its 
residents and founder Frank McWorter. I appreciate your time and the 
opportunity to address the Subcommittee.
    I hope that by the end of my testimony you will agree that the 
historic town site of New Philadelphia, Illinois qualifies for a place 
in history as a unit of the nation's cultural crown jewels--the 
National Park Service (NPS). Senator Mark Kirk and Senator Richard 
Durbin's legislation, S. 1328, would start the process to do just that. 
It is my hope, and the Association's hope, that this Committee will 
move forward with Senator Durbin and Senator Kirk's bill.
    New Philadelphia, Illinois, is the first known town in our nation 
platted and officially registered by an African American.
    Born enslaved in South Carolina and moved to Kentucky by his 
enslaver, town founder Frank McWorter purchased freedom for his wife in 
1817, thus ensuring their soon to be born child and future children 
would be born free. McWorter purchased his own freedom in 1819 and 
subsequently freed an additional fourteen family members from slavery. 
McWorter earned the funds for freedom through various money making 
ventures, including being allowed by his enslaver to keep a portion of 
his earnings as a hired hand to other pioneers while enslaved in 
Kentucky and by mining caves for crude niter to produce saltpetre, a 
component used to manufacture gunpowder--vital for life on the frontier 
and for the War of 1812.
    With his additional earnings, McWorter also acquired a plot of land 
in Pike County, Illinois, and moved there in 1830 with his wife, three 
free-born children and a son known as Young Frank. The son Young Frank 
escaped slavery by fleeing to Canada in 1826. Father Frank McWorter 
exchanged his lucrative saltpetre operation for Young Frank's freedom 
in 1829. He purchased an additional plot of land and, in 1836, founded 
New Philadelphia with the intention of applying proceeds earned through 
lot sales to free children and grandchildren who remained in bondage.
    McWorter called the town he founded Philadelphia and sold lots to 
African and European Americans. An integrated town, New Philadelphia, 
as it came to be known, was a place where free-born and formerly 
enslaved African Americans lived alongside European Americans in a 
region and era of intense racial strife. Archaeological investigations 
conducted at the site through two 3-year National Science Foundation 
grants found little difference in the material culture of town lots 
occupied by African and European Americans.
    Situated on fertile prairie land between the Illinois and 
Mississippi Rivers and near major transportation networks, the town 
grew from a small settlement with three dwellings in the 1840s, and 
peaked in the 1860s with as many as 160 residents. However, when the 
Hannibal to Naples Railroad bypassed the town in 1869, New Philadelphia 
fell into a decline from which it could not recover. Although a few 
families remained, most of the population moved away by the late 1940s. 
The once thriving town is now an archaeological site with only a few 
building foundations visible on the landscape. Three structures 
currently located at the town site date to the era of New Philadelphia 
but are not original to the site. The structures were re-located from 
nearby towns to illustrate how the buildings of New Philadelphia may 
have appeared.
    New Philadelphia was listed on the National Register of Historic 
Places in 2005 for its archaeological potential to provide nationally 
significant information about the lifeways and relationships of African 
Americans and European Americans in a pioneer setting. In 2009 the town 
site was designated a National Historic Landmark for its potential to 
yield information of major scientific importance and to affect 
archaeological theories, concepts and ideas. New Philadelphia was 
included in the National Park Service National Underground Railroad 
Network to Freedom Program in 2013 for its participation in the 
movement to resist and end slavery by concealing, harboring and 
sometimes accompanying runaway African Americans seeking freedom to 
Canada.
    As a unit of the National Park Service, New Philadelphia would 
further enhance the rich historical significance of the geographic 
corridor extending from Hannibal, Missouri, to Pittsfield, Illinois. 
Hannibal is famed for its association with Samuel Clemons, who wrote as 
Mark Twain and lived in the town from 1839 to 1845, the early years of 
New Philadelphia's development. Attorney, Abraham Lincoln traveled the 
route of the old Illinois' 8th Judicial Circuit Court representing 
clients in the county seat of Pittsfield, only fourteen miles distant 
from New Philadelphia, at the time New Philadelphia was growing into a 
substantial community. New Philadelphia's recent acceptance in the 
National Park Service National Underground Network to Freedom Program 
links the site to Quincy, Alton and Jacksonville and further 
contributes to the significance of this historical area.
    In addition to contributing to the historical significance of the 
region, New Philadelphia's inclusion in the National Park System could 
provide a source of revenue to benefit the economic prosperity of the 
area. Outdoor enthusiasts as well as visitors attracted by historical 
attractions would generate funds for local businesses, such as 
restaurants, places of lodging, shops and other services required by 
tourists.
    Management by the National Park Service could attract visitors from 
across the nation and around the world through the widely distributed 
promotional material available through the NPS and its access to a 
variety of media. The high standards demanded for representation and 
protection by the National Park Service have earned worldwide respect 
and attention. The historic properties included in the National Park 
System are regarded as our nation's cultural crown jewels. As a unit of 
the NPS, New Philadelphia would be among these prestigious sites and 
benefit from the association.
    At New Philadelphia, lack of above ground features does not 
diminish the impact of the national significance of this remarkable 
historic site. New Philadelphia's excellent archaeological integrity 
presents a unique opportunity to understand pre-Civil War integrated 
communities. Comparable sites are not adequately preserved, interpreted 
or represented in the National Park System.
    As at New Philadelphia, there are no physical remains present at 
the Sand Creek Massacre site in Colorado, where more than 150 American 
Indians were killed. Nor are physical remains present at the African 
Burial Ground in New York's Manhattan, where more than 400 freed and 
enslaved African Americans buried in the 17th and 18th centuries were 
unearthed during construction of a building at the site. The recovered 
remains were re-interred elsewhere; a monument now memorializes the 
site. At Shanksville, Pennsylvania, where United Airlines Flight 93 
crashed during the terrorist attack on our country in 2001, markers 
commemorate the bravery of the passengers and crew. Many battlefield 
sites protected and preserved by the National Park Service are situated 
in remote areas and lack physical remains.
    The site's current setting looks much as it did during its 
existence as a thriving community: rural, agricultural and somewhat 
remote. The historic town site and the gently rolling hills of the 
surrounding terrain are covered with prairie grasses, agricultural 
crops and timber. The New Philadelphia town site retains excellent 
integrity of location, setting and feeling.
    An information kiosk is currently being constructed at the New 
Philadelphia site, funded by a grant from the Illinois Rural Electric 
Cooperative and in collaboration with local businesses and the nearby 
John Woods Community College. The open-sided kiosk is scheduled for 
completion in autumn 2013 and will shelter metal interpretation panels, 
National Park Service recognition plaques and informational materials. 
A self-guided walking tour through the historic portion of the site 
will also be completed by autumn 2013. In addition, plans are underway 
to develop a Smartphone application for information and a self-guided 
walking tour of the site.
    Maintenance costs of New Philadelphia as a unit of the NPS could be 
minimized by sharing supervision staff with other nearby NPS sites. 
Sharing oversight responsibility would also reduce the need to 
construct extensive facilities.
    New Philadelphia's designation as a unit of the National Park 
System will guarantee preservation of the historical significance of 
this unique place to inspire current and future generations with themes 
important to all Americans: the struggle for freedom and opportunity. 
By including New Philadelphia among the national treasures designated 
units of the National Park Service, of which currently less than 5% are 
predominantly associated with African-American history, the story of 
our country would be more complete and accurate and would give 
recognition to the accomplishments and contributions of African 
Americans to the development of our country.
    Thank you again, Chairman Udall and Subcommittee Members, for the 
opportunity to address you.
                                 ______
                                 
 Statement of Kyle A. Moore, Mayor of the City of Quincy, Quincy, IL, 
                               on S. 1328

    I am pleased to endorse the legislation you and Senator Richard 
Durbin introduced to the U.S. Senate, S. 1328, The New Philadelphia 
Study Act, a feasibility study to determine the qualifications of New 
Philadelphia, Illinois for inclusion as a unit of the National Park 
Service for its exceptional national historic significance. As a place 
where formerly enslaved individuals, free born African Americans, and 
European Americans lived together in a region and an era of intense 
racial strife, a National Park unit at New Philadelphia will inspire 
current and future generations and commemorate themes important to all 
Americans: the struggle for freedom and opportunity.
    Free Frank McWorter, the founder of New Philadelphia, was 
remarkable not only for his vision of establishing a racially-
integrated community in West-central Illinois during the early 
nineteenth century, but also for purchasing freedom for himself, his 
wife and more than a dozen additional family members. Despite lllinois' 
Black Codes, the slave state of Missouri on Illinois' border to the 
west, and intense racial discrimination that persisted well after the 
Civil War, the town of New Philadelphia survived until the beginning of 
the twentieth century. The enduring public memory ofNew Philadelphia 
continues today in West-central Illinois nearly a century after most of 
its residents moved away.
    Archaeological investigations of the town site since late in 2002 
have demonstrated that long-forgotten architectural foundations, 
cellars, cisterns, wells, and refuse deposits have survived 
agricultural activities and other ground surface modifications. New 
research methods are being applied as ways of locating these 
archaeological resources. National Park status will ensure that the 
unique opportunity to study nineteenth-century race relations within a 
small multi-racial community setting will be protected by the federal 
government for the good of the American people.
    By including New Philadelphia among the national treasures 
designated as National Parks, we have the opportunity to contribute to 
a more complete and accurate account of the people, events, and 
cultural interactions that shaped our nation's character. Therefore, 
Iam pleased to support the nomination of the New Philadelphia Town Site 
for designation as a National Park.
                                 ______
                                 
  Statement of John Hayden, Mayor, City of Pittsfield, Pittsfield IL, 
                               on S. 1328

    Dear Senator Kirk:
    I am pleased to endorse the legislation you and Senator Richard 
Durbin introduced to the U.S. Senate, S. 1328, The New Philadelphia 
Study Act, a feasibility study to determine the qualifications of New 
Philadelphia, Illinois for inclusion as a unit of the National Park 
Service for its exceptional national historic significance. As a place 
where formerly enslaved individuals, free born African Americans, and 
European Americans lived together in a region and an era of intense 
racial strife, a National Park unit at New Philadelphia will inspire 
current and future generations and commemorate themes important to all 
Americans: the struggle for freedom and opportunity.
    Free Frank McWorter, the founder of New Philadelphia, was 
remarkable not only for his vision of establishing a racially-
integrated community in West-central Illinois during the early 
nineteenth century, but also for purchasing freedom for himself, his 
wife and more than a dozen additional family members. Despite Illinois' 
Black Codes, the slave state of Missouri on Illinois' border to the 
west, and intense racial discrimination that persisted well after the 
Civil War, the town of New Philadelphia survived until the beginning of 
the twentieth century. The enduring public memory ofNew Philadelphia 
continues today in West-central Illinois nearly a century after most of 
its residents moved away.
    Archaeological investigations of the town site since late in 2002 
have demonstrated that long-forgotten architectural foundations, 
cellars, cisterns, wells, and refuse deposits have survived 
agricultural activities and other ground surface modifications. New 
research methods are being applied as ways oflocating these 
archaeological resources. National Park status will ensure that the 
unique opportunity to study nineteenth-century race relations within a 
small multi-racial community setting will be protected by the federal 
government for the good of the American people.
    By including New Philadelphia among the national treasures 
designated as National Parks, we have the opportunity to contribute to 
a more complete and accurate account of the people, events, and 
cultural interactions that shaped our nation's character. Therefore, I 
am pleased to support the nomination of the New Philadelphia Town Site 
for designation as a National Park.

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
